<html>
<title> - NOMINATION OF BARRY LEE MYERS TO BE UNDER SECRETARY OF COMMERCE FOR OCEANS AND ATMOSPHERE; AND. ADMINISTRATOR, NATIONAL OCEANIC AND. ATMOSPHERIC ADMINISTRATION (NOAA),. DEPARTMENT OF COMMERCE</title>
<body><pre>[Senate Hearing 115-647]
[From the U.S. Government Publishing Office]


                                                     S. Hrg. 115-647

                     NOMINATION OF BARRY LEE MYERS
                   TO BE UNDER SECRETARY OF COMMERCE
                     FOR OCEANS AND ATMOSPHERE; AND
                  ADMINISTRATOR, NATIONAL OCEANIC AND
                   ATMOSPHERIC ADMINISTRATION (NOAA),
                         DEPARTMENT OF COMMERCE

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 29, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                            


                Available online: http://www.govinfo.gov
       
       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-230 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0c7c634c6f797f786469607c226f636122">[email&#160;protected]</a>               
       
       
       
       
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
                                                                   
Hearing held on November 29, 2017................................     1
Statement of Senator Sullivan....................................     1
    Prepared statement...........................................     3
        Letters supporting the nomination of Barry Lee Myers for 
          NOAA Administrator 


Statement of Senator Nelson......................................     4
    Opposition letter dated October 12, 2017 to Hon. John Thune 
      and Hon. Bill Nelson from Richard J. Hirn, General Counsel 
      and Legislative Director, National Weather Service 
      Employees Organization.....................................     4
    Opposition letter dated October 23, 2017 from Center for 
      Biological Diversity, Climate Hawks Vote, ClimateTruth.org 
      Earthjustice, Friends of the Earth, Greenpeace USA, Hip Hop 
      Caucus, League of Conservation Voters, Marine Conservation 
      Institute, Natural Resources Defense Council, Oceana 
      Pacific Environment, Power Shift Network, and Sierra Club..     5
    Letter dated November 27, 2017 to Hon. John Thune and Hon. 
      Bill Nelson from Janis Searles Jones, Chief Executive 
      Officer, Ocean Conservancy.................................     7
Statement of Senator Thune.......................................    75
Statement of Senator Schatz......................................    77
Statement of Senator Markey......................................    80
Statement of Senator Hassan......................................    81
Statement of Senator Cortez Masto................................    83
Statement of Senator Inhofe......................................    85
Statement of Senator Wicker......................................    87
Statement of Senator Udall.......................................    88
Statement of Senator Cantwell....................................    89
Statement of Senator Duckworth...................................    90
Statement of Senator Peters......................................    92

                               Witnesses

Hon. Pat Toomey, U.S. Senator from Pennsylvania..................    11
    Prepared statement...........................................    12
Barry Lee Myers, to be Under Secretary of Commerce for Oceans and 
  Atmosphere; and Administrator, National Oceanic and Atmospheric 
  Administration (NOAA), Department of Commerce..................    13
    Prepared statement...........................................    15
    Biographical information.....................................    16

                                Appendix

Response to written questions submitted to Barry Lee Myers by:
    Hon. John Thune..............................................    97
    Hon. Roger F. Wicker.........................................    98
    Hon. Dean Heller.............................................    98
    Hon. Shelley Moore Capito....................................    99
    Hon. Bill Nelson.............................................    99
    Hon. Maria Cantwell..........................................   105
    Hon. Amy Klobuchar...........................................   110
    Hon. Richard Blumenthal......................................   111
    Hon. Brian Schatz............................................   116
    Hon. Edward Markey...........................................   117
    Hon. Cory Booker.............................................   118
    Hon. Tom Udall...............................................   119
    Hon. Gary Peters.............................................   120
    Hon. Maggie Hassan...........................................   123
    Hon. Catherine Cortez Masto..................................   124

 
                     NOMINATION OF BARRY LEE MYERS
                   TO BE UNDER SECRETARY OF COMMERCE
                     FOR OCEANS AND ATMOSPHERE; AND.
                  ADMINISTRATOR, NATIONAL OCEANIC AND.
                   ATMOSPHERIC ADMINISTRATION (NOAA),.
                         DEPARTMENT OF COMMERCE

                              ----------                              


                      WEDNESDAY, NOVEMBER 29, 2017

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:39 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Dan Sullivan, 
presiding.
    Present: Senators Thune [presiding], Sullivan, Wicker, 
Inhofe, Young, Nelson, Cantwell, Schatz, Blumenthal, Markey, 
Udall, Booker, Duckworth, Peters, and Cortez Masto.

            OPENING STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. The hearing will come to order.
    Good morning. Today we will consider the nomination of 
Barry Lee Myers to serve in the important position of Under 
Secretary of Commerce for Oceans and Atmosphere. If confirmed, 
Mr. Myers would serve as the Administrator of the National 
Ocean and Atmospheric Administration, commonly known as NOAA, 
under the Department of Commerce, and oversee what some 
describe as our Nation's environmental intelligence agency.
    Thank you, Mr. Myers, as well as your family for your 
willingness to serve our Nation.
    NOAA has a vital mission that protects life, property, and 
commerce through environmental science and observation from the 
sun down to the depths of the ocean. NOAA provides the American 
people with daily weather forecasts, severe storm warnings, 
fisheries science and management, and ocean mapping and 
science.
    In my home State of Alaska, we are particularly dependent 
upon NOAA's services. Alaska is the super power of seafood, as 
I have mentioned to many of my colleagues here, accounting for 
almost 60 percent of all domestic landings and more than 
600,000 jobs, making the fishery industry our largest private 
employer, more than oil and gas.
    NOAA is the agency responsible for oversight of America's 
fisheries, and I will be among those working closely with the 
Under Secretary of Commerce for Oceans and Atmosphere to ensure 
a continuing bright future for this very important segment of 
the U.S. economy.
    NOAA is also responsible for charting our waters, providing 
accessible, timely, and accurate weather forecasting and 
studying and helping keep clean our unique and treasured oceans 
and natural resources, all missions of extreme importance to 
the country and to my state as well.
    The Administrator of NOAA oversees these vital functions of 
the agency, as well as laying out its strategic and operational 
future with respect to the National Weather Service, the 
National Oceans Service, the National Marine Fisheries Service, 
the National Environmental Satellite Data and Information 
Service, the Office of Oceanic and Atmospheric Research, and 
the Office of Marine and Aviation Operations, which includes 
NOAA's uniformed service, the NOAA Corps.
    Mr. Myers comes to the position of being nominated as a 
well-qualified candidate, having dedicated an entirety of his 
career to the weather forecasting industry. Since 1964, Mr. 
Myers has worked at the global weather forecasting and media 
company, AccuWeather, which provides commercial weather 
forecasting products and services to newspapers, radio, and 
television stations, government agencies, companies, and third 
party websites.
    In 2007, he became the CEO of AccuWeather, leading the 
organization to experience its largest global web and mobile 
app audience growth in its history.
    In addition to his current role at AccuWeather, he is a 
recognized national and international authority on weather 
forecasting, having testified before Congress on issues 
pertaining to weather forecasting no less than four times in 
his career. In fact, Mr. Myers testified before this 
Committee's Subcommittee on Oceans, Atmosphere, Fisheries, and 
the Coast Guard in 2013 at a hearing entitled ``Forecasting 
Success: Achieving U.S. Weather Readiness for the Long Term.''
    From 2009 to 2016, Mr. Myers also served on NOAA's 
Environmental Information Services Working Group, Science 
Advisory Board, and in 2016, he was elected as a fellow of the 
American Meteorological Society, one of the few non-scientists 
ever to be elected as a fellow to this prestigious 
organization.
    While Mr. Myers' experience in the weather industry is 
undeniably extensive, some have raised issues of concern about 
his nomination on the grounds that his educational background 
lies in business and law rather than science or that NOAA's 
mission expands well beyond its weather forecasting mission. I 
am sure that my colleagues will ask questions relating to some 
of these issues.
    Given Mr. Myers' proven track record of leadership, if 
confirmed, he is well positioned to perform the role of NOAA 
Administrator, and I want to thank him again for his desire to 
serve our country.
    Additionally, at the end of the last Congress, the NOAA 
Sexual Assault, Harassment, and Assault Prevention Act, of 
which I was the lead sponsor with many of my colleagues on this 
Committee, was passed into law. We are approaching one year of 
passage and the deadline for the establishment of many 
provisions within the law. If confirmed, I look forward to 
working with Mr. Myers for updates on where the agency stands 
and any noted improvement to the culture of NOAA related to 
this important issue of sexual harassment and assault 
prevention that is now finally getting the attention it 
deserves in the Congress.
    Once again, I would like to thank Mr. Myers for testifying 
today and for your willingness to serve our country.
    [The prepared statement of Senator Sullivan follows:]

   Prepared Statement of Hon. Dan Sullivan, U.S. Senator from Alaska
    Good morning. Today we will consider the nomination of Barry Lee 
Myers to serve in the important position of Under Secretary of Commerce 
for Oceans and Atmosphere. If confirmed, Mr. Myers would serve as the 
Administrator of the National Oceanic and Atmospheric Administration 
(NOAA) under the Department of Commerce and oversee what some describe 
as our Nation's environmental intelligence agency. Thank you Mr. Myers, 
as well as your family, for your willingness to serve the Nation.
    NOAA has a vital mission that protects life, property, and commerce 
through environmental science and observation from the sun down to the 
depths of the ocean. NOAA provides the American people with daily 
weather forecasts, severe storm warnings, fisheries science and 
management, and ocean mapping and science.
    In my home state of Alaska, we are especially dependent on NOAA's 
services. Alaska is the superpower of seafood, accounting for over 50 
percent of total domestic landings and more than 60,000 jobs--making 
the fisheries industry our largest private employer. NOAA is the agency 
responsible for the oversight of America's fisheries, and I will be 
among those working closely with the Under Secretary of Commerce for 
Oceans and Atmosphere to ensuring a bright future for this important 
segment of the U.S. economy.
    NOAA is also responsible for charting our waters, providing 
accessible, timely, and accurate weather forecasting, and studying our 
unique and treasured oceans and natural resources--all missions of 
extreme importance to Alaska and the Nation.
    The Administrator of NOAA oversees these vital functions of the 
agency, as well as laying out its strategic and operational future with 
respect to the National Weather Service, the National Ocean Service, 
the National Marine Fisheries Service, the National Environmental 
Satellite, Data and Information Service, the Office of Oceanic and 
Atmospheric Research, and the Office of Marine and Aviation Operations, 
which includes NOAA's uniformed service, the NOAA Corps.
    Mr. Myers is a well-qualified nominee to serve as NOAA 
Administrator, having dedicated the entirety of his career to the 
weather forecasting industry. Since 1964, Mr. Myers has worked at the 
global weather forecasting and media company AccuWeather, which 
provides commercial weather forecasting products and services to 
newspapers, radio and television stations, government agencies, 
companies, and third-party websites. In 2007, he became the CEO of 
AccuWeather, leading the organization to experience its largest global 
web and mobile audience growth in its history.
    In addition to his current role at AccuWeather, he is a recognized 
national and international authority on weather forecasting having 
testified before Congress on issues pertaining to weather forecasting 
no less than four times in his career. In fact, Mr. Myers testified 
before this Committee's Subcommittee on Oceans, Atmosphere, Fisheries, 
and Coast Guard in 2013 at a hearing entitled, ``Forecasting Success: 
Achieving U.S. Weather Readiness for the Long Term.''
    From 2009 to 2016, Mr. Myers also served on NOAA's Environmental 
Information Services Working Group Science Advisory Board, and in 2016, 
he was elected as a Fellow of the American Meteorological Society, 
perhaps one of the only non-scientists to be elected as a fellow to 
this prestigious organization.
    While Mr. Myers' experience in the weather industry is undeniably 
extensive, some have raised concerns about his nomination on the 
grounds that his educational background lies in business and law rather 
than science or that NOAA's mission expands well beyond its weather 
forecasting mission. Given Mr. Myers' proven track record of 
leadership, if confirmed, he is well positioned to perform well in this 
important role.
    Additionally, at the end of last Congress, the NOAA Sexual 
Harassment and Assault Prevention Act, which I was the lead sponsor of, 
was passed into law. We are approaching one year since passage and the 
deadline for the establishment of many provisions within the law. Once 
he is confirmed, I will look to Mr. Myers for updates on where the 
agency stands, and any noted improvements to the culture of the agency 
related to this important issue.
    Once again, I would like to thank you for testifying today and for 
your willingness to serve the Nation in this important post.
    With that, I turn to the Ranking Member for any remarks he might 
have.

    Senator Sullivan. I now turn to the Ranking Member for any 
remarks he might have. Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman. May I submit a 
number of letters that have been written with regard to the 
nominee for the record?
    Senator Sullivan. Without objection.
    [The information referred to follows:]

            National Weather Service Employees Organization
                                                   October 12, 2017

Hon. John Thune,
Chairman,
Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Committee on Commerce, Science, and Transportation,
Washington, DC.

RE: Nomination for Under Secretary of Commerce For Oceans and 
            Atmosphere (NOAA Administrator)

Dear Chairman Thune and Ranking Member Nelson:

    We are writing to express our opposition to the nomination of Mr. 
Barry Myers, an attorney and CEO of AccuWeather, Inc., as NOAA 
Administrator. As you know, this position has traditionally been filled 
by a pre-eminent scientist, and by that standard alone, Mr. Myers is 
wholly unqualified for the job.
    In addition to his lack of scientific qualifications and his 
absence of any background in oceans, research, fisheries, environmental 
satellites, which constitute a majority of NOAA's programs and budget, 
Mr. Myers' nomination would present a host of conflicts of interests. 
As NOAA Administrator, he would be in a position to fundamentally alter 
the nature of weather services that NOAA provides the nation, to the 
benefit of his family-owned business.
    According to the Washington Post, ``Barry Myers, the CEO of 
AccuWeather, which has long held a narrow interpretation of the NWS 
mission with respect to the services it should provide.'' \1\ This 
would be a fundamental policy shift, as the NWS has spent the past 
several years re-tooling its operations in order to provide increased 
``decision support services'' to the American public.
---------------------------------------------------------------------------
    \1\ Jason Samenow, Storm brewing over National Weather Service 
television studio, Wash. Post (April 28, 2015), https://
www.washingtonpost.com/news/capital-weather-gang/wp/2015/04/28/storm-
brewing-over-national-weather-service-television-studio/
?utm_term=.bcee1c1d39f6
---------------------------------------------------------------------------
    In 2005, at AccuWeather's behest, Senator Santorum introduced 
legislation that would have prohibited the National Weather Service 
from providing any product or service that ``is or could be provided 
by'' a private sector weather company (such as AccuWeather), other than 
severe weather warnings. Instead of issuing its routine forecasts and 
data sets to the public, the Act would have required that those 
products be disseminated ``through a set of data portals designed for 
volume access by commercial providers of products or services'' 
instead.\2\ In other words, the NWS would have been prohibited from 
providing routine forecasts, products and services, other than a severe 
weather warning, to the general public or emergency managers or the 
media, but would have been required to provide these products to 
``commercial providers'' so that they could market, for a profit, a 
taxpayer funded and government produced service.\3\ Congress thought so 
little of this proposed legislation that it did not receive a single 
sponsor. However, should Mr. Myers be approved as NOAA Administrator, 
he will be able to order the National Weather Service to do precisely 
what his company was unable to accomplish through legislation.
---------------------------------------------------------------------------
    \2\ See, Section 2 of National Weather Service Duties Act of 2005, 
S. 786.
    \3\ For an in depth explanation of the impact of the bill, see 
Timothy Noah, Santorum's Mighty Wind: The Accuweather Protection Act of 
2005, Slate, (Aug 2, 2005); http://www.slate.com/articles/
news_and_politics/chatterbox/2005/08/santorums_mighty_wind.html; Vince 
Stricherz, Plan to privatize most forecasting would cripple weather 
service, expert says, University of Washington Today (May 16, 2005), 
http://www.washington.edu/news/2005/05/16/plan-to-privatize-most-
forecasting-would-cripple-weather-service-expert-says/
---------------------------------------------------------------------------
    This was not the only example in which Mr. Myer's company sought to 
capitalize on the National Weather Service. In 2005, it was caught 
using the URL name ``nationalweatherservice.org''--which brought 
visitors to the AccuWeather website instead. AccuWeather was forced to 
cease using this deceptive domain name.\4\ It was also recently 
revealed that under Myer's leadership, AccuWeather's mobile application 
had been secretly sending its user's location information to a third-
party company that markets location data for advertising purposes.\5\ A 
CEO whose company engages in such deceptive practices should not be 
entrusted with the responsibility to head such an important Federal 
agency, whose work is only worthwhile to the American public to the 
extent it can be trusted.
---------------------------------------------------------------------------
    \4\ Timothy Noah, Santorum's Mighty Wind, Part 2: If you can't lick 
them, spoof them, Slate, (Sept. 27, 2005), http://www.slate.com/
articles/news_and_politics/chatterbox/2005/09/santo
rums_mighty_wind_part_2.html
    \5\ https://hackernoon.com/advisory-accuweather-ios-app-sends-
location-information-to-data-mo
netization-firm-83327c6a4870
---------------------------------------------------------------------------
    Mr. Myer's appointment as NOAA Administrator would present a host 
of additional ethics and conflicts issues. For example, in 2015 Mr. 
Myers announced that his company has formed a joint venture with a 
commercial weather media company owned by the China Meteorological 
Administration, to provide forecasts in China. This joint venture is 
the only company sanctioned by the Meteorological Law of China to 
distribute the China Meteorological Administration's weather 
information and forecasts via AccuWeather.\6\ He is literally in 
business with the Chinese government.
---------------------------------------------------------------------------
    \6\ Lauren Dodillet, JV Brings Accuweather Tech to China, China 
Business Review, (May 28, 2015), http://www.chinabusinessreview.com/jv-
brings-accuweather-tech-to-china/
---------------------------------------------------------------------------
    In addition to AccuWeather, the Myers' family also owns ``The 
Weather Prophets Fund, LLC,'' a weather-based hedge fund. In an article 
describing this venture, Joel Myers, founder of AccuWeather, was quoted 
as explaining how weather based hedge funds could profit from inside 
information that his brother would be in a position to supply:

        For example, an investment manager could benefit from knowing 
        just five minutes ahead of time that the National Weather 
        Service in Silver Spring, MD, is about to reclassify a Category 
        3 storm into a more powerful Category 4 storm, he said. That 
        could cause a spike in the price of natural gas futures on 
        which the manager could capitalize, Mr. Myers said.\7\
---------------------------------------------------------------------------
    \7\ David Hoffman, Weather Forecasting Gaining Respect in 
Hurricanes' Wake, Investment News, (Oct. 3, 2005), http://
www.investmentnews.com/article/20051003/SUB/510030723/wea
ther-forecasting-gaining-respect-in-hurricanes-wake

    The employees of the National Weather Service and of the other NOAA 
line offices represented by NWSEO hope that the Committee will 
carefully scrutinize this sordid record and ultimately reject this 
nomination.
            Sincerely yours,
                                           Richard J. Hirn,
                          General Counsel and Legislative Director.
                                 ______
                                 
    Center for Biological Diversity * Climate Hawks Vote * 
    ClimateTruth.org Earthjustice * Friends of the Earth * 
  Greenpeace USA * Hip Hop Caucus * League of Conservation 
Voters * Marine Conservation Institute * Natural Resources 
Defense Council * Oceana Pacific Environment * Power Shift 
                                      Network * Sierra Club
                                                   October 23, 2017

    Dear Senator,

    We are writing to express our concern about the nomination of Barry 
Myers, the chief executive of AccuWeather, to become the next 
Administrator of the National Oceanic and Atmospheric Administration 
(NOAA). Mr. Myers has no scientific credentials or experience with many 
critical parts of NOAA's mission relating to oceans and coasts; has 
supported efforts to privatize many functions of the National Weather 
Service (NWS) \1\ which would adversely affect its vital public safety 
mission; and has personal and family financial conflicts of interests 
with the work of NWS.\2\ We would urge that questions be posed to Mr. 
Myers to ascertain whether he has the qualifications necessary to do 
this important job, and whether the American public could be confident, 
if confirmed, that he would use his public office to advance the 
important science, conservation, and public safety mission of the 
agency. As the Nation grapples with the catastrophic impacts of this 
year's hurricane season, it seems particularly unwise to support a 
candidate for NOAA Administrator who has no government experience, and 
who has previously supported limiting the capabilities of NOAA.
---------------------------------------------------------------------------
    \1\ Barry Myers and his brother Joel have previously supported 
legislation that would heavily restrict NWS's ability to make its data 
publicly available, restricting its availability to corporations. See 
this Washington Post story and this 2005 Lawrence-Journal World 
article; the legislation is S. 786 of the 109th Congress. (All accessed 
10/12/2017.)
    \2\ Barry is currently CEO of Accuweather, a company that uses NWS 
data in its commercial products. One of his brothers, Joel Myers is the 
president and founder of the company. His other brother, Evan Myers, is 
COO of Accuweather. All three, and Accuweather itself, are members of 
the American Weather and Climate Industry Association, the weather 
industry trade association. (All accessed 10/12/2017.)
---------------------------------------------------------------------------
    Science is the bedrock of NOAA's mission. Eleven out of twelve 
previous NOAA Administrators, appointed by Republican and Democratic 
presidents alike, have all held PhDs. We acknowledge that Mr. Myers, a 
lawyer by training, is an accomplished businessman. We are concerned, 
however, that he both lacks a scientific background and has no 
experience with the many of the critical high impact issues that 
comprise NOAA's work.
    NOAA is the agency that is responsible for countless issues related 
to our Nation's oceans and coasts, from marine commerce to fisheries 
management to coastal restoration. NOAA's role in ensuring that we have 
sustainable seafood and fish populations, and healthy coasts and oceans 
cannot be understated.
    Almost 40 percent of the country's population lives in coastal 
shoreline counties. These counties contribute $6.6 trillion to the U.S. 
economy.\3\ Countless communities rely on NOAA to support the 
productivity and sustainability of our coasts and oceans through 
science-based programs. An Administrator does not need to be an expert 
in all NOAA' s programs related to oceans and coasts, but Mr. Myers 
appears to have little or no experience with any of them. We urge you 
to ask Mr. Myers about his approach to and commitment to NOAA's coastal 
and ocean programs in detail.
---------------------------------------------------------------------------
    \3\ http://www.noaa.gov/oceans-coasts Accessed 10/12/17
---------------------------------------------------------------------------
    In the one area that Mr. Myers has a background, weather 
forecasting, his background is troubling. Mr. Myers has long advocated 
for essentially privatizing and monetizing for private benefit some of 
the important work of the National Weather Service. It is important to 
remember that NOAA was created in 1970 to bring together smaller 
agencies that all focused on the oceans and the atmosphere to provide a 
wide range of services to the public using shared and leveraged 
resources and tools. All of NOAA's important ocean conservation and 
fisheries management work relies on shared data collection networks of 
satellites, ships, buoys, and sensors around the globe, and on shared 
research capabilities. Mr. Myers has continued to voice the position 
over the years that the private sector should take over many of these 
functions, and has frequently chided NOAA officials when they develop 
new products or tools that can help the public or public officials plan 
and prepare for severe weather or flooding events. This view about the 
role of government science and government services is disturbing and 
would also be deeply disturbing if applied more broadly across NOAA's 
oceans, fisheries, climate, and science portfolios. We hope you will 
explore Mr. Myers intentions and obtain commitments from him, should he 
be confirmed, that he will not interfere with or disable NOAA's vital 
missions.
    Mr. Myers' past support for limiting access to public data is 
particularly concerning given that NOAA's mission is to answer 
scientific questions and ``to share that knowledge and information with 
others.'' \4\ For example, the agency's ``Tides & Currents'' website 
\5\ provides coastal communities with the data and analyses they need 
to deal with present-day coastal flooding made worse by sea level rise. 
Data from Tides & Currents and NOAA's other scientific efforts are 
collected at Climate.gov, the most comprehensive and authoritative 
public source available of raw climate data, trends, and record-
breaking extremes. Climate.gov helps inform public understanding of 
climate change, arms educators with credible and up-to-date 
information, and feeds into science-based decision making at all levels 
of government. We urge that you ask Mr. Myers for a firm commitment to 
maintain the quality and public accessibility of Climate.gov and all of 
NOAA's other important public information and data sites and services.
---------------------------------------------------------------------------
    \4\ http://www.noaa.gov/our-mission-and-vision
    \5\ https://tidesandcurrents.noaa.gov/sea_level_info.html
---------------------------------------------------------------------------
    Finally, we are also concerned that if Mr. Myers were confirmed as 
NOAA Administrator he would have profound conflicts of interest. 
AccuWeather is a privately held family company. Every decision Mr. 
Myers would make about NOAA's organization, budget, management, and 
capabilities would have the potential to enrich his family's company, 
in the short term and the long term. We support NOAA's mission of 
science, service and stewardship and believe that its activities should 
be administered in the public interest.
    We urge the Senate to carefully consider all the issues surrounding 
this nominee to protect the critical work all Americans expect and need 
from NOAA.
            Sincerely,

Center for Biological Diversity
Climate Hawks Vote
ClimateTruth.org
Earthjustice
Friends of the Earth
Greenpeace USA
Hip Hop Caucus
League of Conservation Voters
Marine Conservation Institute
Natural Resources Defense Council
Oceana
Pacific Environment
Power Shift Network
Sierra Club
      
                                 ______
                                 
                                          Ocean Conservancy
                                  Washington, DC, November 27, 2017

Hon. John Thune,
Chair,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Committee on Commerce, Science, and Transportation,
U.S. Senate,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    We are writing to express our thoughts on the nomination of Barry 
Myers to become the next Administrator of the National Oceanic and 
Atmospheric Administration (NOAA), an agency that has enormous impact 
on the ocean and coastal environment for which Ocean Conservancy 
advocates and on which people and economies depend.
    The public discussion surrounding Mr. Myers' nomination has focused 
largely on two areas of concern that are not directly related to oceans 
and coasts: Mr. Myers' views on privatizing functions of the National 
Weather Service, and his relationship with AccuWeather. Ocean 
Conservancy agrees these questions deserve close scrutiny by members of 
the U.S. Senate before Mr. Myers receives confirmation. But Ocean 
Conservancy would like to highlight an entirely separate line of 
questioning that we believe is also deserving of scrutiny: Mr. Myers' 
views on the ocean and coastal issues facing our Nation.
    Mr. Myers has an extensive background in the weather forecasting 
business, but on matters of ocean and coastal science and management he 
has no known publicly-expressed policy positions or expertise. Ocean 
and coastal science and management are enormous responsibilities 
carried by the NOAA Administrator and the American people deserve to 
know where Mr. Myers stands on these issues. The U.S. Senate, on behalf 
of all Americans, should examine Mr. Myers' beliefs, policy views, 
commitment to science, and his governing philosophy on important ocean 
and coastal matters before consenting to his confirmation.
    In our view, here are key questions that should be posed to Mr. 
Myers:

  <bullet> NOAA's budget--What is Mr. Myers' view on NOAA's overall 
        budget levels? Does he support cutting programs like Sea Grant 
        and the Coastal Zone Management Grants as the administration 
        proposed in its 2018 budget?

  <bullet> NOAA's conservation responsibilities--Does Mr. Myers support 
        and commit to carry out NOAA's statutory responsibilities 
        implementing the full suite of conservation laws, including the 
        Magnuson-Stevens Fishery Conservation and Management Act, 
        Endangered Species Act, Marine Mammal Protection Act, Coastal 
        Zone Management Act, and National Marine Sanctuaries Act? Does 
        he agree that management and conservation under those laws are 
        part of NOAA's core mission?

  <bullet> Fisheries management--Does Mr. Myers agree that overfishing 
        should not be allowed and that depleted fisheries should be 
        rebuilt? Does he agree that fisheries management decisions 
        should be based on the best available science? Will he commit 
        to opposing any actions that would undermine these core 
        conservation tenets?

  <bullet> The role of science at NOAA--Does Mr. Myers support NOAA's 
        current policies and principles on scientific integrity, 
        including those outlined under NOAA administrative order 202-
        7350? Does he see a need to change those policies? Does Mr. 
        Myers believe that NOAA-funded scientists should ever be 
        excluded from advisory boards akin to the policies recently 
        implemented by Administrator Pruitt at the EPA?

  <bullet> Climate change--Does Mr. Myers concur with and stand behind 
        the conclusion reached by NOAA scientists that climate change 
        is happening, and that human-caused greenhouse gas emissions 
        are largely responsible? Does he consider climate change to be 
        a pressing problem facing the ocean, fisheries, and our coastal 
        communities?

  <bullet> Ocean acidification--Does Mr. Myers agree that ocean 
        acidification is a real problem that poses an immediate 
        economic threat to ocean and coastal industries across the 
        U.S.? Does he support the work of the NOAA Ocean Acidification 
        Program as authorized under the Federal Ocean Acidification 
        Research and Monitoring (FOARAM) Act?

  <bullet> Regional coordination on ocean management--Is Mr. Myers 
        committed to supporting continued implementation of Northeast 
        and Mid-Atlantic Ocean Plans and other regional, state/federal-
        coordinated ocean management efforts?

  <bullet> Marine sanctuaries and monuments--What are Mr. Myers' views 
        on protected areas like National Marine Sanctuaries and Marine 
        National Monuments as a tool for ocean conservation? Does he 
        agree that our Nation's federally-designated ocean protected 
        areas should remain protected?

  <bullet> Arctic--Is Mr. Myers committed to continuing and building 
        weather, sea, and ice monitoring and forecasting capabilities 
        in the Arctic Ocean off Alaska? What will he do to ensure that 
        NOAA fulfills its mandates to protect marine mammals and other 
        protected marine resources in the Arctic Ocean given the 
        ongoing interest in offshore drilling in those waters? Is Mr. 
        Myers committed to continuing coordinated work with other 
        Federal agencies and tribes in the Arctic?

  <bullet> Marine debris--Does Mr. Myers agree that marine debris is a 
        pressing problem facing the health of our ocean? Does he 
        support the work of NOAA's marine debris program as well as 
        that of corporations, NGOs, and countless citizens, to reduce 
        such pollution at its source and clean up what is already 
        there? Does he consider this is a priority?

  <bullet> Gulf of Mexico restoration--How does Mr. Myers plan to keep 
        the multi-billion dollar oil spill restoration efforts in the 
        Gulf of Mexico on track? In Mr. Myers' view, what would 
        ``success'' look like for NOAA when it comes to Gulf of Mexico 
        restoration?

    This list of questions is a long one, but it's not exhaustive. 
There are many more questions on important ocean and coastal issues 
that could and should be asked.
    With Texas still recovering from the impacts of Hurricane Harvey, 
and Florida and the Caribbean--especially Puerto Rico--still reeling 
from Hurricanes Irma and Maria, NOAA's relevance to our lives has never 
been more apparent.
    NOAA's responsibilities are diverse and absolutely crucial to a 
functioning country. NOAA not only safeguards America's fisheries and 
protects iconic marine wildlife--it also conducts research that keeps 
our communities safe and our ocean healthy. And from tsunami and 
hurricane warnings to fisheries management, to the daily weather 
forecasts you check on your phone, NOAA plays a critical role in the 
lives of Americans from the coast to the heartland.
    It is imperative that the Senate thoroughly vet and examine Myers' 
positions on the full array of issues for which Mr. Myers would be 
responsible if confirmed as NOAA Administrator. On behalf of Ocean 
Conservancy, our members, and our supporters, please consider these 
important ocean and coastal questions as you question the nominee and 
consider his confirmation.
            Sincerely,
                                       Janis Searles Jones,
                                           Chief Executive Officer,
                                                     Ocean Conservancy.

    Senator Nelson. NOAA is one of the most popular agencies in 
the Federal Government. It directly impacts the daily lives of 
millions. NOAA is an agency most people are aware of because of 
weather forecast and warnings, and these warnings are 
distributed free of charge through the National Weather 
Service.
    When Irma was barreling toward Florida, it was the National 
Weather Service employees, including our very significant 
professional accumulation at the National Hurricane Center, who 
provided the forecast to Florida's local governments and 
emergency managers by using all of the assets that NOAA has, 
plus additional assets.
    But NOAA's mission does not just stop there. And I want to 
commend NOAA because their accuracy continues to improve. The 
addition of the G-4, flying at 45,000 feet over the hurricane, 
dropping that sonde, or instrumented package, has improved the 
accuracy of hurricane forecasts by 15 percent. But now, at even 
greater accuracy are the turbo props that fly into the 
hurricane dropping not just sondes, but now a sonde about this 
long, and once it gets out of the fuselage of the aircraft, it 
suddenly sprouts wings and its motor starts. It then flies as a 
UAV on the inner wall of the hurricane, giving additional data 
that we have never been able to have before.
    What NOAA provides is absolutely fantastic, but the mission 
does not stop there. It is responsible for sustainably managing 
our Nation's fisheries, something you, Mr. Chairman, are quite 
interested about with all of the fishing that occurs in Alaskan 
waters. It ensures that our ships get in and out of ports. It 
protects critters and corrals and habitats, and it tries to 
help our coastal communities adapt to the future.
    So as we have this meeting today, NOAA is carrying out 
cutting-edge climate research--providing coastal communities 
with flood warnings and working all over to mitigate the 
harmful effects of climate change and specifically, in a place 
like Florida, not only climate change but also the effects of 
harmful algae blooms and corral bleaching.
    And by the way, I did not tell you, Mr. Chairman, when I 
was with the Coast Guard up in Alaska, I ran into a bunch of 
NOAA employees up there that are doing critical research in the 
Arctic habitat.
    Now, Mr. Myers, I mention all of this to make a point that 
it is going to be important that you truly understand the 
importance of the role NOAA plays in all of our daily lives. 
You have been the CEO of AccuWeather. I have talked to you 
extensively in private about your role. I commend you for your 
knowledge about the national weather program, and I commend you 
for your successful business background.
    Naturally, as I raised in our private conversations, I am 
concerned about potential conflicts of interest. In 2005, you 
were behind a bill sponsored by Senator Santorum of 
Pennsylvania that would have prohibited the Weather Service 
from offering a product or a service, ``that is or could be 
provided by the private sector,'' a provision that naturally, 
from your position previously as the head of AccuWeather, would 
have directly benefited AccuWeather. If the bill had passed, 
Americans' access to free and potentially lifesaving government 
weather forecasts would have been placed at risk because if 
that bill had passed, the government would be prohibited from 
offering a product or service, quote--your quote--that is or 
could be provided by the private sector. End of quote.
    Now, that is a conflict. I talked to you in private about 
this. You assured me that you were going to remove yourself 
from anything having to do with AccuWeather, that even in 
family conversations over the holidays, that your brother, who 
would be running AccuWeather, would not discuss the business 
with you, that there would be a concrete wall that you would 
set up between your family's business, your former business, 
and the business of the U.S. Government.
    NOAA has always put protecting lives and properties of 
Americans ahead of personal commercial interests. It is 
obviously a concern to me as I expressed to you, and I want you 
to get it out on the record today. It is a concern that your 
past history with the Senator Santorum bill suggests that you 
might do otherwise. I want you to clear that up in this record. 
And with your family connections, your brothers at AccuWeather, 
obviously there is the concern about potential conflicts of 
interest. I would like you to address that directly, 
unequivocally for the record here today.
    We have been through part of this in another sphere. The 
airlines would like to privatize air traffic control. That is 
not going to happen. The airlines would like to be in control 
of the air traffic control of this country, including all 
military air traffic control. That is not going to happen, but 
there is an effort to do that.
    There has been in the past the effort by Senator Santorum, 
which you supported, to privatize, in other words, to replace, 
assets of the National Weather Service that could not put out a 
product if there was a commercial product. If it is an 
enhancement of a commercial product, that is an additional 
thing from the perspective of this Senator as the Ranking 
Member of this Committee.
    So we must be sure that you will not have a conflict of 
interest with a company owned by your brothers, previously run 
by you. So we want to know how can Weather Service employees 
and the public trust that you will truly refrain from involving 
yourself in NOAA decisions that affect your family's company? 
These are the same things that I asked you in our private 
conversations. And I want you to be as direct here as you were 
with me in our private conversations. These are questions that 
should be put to rest before you leave today and done in a way 
that your answers are clear to everyone.
    Mr. Myers, what we need is a NOAA Administrator who will do 
what is the very best for the American people. While I 
sincerely hope that person is you, clearly it is my 
responsibility to see that you come forth to hear more on how 
you plan to avoid those conflicts and how you plan to safeguard 
the critical mission of NOAA.
    Thank you, Mr. Chairman.
    Senator Inhofe. A point of inquiry, Mr. Chairman. I see 
that the Senator from Pennsylvania is here. Is he here for the 
purpose of introducing the----
    Senator Sullivan. Yes, and that is happening right now.
    So thank you, Senator Nelson.
    I now want to recognize Senator Toomey for an opening 
statement to introduce the nominee. Senator Toomey.

                 STATEMENT OF HON. PAT TOOMEY, 
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Toomey. Thank you very much, Chairman Sullivan, 
Ranking Member Nelson, members of the Committee. It is an honor 
for me to introduce Barry Myers before this Committee.
    Barry Myers is a highly respected and well-qualified 
Pennsylvanian, and if confirmed, I think he will serve as an 
outstanding Administrator of NOAA. His leadership experience in 
the private sector and his institutional knowledge that he 
gained while working as an advisor to the agency will both 
enable him to effectively manage NOAA's diverse 
responsibilities and functions which, as we all know, include 
weather forecasting, fishery management, coastal conservation, 
and atmospheric and oceanic research.
    Specifically, Barry has a deep understanding and 
appreciation of weather forecasting through his work at 
AccuWeather, headquartered in State College, Pennsylvania. And 
this expertise is, of course, very important because one of the 
primary functions of NOAA is to oversee the National Weather 
Service and support research to improve the modeling of weather 
events and natural disasters.
    Barry has extensive experience managing AccuWeather. As the 
Chairman noted, he has served as the CEO of AccuWeather since 
September 2007. I should point out that AccuWeather provides 
outstanding weather forecasting services to media outlets, to 
governments, to businesses, in addition to operating a website 
and mobile apps for general public use. Under Barry's 
leadership, AccuWeather has become one of the world's most 
widely viewed and most accurate weather forecasting services.
    He also has experience advising the Federal Government, as 
I mentioned, an institutional knowledge of NOAA while serving 
in several advisory roles. He served on NOAA's Environmental 
Information Services Working Group for over 7 years, advised 
the Director of the National Weather Service during two 
international conferences on meteorology, and has testified 
repeatedly before committees of Congress.
    It is also worth pointing out that Mr. Myers has tremendous 
respect of his peers in the weather community. He recently 
received two very prestigious awards from the American 
Meteorological Society. I think the Chairman also alluded to 
those two awards.
    So, Mr. Chairman, I will close by saying it is an honor for 
me to be able to introduce a great Pennsylvanian, Barry Myers, 
to the Committee today. He is an accomplished leader who I 
believe will advance NOAA's role in oceanic and atmospheric 
observation, measurement, management, and forecasting. I 
believe he will be able to increase effective communications 
between NOAA and the private sector and continue U.S. 
excellence in weather forecasting, among the other important 
roles that NOAA plays. If confirmed, I am confident that Barry 
Myers will be a very successful Administrator.
    I want to thank you, Mr. Chairman, for having this hearing. 
Members of the Committee, thank you for allowing me to 
introduce him.
    [The prepared statement of Senator Toomey follows:]

 Prepared Statement of Hon. Pat Toomey, U.S. Senator from Pennsylvania
  <bullet> Thank you Chairman Thune, Ranking Member Nelson, and Members 
        of the Committee

  <bullet> Honor to introduce Barry Myers before the Committee

  <bullet> Barry Myers is well qualified to serve as the next 
        Administrator of NOAA

  <bullet> He has leadership experience while at AccuWeather

    <ctr-circle> NOAA oversees the National Weather Service

  <bullet> He has a deep knowledge and professional experience with 
        weather forecasting and modeling

    <ctr-circle> NOAA supports atmospheric research to improve 
            forecasting and detect natural disasters

    <ctr-circle> Manages our Nation's environmental satellites

  <bullet> He has a deep understanding of NOAA while serving the agency 
        in several advisory positions
Leadership at AccuWeather
  <bullet> Has served as CEO of AccuWeather since September 2007

    <ctr-circle> Previously held other leadership positions, including 
            Executive VP, General Counsel, and CFO

  <bullet> AccuWeather provides weather forecasting services to media 
        outlets, governments, and businesses, in addition to operating 
        a free website and mobile apps for average consumers

  <bullet> Under Barry's leadership, AccuWeather has become one of the 
        world's most viewed and most accurate weather forecast services
Experience advising Federal Government
  <bullet> Served on NOAA's Environmental Information Services Working 
        Group for over 7 years

  <bullet> Advised the Director of the National Weather Service during 
        two international conferences (2001, 2008)

  <bullet> Testified before Senate and House committees on private and 
        government weather forecasting
    Respect of peers in weather community
  <bullet> Received two awards from the American Meteorological 
        Society, nation's top meteorological organization

  <bullet> Awarded in 2015 for his leadership in the weather industry 
        and fostering strong cooperation between private and government 
        weather services

  <bullet> Elected as a Fellow in 2016 for his contributions to the 
        atmospheric and oceanic sciences

    <ctr-circle> An honor typically reserved for highly accomplished 
            scientists
Closing
  <bullet> It is an honor to introduce Barry Myers to the Committee 
        today

  <bullet> Individual who will

    <ctr-circle> Improve U.S. weather modeling

    <ctr-circle> Improve coordination between NOAA and the private 
            sector

  <bullet> If confirmed, I believe Barry will succeed in his new 
        position with NOAA

  <bullet> Look forward to his testimony

  <bullet> Thank Chairman Thune and Members of the Committees

    Senator Sullivan. Thank you, Senator Toomey, very much for 
that outstanding introduction.
    Senator Nelson has one additional comment.
    Senator Nelson. Mr. Chairman, I have a conflict that I have 
to go to see another Senator, and I would ask that Senator 
Schatz stand in as the Ranking Member.
    Senator Sullivan. Without objection.
    Mr. Myers, welcome again. The floor is yours for your 
opening statement, sir.

                 STATEMENT OF BARRY LEE MYERS,

             TO BE UNDER SECRETARY OF COMMERCE FOR

           OCEANS AND ATMOSPHERE; AND ADMINISTRATOR,

        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

                 (NOAA), DEPARTMENT OF COMMERCE

    Mr. Myers. Chairman Sullivan, Senator Schatz--and I would 
like to thank Senator Toomey. He will not hear me thank him, 
but for his gracious opening. Honorable members of the 
Committee, thank you for the privilege of allowing me to appear 
today and answer your questions about my nomination.
    As noted, we have met before. I have worked with many of 
you over the past 4 years in support of the weather bill signed 
in April by the President that addressed important operational 
and research issues. I was privileged to testify before this 
committee in those regards.
    And if confirmed, I pledge to carry out the wishes of 
Congress with vision, accountability, and effective management 
for the public good. I will ensure that the agency is staffed 
with top management, top scientists, and talented, experienced 
and capable people.
    If confirmed, I promise to work with you on the issues that 
matter for the agency, the Congress, and the Nation.
    Despite hardship, I have lived the American dream. My 
family started with little in Philadelphia, Pennsylvania. 
During my early life, my father was a union shop steward at an 
RCA factory making radar units for the war effort. After the 
war, he started a small business.
    When I was 16, my mother had surgery that threatened her 
life and our family finances, as we had no health insurance. 
When I was 19, my father, burdened by mother's illness and 
health costs, committed suicide and left our family deeply in 
debt. Our house was foreclosed, and we were evicted. Only our 
uncle's charity kept a roof over our heads. We survived with 
the help of government surplus food. In fact, I still remember 
those huge blocks of cheese and large jars of peanut butter 
that we received off the back of a distribution truck.
    My brothers and I worked hard, secured student loans, 
earned scholarships, and later started a company around a 
kitchen table. That company, AccuWeather, a science and 
technology company, is now the world's leader at what it does, 
serving weather information to about 2 billion devices in the 
hands of people everywhere on Earth.
    When I was asked to serve as NOAA Administrator, I saw the 
opportunity as a way to repay my country. I have traveled the 
world and while opportunity certainly exists elsewhere, mine is 
truly an American story.
    Some have asked about my ability to serve because I have 
had the success and I own a partial interest in this company. 
They are right to ask.
    The answer is that my wife and I will resign from every 
company, board, and organization that could be in conflict with 
my new role. We have also agreed to sell all of our ownership 
interests, shares and options, in AccuWeather and all related 
companies.
    There will be a complete separation. That is the only way I 
would do this. I will have no allegiance elsewhere. If 
confirmed, I will be joining a new team--I will be joining the 
NOAA team. My interests will be solely those of the American 
people and the Nation about which I am so passionate.
    I started my college career as a meteorology student but 
left school to help my father in his business before he died. I 
returned as a student in economics and business administration 
and then went on to law school. After that, I spent 2 years in 
post-doctoral work at Penn State's Center for Air Environment 
Studies while also working on a master's degree in 
organizational behavior and management science.
    I have a passion for science. I lead a successful company 
based on science. I know how to bring people together to 
accomplish great things. Science integrity has been a core 
value for me and the central component in the success of the 
company that I have led. If I am confirmed, it will always be 
in the headlights of NOAA moving forward.
    Wherever I go, I hear what you hear. We need better weather 
models. We need better research to operations. We need to 
ensure continuity and cost control of our satellite programs. 
We need scientifically enhanced management of our fisheries. We 
need to address our seafood trade imbalance. We need efficient 
science-based processes for permitting and environmental 
review. We need to serve our ports' charting and research 
needs, but we have aging vessels and tight fiscal environments. 
We need to ensure quality weather and climate research and its 
availability to all. We need to improve tornado and hurricane 
warnings. We need initiatives in licensing emerging commercial 
data sources. We need to work cooperatively with the research 
and academic communities and the weather industry. These are my 
priorities. I believe they are your priorities.
    Science is nonpartisan, and I believe together we can make 
great strides in each of these areas through quality 
management, strategic partnerships, and leveraging the talent, 
expertise, and passion of the NOAA team.
    I have the experience, the know-how, and the ability to do 
the job for which I have been nominated and I believe do it 
well.
    Thank you again for inviting me here today. I am eager and 
excited at the prospect of working with you to make NOAA, in 
the words of the National Research Council, second to none. 
Thank you.
    [The prepared statement and biographical information of Mr. 
Myers follow:]

    Prepared Statement of Barry Lee Myers to be Under Secretary of 
    Commerce for Oceans and Atmosphere; and Administrator, National 
 Oceanic and Atmospheric Administration (NOAA), Department of Commerce
    Chairman Thune, Ranking Member Nelson, honorable members of the 
Committee, thank you for the privilege of allowing me to appear today 
to answer your questions about my nomination.
    We've met before. I worked with many of you over the past four 
years to support the Weather Bill, signed in April by the President, 
that addressed such important issues as: improved tornado and hurricane 
warnings, research to operations, data from commercial satellites, 
seasonal and inter-annual forecasts, hurricane hunter plane backup, and 
the reauthorization of the tsunami program.
    I was privileged to testify before this committee in those regards.
    If confirmed as NOAA Administrator, I pledge to carry out the 
wishes of Congress with vision, accountability and effective 
management--for the public good. I will ensure that the agency is 
staffed with top management and scientists and with talented, 
experienced and capable people.
    If confirmed, I promise to work with you on the issues that matter 
for the agency, the Congress, and the Nation.
    Despite hardship, I have lived the American dream. I started with 
little, in Philadelphia, Pennsylvania. During my early life my father, 
unable to serve in the military during World War II due to a childhood 
disability, was a union shop steward at an RCA factory making radar 
unit for the war effort and after the war, later started a small 
business.
    When I was 16, my mother had surgery that threatened her life and 
our family finances; as we had no health insurance. When I was 19, my 
father, burdened by my mother's illness and health costs, committed 
suicide and left the family deeply in debt. Our house was foreclosed; 
and we were evicted. Only our uncle's charity kept a roof over our 
heads. We survived with the help of government surplus food. I still 
remember those huge blocks of cheese and giant jars of peanut butter 
that we received from the back of a distribution truck.
    My brothers and I worked hard, secured student loans and earned 
scholarships, and later started a company around a kitchen table. That 
company--AccuWeather, a science and technology company--is now the 
world's leader at what it does, serving weather information to about 2 
billion devices in people's hands, virtually everywhere on earth.
    When I was asked to serve as NOAA Administrator, I saw the 
opportunity as a way to repay my country and ``pay it forward'' to help 
others. I have travelled the world, and while opportunity exists 
elsewhere, mine is truly an American story.
    Some have asked about my ability to serve because I have had this 
success and I own a minority interest of this company. They are right 
to ask.
    The answer is that I have agreed with the Office of Government 
Ethics that my wife and I will resign from every company, board and 
organization that could be in conflict with my new role. We have also 
agreed to sell ALL of our ownership interests--shares and options--in 
AccuWeather and all related companies.
    There will be a compete separation from the company. It is the only 
way I would do this. My Ethics Agreement goes beyond the usual legal 
requirements. As a result, I will have no allegiance elsewhere.
    If confirmed, I will be joining a new team--I will be joining the 
NOAA Team.
    My interests will be solely those of the American people, and the 
Nation I feel so passionately about, because of the opportunities I 
have had.
    I started my college career as a meteorology student, but left 
school to help my father in his business before he died. I returned as 
a student in economics and business administration and then went to law 
school. After that I spent two years in post-doctoral work at Penn 
State's Center for Air Environment studies as both a Pennsylvania 
Science and Engineering Fellow and a U.S. Public Health Service Air 
Pollution Fellow.
    I am not a scientist, but I have a passion for science and I am a 
leader of scientists.
    I lead a successful company full of scientists and engineers. I 
know how to bring people together to accomplish great things.
    I believe this is why I was honored over the past two years by the 
world's preeminent, scientific, meteorologic and hydrologic 
organization--the American Meteorological Society--first, in their 
words ``For outstanding, highly principled leadership of the American 
weather industry over five decades and fostering strong cooperation 
between private sector and government weather services''.
    As I said, those are their words, not mine.
    And then the next year that organization awarded the high honor 
normally reserved for highly accomplished scientists--being named a 
Fellow of the American Meteorological Society.
    Scientific integrity has been a core value for me and the central 
component in the success of the company I have led. It will always be 
in the headlights of NOAA moving forward, if I am confirmed.
    I will provide the vision, leadership, and strategies to do that at 
NOAA. Wherever I go, I hear what you hear:
    We need better weather models.
    We need better research to operations.
    We need to ensure continuity and cost-control of our satellite 
programs. We need scientifically-enhanced management of our fisheries.
    We need to address our seafood trade imbalance.
    We need efficient science-based processes for permitting and 
environmental review.
    We need to serve our port and research needs, but we have aging 
vessels in a tight fiscal environment.
    We need to ensure quality weather and climate research and its 
availability to all.
    We need to improve tornado and hurricane warnings.
    We need initiatives in licensing emerging commercial data sources.
    We need to work cooperatively with the research and academic 
communities and the weather industry.
    These are my priorities. I believe these are your priorities.
    Science is non-partisan and I believe together we can make great 
strides in each of these areas through quality management, strategic 
partnerships, and leveraging the talent, expertise and passion of the 
NOAA team.
    I have the experience, know-how and ability to do the job for which 
I have been nominated--and do it well.
    Thank you again for inviting me here today. I look forward to 
answering your questions. When we are done, I request your support.
    I am eager and excited at the prospect of working with you to make 
NOAA--in the words of the National Research Council--Second to None.
                                 ______
                                 
                      a. b10graphical information
    1. Name: (Include any former names or nicknames used): Barry Lee 
Myers.
    2. Position to which nominated; Under Secretary for Oceans and 
Atmosphere and Administrator of the National Oceanic and Atmospheric 
Administration (NOAA), Department of Commerce
    3. Date of Nomination: October 11, 20l7.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.
        Office: AccuWeather, Inc., 385 Science Park Road, State 
        College, PA 16803.

    5. Date and Place of Birth: July 20, 1943; Philadelphia, 
Pennsylvania.
    6. Provide the name, position and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Holly Ellen Myers, Director of Executive Projects, 
        AccuWeather, Inc.

        Children: Carla Franklin Myers, 47; Joseph Franklin Myers, 42; 
        Rebekah Franklin Myers, 40.

        Stepchildren: Erik Anderson Larson, 28; Blair Ainsley Larson, 
        25.

    7. List all college and graduate degrees. Provide year and school 
attended.

  <bullet> The Pennsylvania State University, Smeal College of 
        Business, Master of Science, (ABD) Management Science and 
        Organizational Behavior, 1972

  <bullet> Boston University School of Law, J.D., 1970

  <bullet> The Pennsylvania State University, Smeal College of 
        Business, B.S., Economics and Business Administration, 1967

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non managerial jobs that relate to 
the position for which you are nominated.

  <bullet> AccuWeather, Inc., 1964 to present. Chief Executive Officer 
        [previously Executive Vice President, General Counsel and CFO]; 
        Member of the Board of Directors and Secretary of the 
        Corporation

  <bullet> Boutique law practice specializing in land use and 
        development, real estate, and environmental law, 1970-1990

  <bullet> The Pennsylvania State University, Smeal College of 
        Business, Graduate School Faculty, 1974-1990

  <bullet> The Pennsylvania State University, Smeal College of 
        Business, Associate Professor of Business Law (Tenured), 1978-
        1990

  <bullet> The Pennsylvania State University, Program Committee of the 
        Graduate Program in Regional Planning, 1973-1982

  <bullet> The Pennsylvania State University, Center for the Study of 
        Environmental Policy, 1972 1980

  <bullet> The Pennsylvania State University, Smeal College of 
        Business, Assistant Professor of Business Law, 1973-1978

  <bullet> The Pennsylvania State University, Smeal College of 
        Business, Lecturer in Business Law, 1972-1973

  <bullet> The Pennsylvania State University and the Pennsylvania 
        Health Research Institute, Center for Air Environment Studies, 
        Pennsylvania Science and Engineering Fellow, 1971-1972

  <bullet> The Pennsylvania State University, Center for Air 
        Environment Studies, U.S. Public Health Service Air Pollution 
        Fellowship, 1970-1971

    9. Attach a copy of your resume.
    See attached Curriculum Vitae.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last ten years.

  <bullet> Environmental Information Services Working Group, National 
        Oceanic and Atmospheric Administration Science Advisory Board 
        (SAB), May 2009-December 2016.

  <bullet> Advisor to Dr.. John L. Hayes, Director of the National 
        Weather Service, at World Meteorological Organization Meetings; 
        Geneva, Switzerland--June 2008

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last ten years.
    Please see OGE Form 278e for information related to positions at 
AccuWeather, Inc., and its subsidiaries and related companies:

  <bullet> AccuWeather Acquisition Sub, Inc.

  <bullet> AccuWeather Holdco Inc.

  <bullet> AccuWeather Canada, Inc.

  <bullet> AccuWeather Enterprise Solutions, LLC

  <bullet> AccuWeather International, LLC

  <bullet> AccuWeather Intl., LLC

  <bullet> AccuWeather Sales and Service, LLC

  <bullet> Sky Motion Research, ULC, Canada

  <bullet> MWX Services, Inc. (dissolved 2017)

  <bullet> Perfect Date, Inc. (dissolved 2017)

  <bullet> Locator IP, LP, and its General Partner Mirror Management 
        Two, LLC

  <bullet> User-Centric IP, LP, and its General Partner Mirror 
        Management One, LLC

        Member of the Board, American Weather and Climate Industry 
        Association

        Founding Member, Huafeng/AccuWeather, Joint Venture, Beijing, 
        China, 2015

        Consultant, Westside Village I LLC

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

  <bullet> Economic Club of New York, 2011-present

  <bullet> Chamber of Business and Industry for Centre County, CEO 
        Group Member, 2008-prcsent

  <bullet> American Weather and Climate Industry Association (Board 
        Member, Government Relations Officer), 1990-present

  <bullet> American Meteorological Society, 2001-present

  <bullet> International Association of Broadcast Meteorologists, 2001-
        present

  <bullet> National Weather Association, 2001-present

  <bullet> American Bar Association, 1968-present

  <bullet> The Pennsylvania State University Alumni Association, life 
        member

  <bullet> Centre County Bar Association, Centre County, PA, 1976-
        present

  <bullet> Pennsylvania Bar Association, 1975-present

  <bullet> Pennsylvania Supreme Court, Member of the Bar, 1975-present

  <bullet> Supreme Judicial Court of Massachusetts, Member of the Bar, 
        1980-present

  <bullet> United States Supreme Court, Member of the Bar, 1980-present

    To the best of my knowledge and belief, none of the organizations 
listed restrict membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    I have never been a candidate for nor have I held an elected public 
office. As discussed above, from May 2009 through December 2016 I was 
on the Environmental Information Services Working Group of the National 
Oceanic and Atmospheric Administration Science Advisory Board (SAB).
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.
    I have not held any offices with or rendered services to a state or 
national political party or election committee in the last 10 years. To 
the best of my knowledge and belief, the following are my applicable 
political contributions:

------------------------------------------------------------------------
           Date                          Recipient                Amount
------------------------------------------------------------------------
4/11/2007                  Friends of John Peterson                 $800
9/29/2007                  Friends of John Peterson               $1,000
6/27/2008                  Friends of Glenn Thompson              $1,000
9/30/2009                  Friends of Glenn Thompson                $500
3/03/2011                  Bob Brown (Montana Gubernatorial         $500
                            Candidate)
1/31/2012                  Romney for President, Inc.             $1,000
10/10/2016                 Friends of Pat Toomey                    $500
10/10/2016                 Friends of Glenn Thompson                $500
10/21/2016                 Donald J. Trump For President, Inc.      $500
------------------------------------------------------------------------

    15. List all scholarships, fe11owships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.
    See attached CV. Highlights include:

  <bullet> Elected Fellow of the American Meteorological Society, 
        American Meteorological Society 96th Annual Meeting, New 
        Orleans, January 2016

  <bullet> The Kenneth C. Spengler Award for 2015, American 
        Meteorological Society 95th Annual Meeting, Phoenix, January 
        2015, ``For outstanding highly principled leadership of the 
        American weather industry over five decades and fostering 
        strong cooperation between private sector and government 
        weather services.''

  <bullet> Grant from the General Electric Foundation and the U.C.L.A. 
        Graduate School of Management to participate in the conference 
        of ``Business in Its Environment'' held at the U.C.L.A. 
        Graduate School of Management, Los Angeles, July/August 1976

  <bullet> Pennsylvania Science and Engineering Fellow, Center for Air 
        Environment Studies, The Pennsylvania State University and the 
        Pennsylvania Health Research Institute, 1971-1972

  <bullet> U.S. Public Health Service Air Pollution Fellowship, Center 
        for Air Environment Studies, The Pennsylvania State University, 
        1970-1971

  <bullet> Beta Gamma Sigma (Business Administration Honor Society), 
        1976-present

  <bullet> Omicron Delta Epsilon (Economics Honor Society), 1967-
        present

  <bullet> Pi Gamma Mu (Social Science Honor Society), 1966-present

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    See full CV.
Speeches
  <bullet> 2017 AMS Washington Forum, ``Environmental Data Paradigm: 
        The Future of Foundational Weather Data that Drives the 
        Enterprise,'' Panelist; Washington, D.C.--May 4, 2017

  <bullet> National Academy of Sciences' Board on Atmospheric Sciences 
        and Climate workshop, Speaker; Washington, D.C.--December 2016

  <bullet> B20/G20 Summit, U.S. Delegate; Hangzhou, China--August/
        September 2016

  <bullet> Testimony Before the House Committee on Science, Space and 
        Technology, Subcommittee on Environment; Private Sector Weather 
        Forecasting; Capitol Hill, Washington, D.C.--June 2016

  <bullet> Global Innovator Conference 2015 and APEC Young 
        Entrepreneurs' Summit--Keynote speaker; Beijing, China--
        September 2015

  <bullet> Publishers Insiders Summit, Keynote Interview; Chicago, IL--
        May 2015

  <bullet> Media Insider Conference, Key Note Speaker; Key Largo, FL--
        April/May 2015

  <bullet> C-Suite Conference, Speaker; Marina Del Rey, CA--November 
        2014

  <bullet> Licensing Executives Society, Speaker; San Francisco, CA--
        October 2014

  <bullet> Multichannel On-Demand Summit, Speaker; New York City, NY--
        June 2014

  <bullet> Licensing Executives Society (LES)--IP 100 Forum Panelist; 
        Chicago, IL--May 2014

  <bullet> Testimony before the Subcommittee on Oceans, Atmosphere, 
        Fisheries, and Coast Guard; Committee on Commerce, Science, and 
        Transportation; United States Senate; A Hearing on: Forecasting 
        Success: Achieving U.S. Weather Readiness for the Long Term--
        December 12, 2013

  <bullet> Testimony Before the Subcommittee on Environment of the 
        Committee on Science, Space and Technology, Restoring U.S. 
        Leadership in Weather Forecasting--May 23, 2013

  <bullet> Millersville College--American Meteorological Society 
        Chapter, Keynote Speaker--May 3, 2013

  <bullet> Mobile Marketing Association (MMA) SM2, Speaker; New York 
        City, NY--October 1-2, 2012

  <bullet> American Meteorological Society--Status of the NOAA FYB 
        Budget Request Session Panelist; Washington, D.C.--April 12, 
        2012

  <bullet> ``Status of the NOAA FY13 Budget Request''--Speaker, 
        American Meteorological Society Washington Forum; Washington, 
        D.C.--April 10, 2012

  <bullet> ``Entrepreneurship--My Story; Delta Sigma Pi at Smeal 
        College, Speaker; The Pennsylvania State University, University 
        Park, PA--April 2, 2012

  <bullet> ``Coordinating Severe Weather Warnings Between the Public 
        and Private Sectors'', Speaker, National Weather Service 
        Partners Meeting; New Orleans, LA--January 26, 2012

  <bullet> ``Welcome Speech'', AWCIA event at the American 
        Meteorological Society; New Orleans, LA--January 2012

  <bullet> ``Mobile Weather: Opportunity and Challenge'', Speaker, 
        American Meteorological Society Summer meeting; Boulder, CO--
        August 2011

  <bullet> ``Wireless Weather Services--National Weather Service and 
        Weather Enterprise Roles'' Speaker, Forum of Wireless Weather 
        Services; Washington, D.C.--June 28, 2011

  <bullet> ``Entrepreneurship--Our Story''--Speaker, Young Presidents 
        Organization; State College, PA-March3,2010

  <bullet> ``Welcome Speech--American Cancer Society''; State College, 
        PA--August 2, 2008

  <bullet> ``Beyond Climatology--Looking Toward the Future,'' Speaker, 
        Weather Derivatives Seminar; New York City, NY--October 23, 
        2007

  <bullet> National Council of Industrial Meteorologists Annual Meeting 
        presenter; San Antonio, TX--January, 15, 2007

  <bullet> The Weather Coalition panelist regarding the future course 
        of the industry-academic-government relations; San Antonio, 
        TX--January 15, 2007

  <bullet> ``Welcome Speech--Annual CWSA Reception at AMS''; San 
        Antonio, TX--January 14, 2007

  <bullet> ``The Impact of Legislation on Broadcast Meteorologists'' 
        Speaker, National Weather Association Annual Meeting; St. 
        Louis, MO--October 17, 2005

  <bullet> ``Weather and Climate Enterprise Panel Discussion.'' 
        American Meteorological Society Corporate Forum; Washington, 
        D.C.--March 15, 2004

  <bullet> Press Conference with Congressman John Peterson (R-PA) 
        regarding the Punxsutawney Weather Center; Washington, D.C.--
        December 17, 2004

  <bullet> ``Discriminatory Information and Competitive Practices of 
        the National Weather Service.'' The Annual Meeting of the 
        Commercial Weather Services Association; Kansas City, MO--July 
        20, 2002

  <bullet> ``The Fair Activities Inventory Reform Act of 1998, 0MB 
        Circular A-76 and other Federal Law as it relates to Policies 
        and Practices of the National Weather Service,'' AMS Corporate 
        Forum; Washington, D.C.--March 3-4, 2002

  <bullet> ``The Policy Implications of International Treatment of 
        Meteorological Data and Its Impact on Forecasts, Warnings, and 
        Commercial Weather Industry Development,'' World Federation of 
        Scientists, 26th Session of the International Seminars on 
        Planetary Emergencies & Associated Meetings; Erice, Italy--
        August 19-25, 2001

  <bullet> ``The Latest Information on International Weather Data 
        Exchange'' Commercial Weather Services Association Conference; 
        Washington, D.C.--May 19,1998

  <bullet> Forum on International Weather Data Exchange, U.S. 
        Delegation member; Paris, France--May 14, 1998

  <bullet> ``Single Source and Accreditation for Public Warnings Under 
        WMO Resolution 40'' Forum on International Data Exchange; 
        Paris, France--May 14, 1998

  <bullet> ``North American Perspective on WMO Resolution 40.'' Forum 
        on International Data Exchange; Long Beach, CA--February 2, 
        1997

  <bullet> ``Testimony of the Commercial Weather Services 
        Association.'' Co-presenter. Subcommittee on Energy and 
        Environment, U.S. House of Representatives; Washington, D.C.--
        February 21, 1995

  <bullet> ``Round Table Discussion on Conference Results and 
        Recommendations.'' Conference on the Economic Benefits of 
        Meteorological and Hydrological Services. World Meteorological 
        Organization; Geneva, Switzerland--September 23, 1994

  <bullet> ``Specific Investigations of Social and Economic Benefits 
        Obtained from Services and Customers in Specific Sectors: 
        Chairman of the Session.'' Conference on the Economic Benefits 
        of Meteorological and Hydrological Services. World 
        Meteorological Organization; Geneva, Switzerland--September 22, 
        1994

  <bullet> ``'Benefits for End Users Derived from NMHS's and the 
        Private Sector Collaborating to Provide Services to Meet their 
        Needs: Round Table Discussion.'' Conference on the Economic 
        Benefits of Meteorological and Hydrological Services. World 
        Meteorological Organization; Geneva, Switzerland--September 22, 
        1994

  <bullet> ``Benefits to End Users of NMHS/Private Sector 
        Collaboration: The U.S. Model and Its Implications.'' 
        Conference on the Economic Benefits of Meteorological and 
        Hydrological Services. World Meteorological Organization. 
        Keynote Speaker; Geneva, Switzerland--September 22, 1994

  <bullet> Specific Investigations of Social and Economic Benefits 
        Obtained from Services to Customers in Specific Sectors: 
        Chairman of the Session. Conference on the Economic Benefits of 
        Meteorological and Hydrological Services. World Meteorological 
        Organization; Geneva, Switzerland--September 21, 1994

  <bullet> ``Legal Problems and Solar Development.'' The Sound of 
        Progress. Penn State Radio--June 1, 1979

  <bullet> ``Community Legal Concerns Related to Solar Development.'' 
        The Sound of Progress. Penn State Radio--November 3, 1978

  <bullet> ``Solar Technology and Legal Problems.'' The Sound of 
        Progress. Penn State Radio--September 12, 1978

  <bullet> ``Planning, the Environment and the Law.'' Man-Environment 
        Relations Club. The Pennsylvania State University--December 6, 
        1977

  <bullet> ``The Taking Issue of Land Use Controls.'' Zoning and 
        Community Land Use Management Techniques In-Service Education. 
        A Continuing Education Program sponsored by the College of 
        Agriculture. The Pennsylvania State University--September 9, 
        1977

  <bullet> ``Legal Problems in Solar Energy.'' Annual National Meeting 
        of the American Business Law Association; Miami Beach, FL--
        August 25, 1977

  <bullet> ``Energy Implications of Major Oil Company Divestiture.'' 
        State of the Weather/Shape of the World. WPSX--July 19, 1977

  <bullet> ``Problems with the Federal Flood Insurance Program.'' State 
        of the Weather/Shape of the World. WPSX--February 17, 1977

  <bullet> The Environment, The Law and You.'' Eco-Action Meeting; 
        University Park, PA--October 25, 1976

  <bullet> ``Technology, Energy and Social Concerns and Impacts.'' 
        Chairman of the Session. Conference on Business and its 
        Environment; U.C.L.A. Graduate School of Management, Los 
        Angeles, CA--July 28, 1976

  <bullet> ``Flood Controls.'' State of the Weather/Shape of the World. 
        WPSX--July 21, 1976

  <bullet> ``Flood Insurance: The Legal Tide Rises Again.'' Mid-
        Atlantic Regional Meeting of The American Business Law 
        Association; University of Delaware, Newark, DE--April 2, 1976

  <bullet> ``Legal Controls in Flood-Prone Communities.'' Natural 
        Disasters Seminar Series; The Pennsylvania State University--
        October 3, 1974

  <bullet> ``National Environmental Policy Art.'' State of the Weather/
        Shape of the World. WPSX--October 23, 1973

  <bullet> ``Federal Land Use Planning Legislation.'' Participant in 
        Environmental Workshop. Center for the Study of Environmental 
        Policy; The Pennsylvania State University--October 16, 1973

  <bullet> ``Legal Aspects of Land Use Controls in Flood Prone Areas.'' 
        Pine Creek Task Force, Pennsylvania Department of Environmental 
        Resources--October 10, 1973

  <bullet> ``Environmental-Legal Problems in the Pine Creek 
        Watershed.'' Pine Creek Task Force, Pennsylvania Department of 
        Environmental Resources--July 11,1973

  <bullet> ``Land Use Doctrines and Environmental Problems.'' 
        Department of Geography Graduate Seminar; The Pennsylvania 
        State Uuiversity--January 19, 1973

  <bullet> ``Federal Flood Insurance.'' State of the Weather/Shape of 
        the World, WPSX--November 27, 1972

  <bullet> ``Environmental-Legal Problems in the Pine Creek 
        Watershed.'' State of the Weather/Shape of the World, WPSX--
        Novcmbcr 15, 1972

  <bullet> ``Motivating Business Organizations to Attach Their Air 
        Pollution Problems.'' Air Pollution Seminar Series, Center for 
        Air Environment Studies, Institute for Science and Engineering; 
        The Pennsylvania State University--November 6, 1971

  <bullet> ``Private Legal Remedies for Air Pollution Problems.'' Air 
        Pollution Seminar Series, Center for Air Environment Studies, 
        Institute for Science and Engineering; The Pennsylvania State 
        University--May 4, 1971
Publications
  <bullet> International Seminar on Nuclear War--26th Session--2001, 
        Climate Changes--Global Monitoring of the Planet The Policy 
        Implications of International Treatment of Meteorological Data 
        and its Impact on Forecasts, Warnings, and Commercial Weather 
        Industry Development, World Scientific Publishing Co. Pte. Ltd; 
        Singapore; River Edge, NJ; London

  <bullet> Washington Post, Letter to the Editor, Weathering Disasters, 
        August 17, 2001

  <bullet> Levin, J. and Barry Lee Myers. 1987. Systematic Design of 
        Earth Science Instructional Modules Utilizing Real-Time 
        Databases. The Earth Scientist. (Fall)

  <bullet> Abrams, E., Levin, .J., and 'Barry Lee Myers. 1987. 
        Classroom Information Databank for Science Educators. 
        Proceedings National Science Supervisors Association Science 
        Leadership Institute

  <bullet> Barry Lee Myers & Myers, J. N. 1985. ``New Technology and 
        the Presentation of Weather.'' RTNDA Communicator. December

  <bullet> Barry Lee Myers & Myers, J. N. 1984. ``Reliable Forecast: A 
        Must for Efficient Cost-Effective Snow Removal.'' The 
        Pennsylvania Township News. Vol. 35, No. 9, September, pp 26-30

  <bullet> Barry Lee Myers, 1982. ``The Private Forecaster's Role in 
        Snow Fighting.'' Public Works Journal, vol. 112, No. 11, pp. 
        54-56, November

  <bullet> Barry Lee Myers, 1978. ``Pennsylvania: Prime Target for 
        Uninsured Flood Loss.'' Department of Public Information, The 
        Pennsylvania State University

  <bullet> Barry Lee Myers, and J. K. Rubin. 1978. ``Comp]ying with the 
        Flood Disaster Protection Act.'' Real Estate Law Journal, Vol. 
        7 (2), pp 114-131

  <bullet> Barry Lee Myers, 1978. ``The Common Law of Solar Access: An 
        Insufficient Protection for Users of Solar Energy.'' Real 
        Estate Law Journal, Vol. 6, (Spring), pp. 320-322. Reprinted in 
        Solar Engineering, and Ecolibrium (Fall)

  <bullet> Barry Lee Myers, 1978. ``So]ar Access in Residential 
        Developments.'' The Practical Lawyer, Vol. 24, No. 2, (March), 
        pp. 13-20

  <bullet> Barry Lee Myers, 1978. ``The American View on Awarding 
        Attorney's Fees--The Alaskan Pipeline Cases.'' Business Law--
        Issues am/Concepts. pp. 69-78

  <bullet> Barry Lee Myers, 1977. ``Legal Problems in Solar Energy Use: 
        A Look Back at the Right to Light.'' Selected Papers of the 
        American Business Law Association National Proceedings. pp. 
        504-518

  <bullet> Barry Lee Myers, 1976. ``Flood Insurance: The Legal Tide 
        Rises Again or what Happens When You Put a Wolf in Sheep's 
        Clothing.'' Law and the Management Process: Recent Legal 
        Developments and Teaching Methods. pp. 67-79

  <bullet> Barry Lee Myers, 1976. ``Flood Disaster Protection Act of 
        1973.'' American Business Law Journal, Vol. 13, (Winter), pp. 
        315-333

  <bullet> Barry Lee Myers, 1976. ``American Land Planning Law--Review 
        of the Five Volume Work by Norman Williams, Jr.'' American 
        Business Law Journal, Vol. 14, (Fall), pp. 277-279

  <bullet> Barry Lee Myers, 1976. Flood Insurance: The Legal Tide Rises 
        Again or What Happens When You Put a Wolf in Sheep's Clothing. 
        The Center for the Study of Environment Policy. The 
        Pennsylvania State University. March

  <bullet> Barry Lee Myers, & Myers, J. N. 1974. ``How Users Benefit 
        from Private Weather Forecasts.'' Rural and Urban Roads. vol. 
        12, No. 6, June, p. 17

  <bullet> Barry Lee Myers, 1974. Selected Legal Issues Associated with 
        Planning Land Uses in a Riverine Area. The Center for the Study 
        of Environmental Policy. The Pennsylvania State University. 
        April

  <bullet> Barry Lee Myers, & Myers, J. N. 1974. ``Rain or Snow, It 
        Pays to Know.'' Public Works Magazine. January, pp. 48-50

  <bullet> Barry lee Myers, et a]. Legal Problems Associated with 
        Planning Land Uses in a Riverine Area, University Park, Pa: The 
        Center for the Study of Environmental Policy. 207 pp. March

  <bullet> Barry Lee Myers, & Myers, J, N., 1973. ``Snow Warning, How 
        Private Meteorologists Help.'' Cities and Villages. Columbus, 
        Ohio. Vol. 21, No. 12, December, pp. 9-10. Reprinted in Ohio 
        County Engineering News, February

  <bullet> Barry Lee Myers, & Myers,, J. N. 1972. ``How Private 
        Meteorologists Help.'' The Pennsylvania, October, p. 25. 
        Reprinted in Cities and Villages, Vol. 21, No.. 12, December, 
        pp. 9-10. Reprinted in Ohio County Engineering News, February, 
        1973

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

  <bullet> Testimony before the U.S. House Committee on Science, Space 
        and Technology, Subcommittee on Environment, Private Sector 
        Weather Forecasting: Assessing Products and Technologies, June 
        8, 2016

  <bullet> Testimony before the U.S. Senate Committee on Commerce, 
        Science, and Transportation, Subcommittee on Oceans, 
        Atmosphere, Fisheries, and Coast Guard, A Hearing on: 
        Forecasting Success: Achieving U.S. Weather Readiness for the 
        Long Term, December 12, 2013

  <bullet> Testimony before the U.S. House Committee on Science, Space 
        and Technology, Subcommittee on Environment, Restoring U.S. 
        Leaders/tip in Weather Forecasting, May 23, 2013

  <bullet> Co-presenter before the U.S. House Committee on Science, 
        Subcommittee on Energy and Environment, Testimony of the 
        Commercial Weather Services Association, February 21, 1995

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    My entire life's work has provided the background that 
affirmatively qualifies me for appointment to the position as NOAA 
Administrator. I come with a deep immersion in science, although I am 
not a scientist. I am one of the few, and possibly the only, non-
scientist to be made a Fellow of the American Meteorological Society 
(AMS). And I have been honored by the AMS separately for ``outstanding, 
highly principled leadership of the American weather industry over five 
decades and fostering strong cooperation between private sector and 
government weather services.'' (emphasis added).
    My life's work has been in the American weather enterprise: (1) as 
an advisor to NOAA, the National Weather Service, the United Nation's 
World Meteorological Organization, and (2) as the leader of the 
preeminent global weather company--AccuWeather. I also served as a 
tenured professor in the nationally recognized Smeal College of 
Business at Penn State and served on the faculty of the Environmental 
Resource Management Program and the Graduate Program in Regional 
Planning. So I have a very well rounded view of the academic/research 
community, the government agencies, and the weather industry in the 
private sector.
    The weather components of NOAA make up about 60 percent of the 
agency budget. But I am also familiar with the ocean, and especially 
the fisheries issues, and I am ready to bring my corporate leadership 
skills to solving the Nation's issues in this area.
    After having been the Executive Vice President and General Counsel 
of AccuWeather for many decades, and a stint as Chief Financial 
Officer, I was promoted to Chief Executive Officer just ten years ago, 
and since that time the company has almost quadrupled in size and gone 
from a national household word to a global brand reaching an estimated 
two billion devices in people's hands around the world. This was done 
by assembling a team of leaders who understand the challenges and were 
prepared to address them. This is the approach I plan to take with 
NOAA--especially focusing on two major initial problems--reduction of 
the international trade imbalance in our fisheries (ranging from an 
annual deficit of $11 to $17 billion depending on source) and having 
the best weather model in the world. There are also other priorities 
such as (1) renewed emphasis on ocean observing and data collection 
systems and analysis to contribute both to our marine environment and 
short and annual and inter-annual weather forecasting and (2) 
implementing the Weather Research and Forecasting Improvement Act.
    I was a prime player in working with Congress over four years to 
see HR 353 turned into law this year as the Weather Research and 
Forecasting Improvement Act (P.L. 115-25), which I believe is a 
Congressional blueprint for improving tornado and hurricane warnings 
(as well as other objectives). Having strongly supported the enactment 
of P.L. 115-25, I feel qualified to carry out its mandate and restore 
America to the world leader in weather forecasting.
    The question asks why I wish to serve, there arc two answers. 
First, I believe I come to the agency with much knowledge of its 
strengths and areas for improvement. I know many of the people in the 
agency and I believe I will bring strong directed leadership that will 
enhance the value the agency brings to the Nation.
    Second, and on a personal note, after my father died in 1963, my 
brothers and I had to make our own way in the world. His estate was 
bankrupt and our mother had to declare bankruptcy also. We were tossed 
out of our home by a foreclosure and for a time supplemented our meager 
income with surplus government food off the back of a truck at a food 
distribution point. I still remember the giant blocks of cheese and the 
big jars of peanut butter.
    By the availability of scholarships and government loans, 
attending, what was a low cost state school at the time (Penn State), 
the three of us developed the American dream. We provided the hard work 
and skill, and our country provided the opportunities that only America 
can. My brothers and I went from eating government surplus cheese to 
building the world's premiere and best known weather and media company. 
I am so proud of what we have done.
    AccuWeather as a business gives back to the Nation every day. We 
work every day to save lives and protect property. I am proud of this 
legacy, all inspired by a love of weather which we all endorsed at an 
early age and worked, regularly 70 and 80 hour weeks, to make happen. I 
feel driven to use my lifetime of business experience to give back to 
the Nation that helped my family when we real1y needed it.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    I believe the prime responsibility is to ensure that the wishes of 
Congress are carried out, as defined in statute and in the approved 
appropriations, through accountability and proper, efficient, and 
effective management. In the private sector I have always worked 
closely with the Senate and the House; as the head of NOAA I believe 
transparency and accountability arc essential.
    My plan is to staff the top management positions with talented, 
experienced and capable executives and scientists from the private 
sector and from government who are able and willing to carry out the 
visions discussed above.
    I am used to managing a diverse company with customers in virtually 
every country in the world, working with the government meteorological 
services of many nations, and making weather information available on 
demand in over a 100 languages and dialects. I believe I am up to the 
challenge of not just managing NOAA but identifying and solving 
challenges faced by the agency in both weather, water and our 
fisheries.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    See my discussion above:

  1.  Addressing Fisheries Trade Imbalance--It is reported that this 
        imbalance is between $11 and $17 billion per year. Righting 
        this ship would be a major plus for the Nation.

  2.  American Weather Model Superiority--The American weather models 
        must be the best in the world for both protection of lives and 
        property and also for national security.

  3.  Carrying out P.L. 115-25--This Act focuses on the improvement of 
        forecasting--tornadocs, hurricanes, and annual and inter-annual 
        forecasts. This is a new paradigm to include the academic/
        research community and the American weather industry in solving 
        NOAA and national weather issues and must be effectively 
        implemented. I fought to see this bill enacted into law and 
        wish to see it effectively implemented.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I have retirement accounts through my former employer, The 
Pennsylvania State University. I also have Individual Retirement 
Accounts (IRAs) not related to a business associate, client, or 
customer.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. No.
    3. Indicate any investments, obligations, liabilities. or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and Department of Commerce agency 
ethics officials to identify any potential conflicts of interest. Any 
potential conflicts of interest be resolved in accordance with the 
terms of my ethics agreement. I understand that my ethics agreement has 
been provided to the Committee. I am not aware of any potential 
conflict of interest other than those that are the subject of my ethics 
agreement and I have pledged to eliminate promptly.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself: on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    I met with Senators and Congressmen, and testified, in support of 
the passage of P.L. 115-25.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Any potential conflicts of interest will be resolved in accordance 
with the terms of my ethics agreement. I understand that my ethics 
agreement has been provided to the Committee. l am not aware of any 
potential conflict of interest other than those that are the subject of 
my ethics agreement and they will be resolved quickly.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics, 
professional misconduct, or retaliation by, or been the subject of a 
complaint to, any court, administrative agency, the Office of Special 
Counsel, professional association, disciplinary committee, or other 
professional group? If yes:
  a.  Provide the name or agency, associa1ion, committee, or group;

  b.  Provide the date the citation, disciplinary action, complaint, or 
        personnel action was issued or initiated;

  c.  Describe the citation, disciplinary action, complaint, or 
        personnel action;

  d.  Provide the results of the citation, disciplinary action, 
        complaint, or personnel action.
    No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business or nonprofit of which you are or were 
an officer ever been involved as a party in an administrative agency 
proceeding, criminal proceeding, or civil litigation? If so, please 
explain.
    AccuWeather has been involved in routine civil and administrative 
actions, such as contracts disputes and employee claims for 
unemployment compensation, workers compensation, and other personnel 
matters.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information. 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                  Curriculum Vitae of Barry Lee Myers
Education
        The Pennsylvania State University, Smeal College of Business, 
        Master of Science, (ABD) Management Science and Organizational 
        Behavior, 1972

        Boston University School of Law, J.D., 1970

        The Pennsylvania State University, Smeal College of Business, 
        B.S., Economics and Business Administration, 1967

        Admitted to the Bar: Massachusetts 1970, Pennsylvania 1975, 
        United States Supreme Court 1980
Professional & Academic Positions
        AccuWeather, Inc., 1964-present Chief Executive Officer 
        [previously Executive Vice President, General Counsel and CFO]; 
        Member of the Board of Directors and Secretary of the 
        Corporation

        American Meteorological Society Weather and Climate Commission 
        Steering Committee--January 2012 to January 2015

        Huafeng/AccuWeather Joint Venture: Beijing, China--Founding 
        Member--2015

        National Oceanic and Atmospheric Administration Science 
        Advisory Board (SAR)--Environmental information Services 
        Working Group--May 2009 to December 2016

        Advisor to Dr. John L. Hayes, Director of the National Weather 
        Service. at World Meteorological Organization Meetings; Geneva, 
        Switzerland--June 20-23, 2008

        Advisor to General John T. Kelly, Jr., Director of the National 
        Weather Service, at World Meteorological Organization Meetings; 
        Geneva, Switzerland--June 11-13, 2001

        Boutique law practice specializing in land use and development, 
        real estate, and environmental law, 1970-1990

        The Pennsylvania State University, Smeal College of Business, 
        Graduate School Faculty, 1974-1990

        The Pennsylvania State University, Smeal College of Business, 
        Associate Professor of Business Law (Tenured), 1978-1990

        The Pennsylvania State University, Program Committee of the 
        Graduate Program in Regional Planning, 1973-1982

        The Pennsylvania State University, Center for the Study of 
        Environmental Policy, 1972-1980

        The Pennsylvania State University, Smeal College of Business, 
        Assistant Professor of Business Law, 1973-1978

        Pine Creek Task Force, Pennsylvania Department of Environmental 
        Resources, 1973-1978

        Centre Regional Consciousness Group, Center Regional Planning 
        Commission, 1974-1977

        U.S. Department of the Interior, Bureau of Outdoor Recreation, 
        Program Evaluator, 1976

        National Science Foundation, Special Consultant on Federal Coal 
        Leasing Practices, 1973-1974

        The Pennsylvania State University, Smeal College of Business, 
        Lecturer in Business Law, 1972-1973

        The Pennsylvania State University and the Pennsylvania Health 
        Research Institute, Center for Air Environment Studies, 
        Pennsylvania Science and Engineering Fellow, 1971-1972

        The Pennsylvania State University, Center for Air Environment 
        Studies, U.S. Public Health Service Air Pollution Fellowship, 
        1970-1971
Professional Affiliations
        Economic Club of New York. 2011-present

        Chamber of Business and Industry for Centre County, CEO Group 
        Member, 2008-present

        American Weather and Climate Industry Association (Board 
        Member, Government Relations Officer), 1990-present

        American Meteorological Society, 2001-present

        International Association of Broadcast Meteorologists, 2001-
        present

        National Weather Association, 2001-prescnt

        American Bar Association, 1968-present

        American Business Law Association, 1971-1990

        American Legal Studies Association, 1975-1990

        Beta Gamma Sigma (Business Administration Honor Society), 1976-
        present

        Centre County Bar Association, Centre County, PA, 1976-present

        National Panel of Arbitrators of the American Arbitration 
        Association, 1977-1992

        Omicron Delta Epsilon (Economics Honor Society), 1967-present

        Pennsylvania Bar Association, 1975-present

        Pennsylvania Supreme Court, Member of the Bar, 1975-present

        Pi Gamma Mu (Social Science Honor Society), 1966-present

        Supreme Judicial Court of Massachusetts, Member of the Bar, 
        1980-present

        United States Supreme Court, Member of the Bar, 1980-present

        Who's Who in America--various editions Who's Who in American 
        Law--various editions

        Who's Who in Executives and Professionals--various editions 
        Who's Who in Finance and Industry--various editions

        Who's Who Registry of Global Business Leaders--various editions 
        Who's Who Worldwide--various editions
Special Activities
        Environmental Information Services Working Group (EISWG) of the 
        Sciences Advisory Board to the National Oceanographic and 
        Atmospheric Administration (NOAA); Silver Spring, MD--December 
        12-13, 2016

        Space-based Environmental Intelligence Event, American 
        Astronautical Society and the American Meteorological Society; 
        Washington, D.C.--December 2016

        National Academy of Sciences' Board on Atmospheric Sciences and 
        Climate workshop, Speaker; Washington, D.C.--December 2016

        The Economic Club of NY Event Featuring Michael Bloomberg; New 
        York City, NY--December 2016

        Google Zeitgeist Meeting; Scottsdale, AZ--September 2016

        B20/G20 Summit, U.S. Delegate; Hangzhou, China,--August/
        September 2016

        American Meteorological Society Summer Community Meeting--July 
        2016

        Testimony Before the House Committee on Science, Space and 
        Technology, Subcommittee on Environment; Private Sector Weather 
        Forecasting; Capitol Hill, Washington, D.C.--June 2016

        BDT Roundtable Event with Commerce Secretary Pritzker; 
        Washington. D.C.--June 2016

        The Economic Club of NY Meeting: New York City, NY--June 2016

        The U.S.-China Business Council Meeting; Washington, D.C.--May 
        2016

        Environmental Information Services Working Group (EISWG) of the 
        Sciences Advisory Board to the National Oceanographic and 
        Atmospheric Administration (NOAA): Silver Spring, MD--May 2016

        American Meteorological Society Washington Forum; Washington, 
        D.C.--April 2016

        American Meteorological Society Annual Meeting; New Orleans, 
        LA--January 2016

        Environmental Information Services Working Group (EISWG) of the 
        Sciences Advisory Board to the National Oceanographic and 
        Atmospheric Administration (NOAA); Silver Spring, MD--December 
        9-10, 2015

        Global Innovator Conference: Beijing, China--2015

        APEC Young Entrepreneurs' Summit; Beijing, China--2015

        The U.S.-China Business Council Gala; Washington, D.C.--
        December 2015

        Fortune Global Forum 2015: San Francisco, CA--November 2015

        Google Zeitgeist Meeting; Scottsdale, AZ--October 2015

        National Weather Service (NWS) Fall Strategy Meeting; 
        Washington, D.C.--October 2015

        U.S. Corporate Leadership Reception and Dinner with President 
        Xi of the People's Republic of China; Seattle, WA--September 
        2015

        The U.S. China Business Council Meeting; Washington, D.C.--
        August 2015

        The U.S.-China Business Council Annual Meeting; Washington, 
        D.C.--June 2015

        Media Insider Conference, Key Note Speaker; Key Largo, FL--
        April/May 2015

        National Association of Broadcasters; Las Vegas, NV--April 2015

        Digital Content Next Conference; Miami. FL--January 2015

        American Meteorological Society Annual Meeting; New Orleans, 
        LA--January 2015

        The U.S.-China Business Council Annual Meeting; Washington, 
        D.C.--December 2014

        Environmental Information Services Working Group (EISWG) of the 
        Sciences Advisory Board to National Oceanographic and 
        Atmospheric Administration (NOAA); Silver Spring, MD--December 
        2-3, 2014

        C-Suite Conference, Speaker; Marina Del Rey, CA--November 2014

        Points of Light Dinner, Guest of Neal Bush; Washington D.C.--
        October 2014

        Economic Club of New York Meeting; New York--October 2014

        Licensing Executives Society, Speaker; San Francisco, CA--
        October 2014

        Google Zeitgeist Meeting: Scottsdale, AZ--September 2014

        American Meteorological Society Summer Community Meeting; State 
        College, PA--August 2014

        Multichannel On-Demand Summit, Speaker: New York City, NY--June 
        2014

        The U.S.-China Business Council Annual Meeting: Washington, 
        D.C.-June 2014

        Licensing Executives Society (LES)--IP 100 Forum Panelist; 
        Chicago, IL--May 2014

        Environmental Information Services Working Group (EISWG) of the 
        Sciences Advisory Board to the National Oceanographic and 
        Atmospheric Administration (NOAA); Silver Spring, MD--April 
        2014

        National Association of Broadcasters; Las Vegas, NV--April 2014

        American Meteorological Society Forecast Improvement Group 
        Meeting; Washington, D.C.--April 2014

        American Meteorological Society Washington Forum; Washington, 
        D.C.--April 2014

        American Meteorological Society Enterprise Steering Committee 
        Meeting; Atlanta, GA--February 2, 2014

        American Meteorological Society--Commission on the Weather and 
        Climate Enterprise (CWCE) meeting; Atlanta, GA--February 2014

        American Meteorological Society Annual Meeting; Atlanta, GA--
        February 2014

        Environmental Information Services Working Group (EISWG) of the 
        Sciences Advisory Board to the National Oceanographic and 
        Atmospheric Administration (NOAA); Silver Spring, MD--December 
        17-18, 2013

        Testimony before the Subcommittee on Oceans, Atmosphere, 
        Fisheries, and Coast Guard; Committee on Commerce, Science, and 
        Transportation; United States Senate; A Hearing on: Forecasting 
        Success: Achieving U.S. Weather Readiness for The Long Term--
        December 12, 2013

        The U.S.-China Business Council Annual Meeting: Washington, 
        D.C.--December 4, 2013

        Licensing Executives Society (LES); Philadelphia, PA--September 
        23, 2013

        Google Zeitgeist Conference; Scottsdale, AZ--September 15-17, 
        2013

        American Meteorological Society Summer Community Meeting: 
        Boulder, CO--August 12-15, 2013

        Testimony before the Subcommittee on Environment of the 
        Committee on Science, Space and Technology, Restoring U.S. 
        Leadership in Weather Forecasting--May 23, 2013

        National Association of Broadcasters; Las Vegas, NV--April 8-
        13, 2013

        Weather Policy Priorities--113th Congress; Washington, D.C.--
        January 31, 2013

        American Meteorological Society--Commission on the Weather and 
        Climate Enterprise (CWCE) meeting; Austin, TX--January, 2012

        American Meteorological Society Annual Meeting; Austin, TX--
        January 2013

        Environmental Information Services Working Group (EISWG) of the 
        Sciences Advisory Board to the National Oceanographic and 
        Atmospheric Administration (NOAA)--Silver Spring, MD--December 
        12-13, 2012

        OMMA Premium Display Conference; New York City, NY--November 8, 
        2012

        Google Zeitgeist Conference; Scottsdale. AZ--October 14-17, 
        2012

        Mobile Marketing Association (MMA) SM2, Speaker: New York City, 
        NY--October 1-2, 2012

        Economic Club of New York meeting; New York--September 24, 2012

        American Weather Enterprise--Briefing; Washington, D.C.--
        September 27, 2012

        American Meteorological Society & UCAR Geosciences 
        Congressional Visit Days; Washington, D.C.--September 11-12, 
        2012

        Environmental Information Services Working Group (EISWG) of the 
        Sciences Advisory Board to the National Oceanographic and 
        Atmospheric Administration (NOAA); Silver Spring, MD--May 1-2, 
        2012

        National Association of Broadcasters; Las Vegas, NV--April 16-
        18, 2012

        American Meteorological Society Washington Forum: Toward a 
        Weather, Water and Climate-Ready Nation; Washington, D.C.--
        April 10-12, 2012

        American Meteorological Society--Status of the NOAA FY 13 
        Budget Request Session Panelist; Washington, D.C.--April 12, 
        2012

        American Meteorological Society--Commission on the Weather and 
        Climate Enterprise (CWCE) meeting; Washington, D.C.--April 9, 
        2012

        American Meteorological Society--NWS Partners Meeting; New 
        Orleans, LA--January 26, 2012

        American Meteorological Society--Commission on the Weather and 
        Climate Enterprise (CWCE) meeting; New Orleans, LA--January 
        2012

        American Meteorological Society Annual Meeting; New Orleans, 
        LA--January 2012

        American Weather and Climate Industry Association; New Orleans, 
        LA--January 2012

        Federal Reserve Bank of New York Meeting of Select Business 
        Leaders; New York--November 15, 2011

        Environmental Information Services Working Group (EISWG) of the 
        Sciences Advisory Board to the National Oceanographic and 
        Atmospheric Administration (NOAA); Silver Spring, MD--November 
        2011

        Google Zeitgeist Conference; Scottsdale, AZ--September 25-28, 
        2011

        Economic Club of New York meeting; New York--September 19, 2011

        Environmental Information Services Working Group (EISWG) of the 
        Sciences Advisory Board to the National Oceanographic and 
        Atmospheric Administration (NOAA); Boulder, CO--August 2011

        American Meteorological Society Summer Meeting; Boulder, CO--
        August 2011

        National Weather Service Forum on Mobile Weather; Silver 
        Spring, MD--June 2011

        The U.S.-China, Business Council Annual Meeting; Washington, 
        D.C.--May 31, 2011

        National Association of Broadcasters: Las Vega, NV--April 2011

        Environmental Information Services Working Group (EISWG) of the 
        Sciences Advisory Board to the National Oceanographic and 
        Atmospheric Administration (NOAA); Silver Spring, MD--April 
        2011

        American Meteorological Society Annual Meeting; Seattle, WA--
        January 2011

        American Weather and Climate Industry Association; Seattle, 
        WA--Januaey 2011

        Environmental Information Services Working Group (EISWG) of the 
        Sciences Advisory Board to the National Oceanographic and 
        Atmospheric Administration (NOAA); Sausalito. CA--November 2010

        Google Zeitgeist Conference; Scottsdale, AZ--September 12-14, 
        2010

        Environmental Information Services Working Group (EISWG) of the 
        Sciences Advisory Board to the National Oceanographic and 
        Atmospheric Administration (NOAA); State College, PA--August 9, 
        2010

        American Meteorological Society Summer Meeting; State College, 
        PA--August 9-11, 2010

        Environmental Information Services Working Group (EISWG) of the 
        Sciences Advisory Board to the National Oceanographic and 
        Atmospheric Administration (NOAA); Silver Spring, MD--April 19-
        20, 2010

        National Association of Broadcasters Conference; Las Vegas, 
        NV--April 11-14, 2010

        American Meteorological Society 2010 AMX Public-Private 
        Partnership Forum; Washington, D.C.-April 6-7, 2010

        American Meteorological Society Annual Meeting; Atlanta, GA--
        January 17-22, 2010

        American Weather and Climate Industry Association; Atlanta, 
        GA--January 17, 2010

        NOAA Stakeholder Workshop; Washington, D.C.--December 2, 2009

        Environmental Information Services Working Group (EISWG) of the 
        Sciences Advisory Board to the National Oceanographic and 
        Atmospheric Administration (NOAA); Silver Spring, MD--November 
        18, 2009

        National Weather Service ``Family of Services'' Meetings: 
        Washington, D.C.--June 25, 2009

        Media Conference--Advertising 2.0; New York City, NY--June 10, 
        2009

        National Association of Broadcasters Conference; Las Vegas, 
        NV--April 20-22, 2009

        Guest appearance on ``To the Best of My Knowledge'' hosted by 
        Dr. Graham Spanier, President of Penn State University, on 
        WPSU-TV & FM and Pennsylvania Cable Network--February 24, 2009

        Commercial Weather Services Association Annual Meeting; 
        Phoenix, AZ--January 11, 2009

        American Meteorological Society Annual Meeting; Phoenix:, AZ--
        January 11-14, 2009

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Building Green'' Online Seminar---December 27, 2008

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Top Ten Steps To Enforcing a Restrictive Covenant'' Online 
        Seminar--September 28, 2008

        United Nations World Meteorological Organization Meetings; 
        Geneva, Switzerland--June 19-26, 2008

        Group M 24/7 Summit; New York City, NY--June 3, 2008

        American Meteorological Society Corporate Forum; Washington, 
        D.C.--April 22-23, 2008

        National Association of Broadcasters Conference; Las Vegas, 
        NV--April 12-16, 2008

        Commercial Weather Services Association Annual Meeting; New 
        Orleans, LA--January 18, 2008

        American Meteorological Society Annual Meeting; New Orleans, 
        LA--January 18-21, 2008

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``E-Discovery''; Mechanicsburg, PA--November 14, 2007

        Weather Derivatives Seminar; New York, NY--October 23, 2007

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Saving the Assets of an Individual Entering a Nursing Home 
        After the Deficit Reduction Act'' Online Seminar--October 20, 
        2007

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Social Security Benefits Primer'' Online Seminar--September 
        23, 2007

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``The Legislative Process,'' Mechanicsburg, PA--September 27, 
        2007

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``E-Discovery'' Online Seminar--September 10, 2007

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Search Engines Beyond Google'' Webinar June 12, 2007

        American Meteorological Society Corporate Forum; Washington, 
        DC--March 22-23, 2007

        American Meteorological Society Annual Meeting; San Antonio, 
        TX--January 14-17, 2007

        Commercial Weather Services Association Annual Meeting; San 
        Antonio, TX--January 14, 2007

        National Council of Industrial Meteorologists Annual Meeting 
        presenter; San Antonio, TX--January 15, 2007

        The Weather Coalition panelist regarding the future course of 
        the industry-academic-government relations; San Antonio, TX--
        January 15, 2007

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``De-mystifying the Insurance Industry--How Policies are 
        Written, Placed and Interpreted'' Online Seminar--August 28, 
        2006

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Fundamentals of Estate'' Online Seminar--August 14, 2006

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``LLCs, LPs, S Corps & C Corps: Choosing the Best Business 
        Entity for Maximum Results'' Online Seminar--August 14, 2006

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``How to Mediate a Business Dispute'' Online Seminar--August 6, 
        2006

        American Meteorological Society Corporate Forum; Washington, 
        D.C.-March 9-10, 2006

        American Meteorological Society, the Symposium on the Public/
        Private Sector Partnership; Atlanta, GA--January 31, 2006

        American Meteorological Society, the Symposium on the Public/
        Private Sector Partnership, Committee on Weather Analysis and 
        Forecasting Panelist; Atlanta, GA--January 31, 2006

        National Weather Association Annual Meeting; St. Louis, MO--
        October 15-17, 2005

        Private Sector Service Providers and NOAA regarding JOOS 
        Implementation; Washington, D.C.--September 21, 2005

        Private Sector Service Providers and NOAA regarding JOOS 
        Implementation Panelist; Washington, D.C.--September 21, 2005

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Avoiding and Resolving Disputes with Minority Shareholders'' 
        Online Seminar--August 22, 2005

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Business Method Patents'' Online Seminar--August 17, 2005

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Insurance coverage in the 21st Century'' Online Seminar--
        August 17, 2005

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Advanced Cross Examination''; Mechanicsburg, PA--August 29, 
        2005

        Workshop on the Future of U.S. Weather Prediction Research; 
        University of Colorado, Boulder, CO--July 26-28, 2005

        American Meteorological Society Corporate Forum; University of 
        Maryland, MD--March 30-31, 2005

        Inauguration Ceremony for President George W. Bush; Washington, 
        D.C.--January 20, 2005

        American Meteorological Society Annual Meeting; San Diego, CA--
        January 9-14, 2005

        Commercial Weather Services Association Annual Meeting; San 
        Diego, CA--January 9, 2005

        Press Conference with Congressman John Peterson (R-PA) 
        regarding the Punxsutawney Weather Center; Washington, D.C.--
        December 17, 2004

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Panel Discussion: Law and Medical Malpractice Issues''; 
        Mechanicsburg, PA--October 22, 2004

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``The Good, the Bad and the Ugly: How the Media Shapes Clients: 
        Perception of the Practice of Law'' Online Seminar--October 22, 
        2004

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Handling the Workers' Comp Case'' Online Seminar--September 
        24, 2004

        NRCC Santorum Trust; Washington, D.C.--September 22, 2004

        NRCC Republican Senatorial Inner Circle, Republican National 
        Convention; New York City, NY--August 29-September 1, 2004

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Greatest Trials Ever Held''; Mechanicsburg, PA--August 20, 
        2004

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Lawsuits about Lawsuits'' seminar--August 31, 2004

        Presidential Dinner honoring President George W. Bush; 
        Washington, D.C.--July 21, 2004

        Commercial Weather Services Association Annual Meeting; 
        Washington, D.C.--July 15-16, 2004

        National Republican Congressional Committee, Business Advisory 
        Council, Honorary Chairman from Pennsylvania; Washington, 
        D.C.--June 23, 2004

        American Meteorological Society 33rd Conference on Broadcast 
        Meteorology; New Orleans, LA--June 14-17, 2004

        NOAA Stakeholder forum; Washington, D.C.--April 16, 2004

        National Law Journal, ``Eye of the Storm'' profile on In-House 
        Counsel--April 5, 2004

        American Meteorological Society Corporate Forum; Washington, 
        D.C.--March 14-16, 2004

        American Meteorological Society Corporate Forum, ``Weather and 
        Climate Enterprise Panel Discussion'' panelist; Washington, 
        D.C.--March 14-16, 2004

        American Meteorological Society Annual Meeting; Seattle, WA--
        January 10-15, 2004

        Joint Session of Congress featuring speaker The Honorable Tony 
        Blair, Prime Minister of the United Kingdom--July 17, 2003

        American Meteorological Society Corporate Forum, Weather and 
        Climate Enterprise Panel Discussion; Washington, D.C.--March 
        15, 2003

        American Meteorological Society Annual Meeting; Long Beach, 
        CA--February 10-14, 2003

        Swearing fn Ceremonies of the 108th Congress; Washington, 
        D.C.--January 7, 2003

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Workplace Investigation of Sexual Harassment Claims''; 
        Mechanicsburg, PA--December 9, 2002

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Malpractice Avoidance Seminars''; Huntingdon, PA--November 
        19, 2002

        NOAA Strategic Planning Process, Stakeholder Workshops: 
        Washington, D.C.--September 23, 2002

        NOAA COOP Modernization Partners' Forum; Rockville, MD--
        September 18 2002

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Power to Persuade''; Mechanicsburg, PA--August 6, 2002

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Sexual Harassment Case''; Pittsburgh, PA--July 30, 2002

        Commercial Weather Services Association Annual Meeting; Kansas 
        City, MO--July 20, 2002

        National Research Council, ``Public--Private Partnerships in 
        the Provision of Weather and Climate Services'' Open Session; 
        Boulder, CO--June 27, 2002

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Use of Trust in Estate Planning''; State College, PA--May 3, 
        2002

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Buying & Selling a Business''; State College, PA--April 23, 
        2002

        American Meteorological Society Corporate Forum: Washington, 
        D.C.--March 4-6, 2002

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Trials of the Century''; Pittsburgh, PA--November 13, 2001

        National Research Council Workshop; Washington, D.C.--November 
        5, 2001

        Centre County Bench Bar Day; Bellefonte, PA--October 12, 2001

        National Research Council Committee on Partnerships in Weather 
        and Climate Services; Washington, D.C.--August 29, 2001

        World Federation of Scientists, 26th Session of the 
        International Seminars on Planetary Emergencies & Associated 
        Meetings; Invited Speaker--Global Weather Data and Information; 
        Erice, Italy--August 19-25, 2001

        Commercial Weather Services Association Annual Meeting; 
        Washington, D.C.--June 8, 2001

        United Nations World Meteorological Organization meeting; 
        Geneva, Switzerland--June 11-13, 2001

        Centre County Bar Association, Continuing Legal Education 
        ``What Every Lawyer Needs to Know About Employment Contracts, 
        Non-compete Clauses and Confidentiality Agreements''; State 
        College, PA--January 17, 2001

        Internet World Fall 2000; New York City, NY--October 26, 2000

        Radio-Television News Directions Association, Annual National 
        Meeting; Minneapolis, MN--September 12-13, 2000

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Representing Residential Landlords and Tenants''; Lewisburg, 
        PA--July 11, 2000

        Commercial Weather Services Association Annual Meeting; 
        Washington, D.C.--June 27, 2000

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Franchising Practice and Pitfalls''; Mechanicsburg, PA--June 
        8, 2000

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Buying and selling a Business''; Williamsport, PA--December 
        17, 2000

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Speaking to Win''; Mechanicsburg, PA--November 18, 1999

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Bad Faith Claims in Pennsylvania''; Mechanicsburg, PA--
        September 9, 1999

        Commercial Weather Services Association Annual Meeting; 
        Washington, D.C.--June 29, 1999

        Workshop on International Meteorological Cooperation: 
        Addressing Issues and Challenges for the Future; Dallas, TX--
        January 9-10, 1999

        Pennsylvania Bar Institute Continuing Legal Education Course. 
        ``Internet for Lawyers'': Mechanicsburg, PA--September 15, 1998

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``New PA Rules of Evidence'': Scranton, PA--August 12, 1998

        Commercial Weather Services Association Annual Meeting; 
        Washington, D.C.--May 19, 1998

        Forum on International Weather Data Exchange, U.S. Delegation 
        member; Paris, France--May 14, 1998

        Happy Valley Viewpoint, 1450 WMAJ: State College, PA--April 13, 
        1998

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Trial Tactics''; Pennsylvania--August 29, 1997

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Drafting & Enforcing Executive Employment Contracts'': 
        Pennsylvania--August 12, 1997

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``The Disciplinary Board-1 Received a Letter: How Should . . 
        .''; Pennsylvania--April 16, 1997

        Inc. Magazine's Seventh Annual Conference on Customer Service 
        Strategies; Orlando, FL--March 11-12, 1997

        Forum on International Data Exchange; Long Beach, CA--February 
        2, 1997

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Internet: Hip or Hype?'': Pennsylvania--August 22, 1996

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Sexual Harassment''; Harrisburg, PA--July 24, 1996

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Mergers and Acquisitions''; Pittsburgh, PA--June 6, 1996

        Commercial Weather Services Association Annual Meeting; 
        Washington, D.C.--May 14, 1996

        Commercial Weather Services Association Board of Directors 
        Meeting; Washington, D.C.--May 13, 1996

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Recent Development in Federal Practice For Business 
        Lawyers.''; Harrisburg, PA--December 7, 1995

        Interplan; New York, NY--November 1-3, 1995

        Commercial Weather Services Association Board of Directors 
        Meeting; Washington, D.C.--September 12, 1995

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Effective Writing for Lawyers''; Philadelphia PA--August 30, 
        1995

        Commercial Weather Services Association, OMB Presentation; 
        Washington, D.C.--June 8, 1995

        Commercial Weather Services Association Annual Meeting; 
        Washington, D.C.--May 16, 1995

        National Science Teachers Association Annual Meeting; 
        Philadelphia, PA--March 1995

        Regional Climatic Centers Meeting--January 4, 1995

        World Meteorological Organization Conference on the Economic 
        Benefits of Meteorological and Hydrological Services; Geneva, 
        Switzerland--September 19-23, l994

        Pennsylvania Bar Institute Continuing Legal Education Course, 
        ``Legal Negotiation''; Pittsburgh, PA--July 20, 1994

        Commercial Weather Services Association Annual Meeting; 
        Washington, D.C.--June 2, 1994

        American Meteorological Society Annual Meeting; Nashville, TN--
        January 24-27, 1994

        World Meteorological Organization International Programme 
        Committee Meeting; Geneva, Switzerland--January 10-11, 1994

        Radio-Television News Directors Association Annual Meeting; 
        Miami Beach,FL--September-October 1993

        National Weather Service Family of Services Annual Meeting; 
        Washington, D.C.--August 31, 1993

        Commercial Weather Services Association Annual Meeting, 
        ``Commercialization of Weather Services and Products''; 
        Washington, D.C.--June 4, 1993

        National Science Teachers Association Annual Meeting; Kansas 
        City, MO--April 1993

        American Meteorological Society Meeting; Anaheim, CA--January 
        20, 1993

        National Science Teachers Association Annual Meeting--November 
        1992

        Radio-Television News Directors Association Annual Meeting; San 
        Antonio, TX--September 1992

        Commercial Weather Services Association Annual Meeting; 
        Washington, D.C. July 17, 1992

        American Meteorological Society Meeting; Atlanta, GA--January 
        7, 1992

        Commercial Weather Services Association Annual Meeting; 
        Washington, D.C.--June 28, 1991

        National Science Teachers Association Annual Convention; 
        Boston, MA--March 1991

        West Chester University Satellite in Education Conference; West 
        Chester, PA--March 1991

        Commercial Weather Services Association Annual Meeting: 
        Washington, D.C.--June 28, 1990

        National Science Teachers Association Annual Convention; 
        Atlanta, GA--April 1990

        National Association of Broadcasters Annual Convention; 
        Atlanta, GA--April 1990

        Association for Supervision and Curriculum Development National 
        Conference; San Antonio, TX--March 1990

        National Business Aircraft Association Annual Convention; 
        Atlanta, GA--October 1989

        Commercial Weather Services Association Annual Meeting 
        (formerly APWRC); Washington, D.C.--June 16, 1989

        National Association of Broadcasters Convention; Las Vegas, 
        NV--April 29-May 2, 1989

        National Science Teachers Association Annual Convention; 
        Seattle, WA--April 1989

        American Meteorological Society Meeting; Anaheim, CA--January 
        31, 1989

        West Chester University Satellite in Education Convention; West 
        Chester, PA--November 1988

        Radio-Television News Directors Association, Annual Convention; 
        Las Vegas, NV--November 1988

        American Association of Weather Observers. Annual Convention; 
        State College, PA--October 1988

        National Business Aircraft Association, Annual Convention; 
        Dallas, TX--October 1988

        National Association of Broadcasters, Annual Convention; 
        Washington, D.C.--September 1988

        National Science Teachers Association, Annual Convention; St. 
        Louis, MO--April 1988

        Commercial Weather Services Association Annual Meeting 
        (formerly APWRC); Washington, D.C.--March 11, 1988

        National Science Supervisors Association, Annual Convention--
        August 1987

        National Science Teachers Association, Annual Convention; 
        Washington, D.C.--March 1987

        Pennsylvania Science Teachers Association, Annual Convention; 
        Valley Forge, PA--November 6, 1986

        Radio-Television News Directors Association, Annual Convention; 
        Salt Lake City, UT--August 1986

        National Videotext Conference; New York, NY--1986

        National Association of Broadcasters Annual Convention; Las 
        Vegas, NV--April 1986

        Federal High-Tech Conference; Boston, MA--November 1985

        Radio-Television News Directors Association, Annual National 
        Meeting; Nashville, TN--September 1985

        American Business Law Association, Annual National Meeting; 
        Portland, OR--August 13-16, 1985

        Radio-Television News Directors Association, Annual National 
        Meeting; San Antonio, TX--December 1984

        National Association of Broadcasters, Annual Meeting; Las 
        Vegas, NV--April 1983

        National Association of Broadcasters, Annual Meeting; Dallas, 
        TX--April 1982

        American Business Law Association, 57th Annual National 
        Meeting; San Francisco, CA--August 12-l5, 1980

        Pennsylvania Bar Institute Conference; Hattisburg, PA--March 
        28, 1980

        American Business Law Association--Mid-Atlantic Region, Annual 
        Meeting; Ocean City, MD--March 2, 1979

        Anglo-American Business Law Conference, Annual Meeting; Ocean 
        City, MD--March 22-24, 1979

        American Business Law Association, Mid-Atlantic Region, Annual 
        Meeting--March 1978

        American Business Law Association, Annual National Meeting; 
        Miami Beach, FL--August 21-25, 1977

        American Business Law Association--Mid-Atlantic Region, Annual 
        Meeting; University of Maryland, College Park, MD--March 10-11, 
        1977

        Pennsylvania Bar Association and Pennsylvania Bar Institute, 
        Pennsylvania Civil Practice and Procedure Institute; University 
        Park, PA--October 27, 1976

        American Business Law Association, 53rd Annual National 
        Meeting; Michigan State University, East Lansing, MI--August 
        22-26, 1976

        General Electric Foundation--U.C.L.A. Graduate School of 
        Management, Annual Conference on Business and Its Environment, 
        U.C.L.A.; Los Angeles, CA--July 25-August 5, 1976

        American Business Law Association--Mid-Atlantic Region, Annual 
        Meeting; University of Delaware, New Newark, DE--Aprll 1-2, 
        1976

        Northeastern Regional Business Law Association, Annual Meeting; 
        New York, NY--January 31, 1976

        American Business Law Association, 52nd Annual Meeting; 
        University of Nevada, Reno, NV--August 17-21, 1976

        American Society of Planning Officials, 40th Annual National 
        Planning Conference; Chicago, IL--May 10-16, 1974

        American Law Institute and American Bar Association, Annual 
        Conference on Land Use Control Law; San Diego, CA November 13-
        17, 1973

        The Zoning Game--Land Use Control Conference; University Park, 
        PA--September 9, 1973
Speeches
        2017 AMS Washington Forum, ``Environmental Data Paradigm: The 
        Future of Foundational Weather Data that Drives the 
        Enterprise,'' Panelist; Washington, D.C.--May 4, 2017

        National Weather Service Fall Strategy Meeting; Silver Spring, 
        MD--October 2015

        Global Innovator Conference 2015 and APEC Young Entrepreneurs' 
        Summit--Keynote speaker; Beijing, China--September 2015

        Publishers Insiders Summit, Keynote Interview; Chicago, IL--May 
        2015

        Millersville College--American Meteorological Society, Keynote 
        Speaker--May 3, 2013

        ``Status of the NOAA FY13 Budget Request''-American 
        Meteorological Society Washington Forum; Washington, D.C.--
        April 10, 2012

        ``Entrepreneurship--My Story''; Delta Sigma Pi at Smeal 
        College, The Pennsylvania Slate University, University Park, 
        PA--April 2, 2012

        ``Coordinating Severe Weather Warnings Between the Public and 
        Private Sectors'', National Weather Service Partners Meeting; 
        New Orleans, LA--January 26, 2012

        ``Welcome Speech'', AWCIA event at the American Meteorological 
        Society; New Orleans, LA--January 2012

        ``Mobile Weather: Opportunity and Challenge'', American 
        Meteorological Society Summer meeting; Boulder, CO--August 2011

        ``Wireless Weather Services--National Weather Service and 
        Weather Enterprise Roles'' Forum of Wireless Weather Services; 
        Washington, D.C.--June 28, 2011

        ``Entrepreneurship--Our Story''--Young Presidents Organization; 
        State College, PA--March 3, 2010

        ``Welcome Speech--American Cancer Society''; State College, 
        PA--August 2, 2008

        ``Even Children Can Contribute to the Make-A-Wish Foundation,'' 
        Bellefonte Area Middle School; Bellefonte, PA--June 13, 2008

        ``A Property Owners View of Proposed Changes to the West End,'' 
        State College Borough Planning Commission Meeting; State 
        College, PA--December 5, 2007

        ``Beyond Climatology--Looking Toward the Future,'' Weather 
        Derivatives Seminar; New York City, NY--October 23, 2007

        ``Welcome Speech--Annual CWSA Reception at AMS'': San Antonio, 
        TX--January 14, 2007

        Presentation--National Council of Industrial Meteorologists 
        Annual Meeting; San Antonio, TX--January 15, 2007

        ``The Impact of Legislation on Broadcast Meteorologists,'' 
        National Weather Association Annual Meeting; St. Louis, MO--
        October 17, 2005

        ``Weather and Climate Enterprise Panel Discussion.'' American 
        Meteorological Society Corporate Forum; Washington, DC--March 
        15, 2004

        ``Discriminatory Information and Competitive Practices of the 
        National Weather Service,'' The Annual Meeting of the 
        Commercial Weather Services Association; Kansas City, MO--July 
        20, 2002

        ``The Fair Activities Inventory Reform Act of 1998, OMB 
        Circular A-76 and other Federal Law as it relates to Policies 
        and Practices of the National Weather Service,'' AMS Corporate 
        Forum; Washington, D.C.--March 3-4, 2002

        ``The Policy Implications of International Treatment of 
        Meteorological Data and Its Impact on Forecasts, Warnings, and 
        Commercial Weather Industry Development,'' World Federation of 
        Scientists, 26th Session of the International Seminars on 
        Planetary Emergencies & Associated Meetings; Erice, Italy--
        August 19-25, 2001

        ``NWSEO Opposition to Commercial Weather Industry Activity,'' 
        Commercial Weather Services Association Conference--June 8, 
        2001

        ``The Latest Information on International Weather Data 
        Exchange,'' Commercial Weather Services Association Conference; 
        Washington, D.C.--May 19, 1998

        ``Single Source and Accreditation for Public Warnings Under WMO 
        Resolution 40'' Forum on International Data Exchange; Paris, 
        France--May 14, 1998

        ``North American Perspective on WMO Resolution 40'' Forum on 
        International Data Exchange; Long Beach, CA--February 2, 1997

        ``Computer Services Sales Tax,'' Pennsylvania House of 
        Representatives, Finance Committee Public Hearing, Special Task 
        Force on Pennsylvania's Business and Job Climate; Pittsburgh, 
        PA--August 14, 1995

        ``Testimony of the Commercial Weather Services Association.'' 
        Co-presenter, Subcommittee on Energy and Environment, U.S. 
        House of Representatives; Washington, D.C.--February 21, 1995

        ``Round Table Discussion on Conference Results and 
        Recommendations.'' Conference on the Economic Benefits of 
        Meteorological and Hydrological Services, World Meteorological 
        Organization; Geneva, Switzerland--September 23, 1994

        ``Specific Investigations of Social and Economic Benefits 
        Obtained from Services and Customers in Specific Sectors: 
        Chairman of the Session.'' Conference on the Economic Benefits 
        of Meteorological and Hydrological Services, World 
        Meteorological Organization: Geneva, Switzerland--September 22, 
        1994

        ``Benefits for End Users Derived from NMHS's and the Private 
        Sector Collaborating to Provide Services to Meet their Needs: 
        Round Table Discussion.'' Conference on the Economic Benefits 
        of Meteorological and Hydrological Services. World 
        Meteorological Organization; Geneva, Switzerland--September 22, 
        1994

        ``Benefits to End Users of NMHS/Private Sector Collaboration: 
        The U.S. Model and Its Implications.'' Conference on the 
        Economic Benefits of Meteorological and Hydrological Services. 
        World Meteorological Organization. Keynote speaker; Geneva, 
        Switzerland--September 22, 1994

        Specific Investigations of Social and Economic Benefits 
        Obtained from Services to Customers in Specific Sectors: 
        Chairman of the Session. Conference on the Economic Benefits of 
        Meteorological and Hydrological Services. World Meteorological 
        Organization; Geneva, Switzerland--September 21, 1994

        ``Teaching Business and Society Courses.'' Panel Discussant. 
        American Business Law Association Annual National Meeting--
        August 15, 1985

        ``Legal Problems and Solar Development.'' The Sound of 
        Progress. Penn State Radio--June 1, 1979

        ``Law School Opportunities for CBA Students.'' Business 
        Administration Student Council--April 2, 1979

        ``Problems and Techniques in Teaching the Uniform Commercial 
        Code to College Students.'' Panel Discussant. Anglo-American 
        Business Law Conference--March 22, 1979

        ``Community Legal Concerns Related to Solar Development.'' The 
        Sound of Progress. Penn State Radio--November 3, 1978

        ``Solar Technology and Legal Problems.'' The Sound of Progress. 
        Penn State Radio--September 12, 1978

        ``Planning, the Environment and the Law.'' Man-Environment 
        Relations Club. The Pennsylvania State University--December 6, 
        1977

        ``The Taking Issue of Land Use Controls.'' Zoning and Community 
        Land Use Management Techniques In-Service Education. A 
        Continuing Education Program sponsored by the College of 
        Agriculture. The Pennsylvania State University--September 9, 
        1977

        ``Legal Problems in Solar Energy.'' Annual National Meeting of 
        the American Business Law Association; Miami Beach, FL--August 
        25, 1977

        ``Energy Implications of Major Oil Company Divestiture.'' State 
        of the Weather/Shape of the World. WPSX--July 19, ]977

        ``Problems with the Federal Flood Insurance Program.'' State of 
        the Weather/Shape of the World. WPSX--February 17, 1977

        ``The Environment, The Law and You.'' Eco-Action Meeting; 
        University Park, PA--October 25, 1976

        ``Technology, Energy and Social Concerns and Impacts.'' 
        Chairman of the Session. Conference on Business and its 
        Environment; U.C.L.A. Graduate School of Management, Los 
        Angeles, CA--July 28, 1976

        ``Flood Controls.'' State of the Weather/Shape of the World. 
        WPSX--July 21, 1976

        ``Flood Insurance: The Legal Tide Rises Again.'' Mid-Atlantic 
        Regional Meeting of The American Business Law Association; 
        University of Delaware, Newark, DE--April 2, 1976

        ``Legal Controls in Flood-Prone Communities.'' Natural 
        Disasters Seminar Series; The Pennsylvania State University--
        October 3, 1974

        ``Zoning and the Law.'' State of the Weather/Shape of the 
        World. WPSX--March 24, 1974

        ``National Environmental Policy Art.'' State of the Weather/
        Shape of the World. WPSX--October 23, 1973

        ``Federal Land Use Planning Legislation.'' Participant in 
        Environmental Workshop. Center for the Study of Environmental 
        Policy; The Pennsylvania State University--October 16, 1973

        ``Legal Aspects of Land Use Controls in Flood Prone Areas.'' 
        Pine Creek Task force, Pennsylvania Department of Environmental 
        Resources--October 10, 1973

        ''Environmental-Legal Problems in the Pine Creek Watershed.'' 
        Pine Creek Task Force, Pennsylvania Department of Environmental 
        Resources--July 11, 1973

        ``Land Use Doctrines and Environmental Problems.'' Department 
        of Geography Graduate Seminar; The Pennsylvania State 
        University--January 19, 1973

        ``Federal Flood Insurance.'' State of the Weather/Shape of the 
        World, WPSX--November 27, 1972

        ``Environmental--Legal Problems in the Pine Creek Watershed.'' 
        State of the Weather/Shape of the World. WPSX--November 15, 
        1972

        ``Motivating Business Organizations to Attach Their Air 
        Pollution Problems.'' Air Pollution Seminar Series, Center for 
        Air Environment Studies, Institute for Science and Engineering; 
        The Pennsylvania State University--November 6, 1971

        ``Private Legal Remedies for Air Pollution Problems.'' Air 
        Pollution Seminar Series, Center for Air Environment Studies, 
        Institute for Science and Engineering; The Pennsylvania State 
        University--May 4, 1971
Honors and Prizes Awarded
        Elected Fellow of the American Meteorological Society; American 
        Meteorological Society 96th Annual Meeting; New Orleans, LA--
        January 10, 2016

        The Kenneth C. Spengler Award for 2015, American Meteorological 
        Society 95th Annual Meeting; Phoenix, AZ--January 8, 2015

        Grant from the General Electric Foundation and the U.C.L.A. 
        Graduate School of Management to participate in the conference 
        of ``Business in Its Environment'' held at the U.C.L.A. 
        Graduate School of Management; Los Angeles, CA--July 26-August 
        4, 1976

        Pennsylvania Science and Engineering Fellow, Center for Air 
        Environment Studies; The Pennsylvania State University and the 
        Pennsylvania Health Research Institute--1971-1972
Publications
        International Seminar on Nuclear War--26th Session--2001, 
        Climate Changes--Global Monitoring of the Planet The Policy 
        Implications of International Treatment of Meteorological Data 
        and its Impact on Forecasts Warnings, and Commercial Weather 
        Industry Development, World Scientific Publishing Co. Pte. Ltd; 
        Singapore; River Edge, NJ; London

        Washington Post, Letter to the Editor, Weathering Disasters, 
        August 17, 2001

        Henszey, B.N.; Barry Lee Myers; Phalan, RT.; Bagby, J.W.; 
        Sharp, J.M. (co-authors), 1991. Introduction to Basic Legal 
        Principles, A Student Study Guide

        Abrams, E.; Levin, J.; Palmer, A.; Withum, F. and Barry Lee 
        Myers, 1991. On-Line With Accu-Weather: Teacher's Guide and 
        Student Worksheets, 2nd Edition. Kendall/Hunt, Dubuque, IA

        Abrams, E.; Levin, J.; Palmer, A.; Withum, F. and Barry Lee 
        Myers. 1991. On-Line With Accu-Weather: Instructional Modules 
        and Student Worksheets, 2nd Edition. Kendall/Hunt, Dubuque, IA

        Abrams. E.; Levin, .T.; Palmer, A.; Withum, F. and Barry Lee 
        Myers. 1989. On-Line With Accu-Weather: Teacher's Guide and 
        Student Worksheets, 2nd Edition. Kendall/Hunt, Dubuque. IA

        Abrams. E.; Levin, J.; Palmer, A.; Withum, F. and Barry Lee 
        Myers. 1989. On-Line With Accu-Weather: Instructional Modules 
        and Student Worksheets. 2nd Edition. Kendall/Hunt, Dubuque, IA

        Levin, J., and Barry Lee Myers. 1987. Real-Time Databases for 
        the Classroom. Pennsylvania Science Teachers
Association Exchange (Fall)
        Levin, J. and Barry Lee Myers. 1987. Systematic Design of Earth 
        Science Instructional Modules Utilizing Real-Time Databases, 
        The Earth Scientist. (Fall)

        Abrams, E., Levin, J., and Barry Lee Myers. 1987. Classroom 
        Information Databank for Science Educators. Proceedings 
        National Science Supervisors Association Science Leadership 
        Institute

        Henszey, B.N. and Barry Lee Myers and Phalan, R.T. (co-
        authors), 1986. Introduction to Basic Legal Principles. A 
        Student Study Guide

        Barry Lee Myers & Myers, J. N. 1985. ``New Technology and the 
        Presentation of Weather.'' RTNDA Communicator. December

        Barry Lee Myers & Myers, J. N. 1984. ``Reliable Forecast: A 
        Must for Efficient Cost-Effective Snow Removal.'' The 
        Pennsylvania Township News. Vol. 35, No. 9, September, pp 26-30

        Barry Lee Myers, 1983. Legal Environment of Business--Lesson 
        Report Manual. The Pennsylvania State University. Second 
        edition

        Barry Lee Myers, 1983. Legal Environment of Business--A 
        Correspondence Study Course. The Pennsylvania State University. 
        Second edition

        Henszey, B.N. and Bany Lee Myers and Phalan, R.T. (co-authors), 
        1983. Basic Legal Principles--Instructors Manual

        Henszey, B.N. and Barry Lee Myers and Phalan. R.T. (co-
        authors), 1982. Introduction to Basic Legal Principles. A 
        Student Study Guide. Second edition

        Barry Lee Myers. 1982. ``The Private Forecaster's Role in Snow 
        Fighting.'' Public Works Journal vol. 112, No. 11, pp. 54-56, 
        November

        Barry Lee Myers. 1980. Legal Environment of Business--Lesson 
        Report Manual The Pennsylvania State University,

        Barry Lee Myers. 1980. Legal Environment of Business--A 
        Correspondence Study Course. The Pennsylvania State University

        Henszey, B.N. and Barry Lee Myers and Phalan, R.T. (co-
        authors), 1979. Introduction to Basic Legal Principles, A 
        Student Study Guide

        Barry Lee Myers. 1979. ``55 MPH Speed Limit Isn't the Answer.'' 
        Centre Daily Times, March

        Barry Lee Myers, 1978. ``Pennsylvania: Prime Target for 
        Uninsured Flood Loss.'' Department of Public Information, The 
        Pennsylvania State University

        Barry Lee Myers, and J. K. Rubin. 1978. ``Complying with the 
        Flood Disaster Protection Act.'' Real Estate Law Journal, Vol. 
        7(2), pp 114-131

        Barry Lee Myers, 1978. ``The Common Law of Solar Access: An 
        Insufficient Protection for Users of Solar Energy.'' Real 
        Estate Law Journal, Vol. 6, (Spring), pp. 320-322. Reprinted in 
        Solar Engineering, and Ecolibrium (Fall)

        Barry Lee Myers, 1978. ``Guaranteeing a Place in the Sun.'' 
        Centre Daily Times. May

        Barry Lee Myers, 1978. ``Solar Access in Residential 
        Developments.'' The Practical Lawyer, Vol. 24, No. 2, (March), 
        pp. 13-20

        Barry Lee Myers, 1978. ``The American View on Awarding 
        Attorney's Fees--The Alaskan Pipeline Cases.'' Business Law 
        Issues and Concepts. pp 69-78

        Land, F.P. and Barry Lee Myers and Huffimire, M., (editors) 
        1977. Selected Papers of American Business Law Association 
        Regional Proceedings. Mid-Atlantic Business Law Association

        Henszey, B. N. and Barry Lee Myers and Phalan, R.T. (co-
        authors), 1977. Introduction to Basic Legal Principles. 
        (Textbook)

        Myers, Barry Lee. 1977. ``Should the Big Oil Companies Be 
        Broken Up?'' Business and its Environment

        Barry Lee Myers, 1977. ``Legal Problems in Solar Energy Use: A 
        Look Back at the Right to Light.'' Selected Papers of the 
        American Business Law Association National Proceedings. pp. 
        504-518.

        Henszey, B. N. and Barry Lee Myers (co-authors). 1977, 
        ``Evaluation of `New' Teaching Methods for the Basic Business 
        Law Course.'' American Business Law Journal, Vol. 15 (Spring). 
        pp. 132-143

        Barry Lee Myers, 1977. Guest Column, ``Big Flood Loss Target.'' 
        Centre Daily Times, May

        Barry Lee Myers, 1976. ``Flood Insurance: The Legal Tide Rises 
        Again or what Happens When You Put a Wolf in Sheep's 
        Clothing.'' Law and the Management Process: Recent Legal 
        Developments and Teaching Methods. pp, 67-79

        Barry Lee Myers, 1976. ``Flood Disaster Protection Act of 
        1973.'' American Business Law Journal. Vol. 13, (Winter), pp. 
        315-333

        Barry Lee Myers, 1976. ``American Land Planning Law--Review of 
        the Five Volume Work by Norman Williams, Jr.'' American 
        Business Law Journal, Vol. 14, (Fall), pp. 277-279

        Barry Lee Myers, 1976. Flood Insurance: The Legal Tide Rises 
        Again or What Happens When You Put a Wolf in Sheep's Clothing. 
        The Center for the Study of Environment Policy. The 
        Pennsylvania State University. March

        Staff Editor, American Business Law Journal. 1976-1980

        Barry Lee Myers & Myers, J. N. 1974. ``How Users Benefit from 
        Private Weather Forecasts.'' Rural and Urban Roads. vol. 12, 
        No. 6, June, p. 17

        Barry Lee Myers, 1974. Selected Legal Issues Associated with 
        Planning Land Uses in a Riverine Area, The Center for the Study 
        of Environmental! Policy. The Pennsylvania State University. 
        April

        Barry Lee Myers & Myers, J. N. 1974. ``Rain or Snow. It Pays to 
        Know.'' Public Works Magazine. January, pp 48-50.

        Barry Lee Myers, et al. Legal Problems Associated with Planning 
        Land Uses in a Riverine Area, University Park, PA: The Center 
        for the Study of Environmental Policy. 207 pp. March

        Barry Lee Myers & Myers, J. N., 1973, ''Snow Warning, How 
        Private Meteorologists Help.'' Cities and Villages. Columbus, 
        Ohio. Vol. 21, No. !2. December, pp. 9-10. Reprinted in Ohio 
        County Engineering News, February

        Barry Lee Myers & Myers, J. N. 1972. ``How Private 
        Meteorologists Help:' The Pennsylvanian October, p. 25. 
        Reprinted in Cities and Villages, Vol. 21, No. 12, December, pp 
        9-10. Reprinted in Ohio County Engineering News. February, 1973

    Senator Sullivan. Thank you, Mr. Myers, for that opening 
statement.
    I want to note at the outset Mr. Myers has received over 40 
letters of support, including letters from Dr. Conrad 
Lautenbacher, a former NOAA Administrator; Dr. Elizabeth 
Weatherhead, a co-recipient of the 2007 Nobel Prize; and Mark 
Abbott, President and Director of the Woods Hole Oceanographic 
Institution, among others. I ask unanimous consent that they be 
included in the record for this hearing. Without objection.
    [The letters referred to follow:]

                                      Quantum Spatial, Inc.
                              St. Petersburg, FL, September 8, 2017

Hon. John Thune,
Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Dan Sullivan,
Chairman,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Bill Nelson,
Ranking Minority Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Gary Peters,
Ranking Minority Member,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman Thune, Chairman Sullivan, Ranking Member Nelson and 
            Ranking Member Peters:

    As the Chief Executive Officer of Quantum Spatial, Inc., I want to 
express our support for the President's nomination of Rear Admiral 
(Ret.) Tim Gallaudet to be the next Deputy Administrator of the 
National Oceanic and Atmospheric Administration (NOAA). Quantum 
Spatial, a contractor to NOAA for its coastal mapping mission, is the 
Nation's largest independent geospatial data firm with offices and 
facilities throughout the United States.
    Dr. Gallaudet, until his retirement, was a Rear Admiral in the U.S. 
Navy whose most recent assignment was Oceanographer of the Navy and 
Commander of the Navy Meteorology and Oceanography Command. During his 
32 years of service, Dr. Gallaudet has had experience in weather and 
ocean forecasting, hydrographic surveying, developing policy and plans 
to counter illegal, unregulated, and unreported fishing, and assessing 
the national security impacts of climate change. Dr. Gallaudet has led 
teams of Navy Sailors and civilians performing such diverse functions 
as overseeing aircraft carrier combat operations, planning and 
conducting humanitarian assistance and disaster response efforts, 
assisting Navy SEAL Teams during high visibility counter-terrorism 
operations, and developing the Navy's annual $52 billion information 
technology, cyber security, and intelligence budget. Dr. Gallaudet 
holds a bachelor's degree from the U.S. Naval Academy and master's and 
doctoral degrees from Scripps Institution of Oceanography, all in 
oceanography. Admiral Gallaudet's multi-faceted background makes him 
uniquely suited to be NOAA's next Deputy Administrator. With its 
mission to understand, predict, and share information about changes in 
climate, weather, ocean, and coasts and to conserve and manage our 
Nation's vast coastal and marine ecosystems and resources, NOAA will 
thrive under his leadership.
    Along with our strong endorsement of Admiral Gallaudet's 
nomination, Quantum Spatial notes that the Administration has not yet 
nominated the next NOAA Administrator. Various press reports have 
identified Mr. Barry Lee Myers as the leading candidate for this 
important position. Mr. Myers, an active member of the American 
Meteorological Society, is currently the Chief Executive Officer (CEO) 
of AccuWeather, Inc. in State College, Pennsylvania. Prior to becoming 
The AccuWeather CEO in 2007, Mr. Myers was the company's Executive Vice 
President and General Counsel. Since 1990, Mr. Myers has been a member 
of the Board of Directors of the American Weather and Climate Industry 
Association, the weather industry's trade association, serving as the 
industry's chief federal-relations officer. Mr. Myers was an original 
member of NOAA's Environmental Information Services Working Group 
(EISWG).
    EISWG advises the NOAA Science Advisory Board on the condition and 
capabilities of improving communications among the various public, 
private, and academic entities engaged in environmental information 
issues.
    Mr. Myers with his expertise in the private sector weather 
industry, and Admiral Gallaudet with expertise in ocean and coastal 
matters that relate to science and national security would give NOAA a 
very powerful leadership team. Quantum Spatial urges the Administration 
to nominate the next NOAA Administrator as quickly as possible and for 
the Senate to confirm both the NOAA Administrator and Deputy 
Administrator appointments at the first available opportunity. It is 
important that NOAA have its complete leadership team on board as soon 
as possible, particularly as this Nation faces a very active hurricane 
season at the present time along with all of the consequences of such 
storms--such as storm surge, coastal flooding issues, etc.
    Thank you for the opportunity to express these views and we look 
forward to a speedy and productive confirmation process for the new 
leadership team at NOAA.
            Sincerely
                                             Robert Hickey,
                                           Chief Executive Officer,
                                                  Quantum Spatial, Inc.
                                 ______
                                 
                                                 September 12, 2017

Hon. John Thune,
Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Dan Sullivan,
Chairman,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Bill Nelson,
Ranking Minority Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Gary Peters,
Ranking Minority Member,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman Thune, Chairman Sullivan, Ranking Member Nelson and 
            Ranking Member Peters:

    On behalf of the National Association of Marine Laboratories 
(NAML), I wish to express NAML's strong support for the President's 
nomination of Rear Admiral (Ret.) Tim Gallaudet to be the next Deputy 
Administrator of the National Oceanic and Atmospheric Administration 
(NOAA). NAML, first established in 1985 with nearly a dozen separate 
marine laboratories, has grown into a network of over 100 institutions 
operated by universities, non-profit organizations, and local, state, 
and Federal governments that focus on the ocean, coasts and Great 
Lakes.
    Starting with his degrees in oceanography from a world-class 
institution and culminating in his time as Oceanographer and Navigator 
of the Navy, Admiral Gallaudet's multi-faceted background makes him 
uniquely suited to be NOAA's next Deputy Administrator. With his 
mission to understand, predict, and share information about changes in 
climate, weather, ocean, and coasts and to conserve and manage our 
Nation's vast coastal and marine ecosystems and resources, NOAA will 
thrive under his leadership,
    Along with NAML's endorsement of Admiral Gallaudet's nomination, 
NAML is concerned that the Administration has not yet nominated the 
next NOAA Administrator. Various press reports have identified Mr. 
Barry Lee Myers as the leading candidate for this important position, 
Mr. Myers, an active member of the American Meteorological Society, is 
currently the Chief Executive Officer (CEO) of AccuWeather, Inc. in 
State College, Pennsylvania. Prior to becoming The AccuWeather CEO in 
2007, Mr. Myers was the company's Executive Vice President and General 
Counsel. Since 1990, Mr. Myers has been a member of the Board of 
Directors of the American Weather and Climate Industry Association, the 
weather industry's trade association, serving as the industry's chief 
federal-relations officer. Mr. Myers was an original member of NOAA's 
Environmental Information Services Working Group (EISWG). EISWG advises 
the NOAA Science Advisory Board on the condition and capabilities of 
improving communications among the various public, private, and 
academic entities engaged in environmental information issues.
    Mr. Myers with his expertise in the weather industry, and Admiral 
Gallaudet with expertise in ocean and coastal matters that relate to 
science and national security would give NOAA a very powerful 
leadership team. We want to strongly encourage the Administration to 
nominate the next NOAA Administrator as quickly as possible and for the 
Senate to confirm both the NOAA Administrator and Deputy Administrator 
appointments at the first available opportunity. It is important that 
NOAA have its complete leadership team on board as soon as possible, 
particularly as this Nation is in the midst of a very active hurricane 
season that requires the observational and predictive capabilities 
required to protect the lives and livelihoods of millions of citizens 
facing the consequences (storm surge, coastal flooding) of these 
powerful storms.
    Thank you for the opportunity to express these views and we look 
forward to a speedy and productive confirmation process for the new 
leadership team at NOAA.
            Sincerely
                                         Michael P. DeLuca,
                                                         President,
                           National Association of Marine Laboratories.

                                         Senior Associate Director,
                                                    Office of Research,
                            New Jersey Agricultural Experiment Station,
                                                    Rutgers University.

                                                           Manager,
                  Jacques Cousteau National Estuarine Research Reserve.

                                                          Director,
                              New Jersey Aquaculture Innovation Center.

cc: Honorable Cory Booker
Honorable Robert Menendez
                                 ______
                                 
                                                   October 24, 2017
Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson, and Members of the Committee:

    As past co-chairs of the Environmental Information Services Working 
Group (EISWG) of the NOAA Science Advisory Board, we are very pleased 
to provide this letter of support for the nomination of Barry Lee Myers 
for Under Secretary of Commerce for Oceans and Atmosphere and NOAA 
Administrator.
    For seven years (2009-2016), Mr. Myers served as an active member 
of the EISWG where we worked closely on numerous topics impacting NOAA, 
such as satellites, weather, oceans, and research. Therefore, we know 
well and value Mr. Myers' deep level of knowledge of the weather 
enterprise and commitment to NOAA.
    During Mr. Myers' tenure on the EISWG, we provided guidance to NOAA 
leadership on areas such as climate services, how NOAA might better 
engage and strengthen partnerships with the private sector, and the 
significant need and opportunity for open data. While these topics were 
addressed in formal reports, EISWG's portfolio extended to all of the 
NOAA line offices and focused on considering how to best deliver NOAA's 
vast and valuable environmental information resources to the Nation for 
improved decision making.
    Our work with Mr. Myers illustrated that he has a broad level of 
knowledge of NOAA science and operations and understands the important 
contributions of the private and academic sectors to NOAA's programs. 
We are pleased to provide this letter of support and are available if 
you should need any additional information.
            Sincerely,
                                            Nancy Colleton,
                                      Past EISWG Co-Chair (2009-16)
                                                         President,
                          Institute for Globe Environmental Strategies.
                                   Walter F. Dabberdt, PhD,
                                     Past EISWG Co-Chair (2009-16),
                                  NCAR Associate Director Emeritus,
                              Vaisala Chief Science Officer (ret.).
                                 ______
                                 
                                                   October 25, 2017
Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    We the undersigned endorse the nomination of Barry Lee Myers for 
the NOAA Administrator position. We believe he possesses the strategic 
vision and executive leadership skills to strengthen NOAA's critical 
contributions to the Nation.
    For over twenty (20) years, we have worked with Mr. Myers during 
our tenures as Directors of the National Weather Service (NWS) and we 
have worked with him in other capacities for over thirty (30) years. We 
have found him to be open to, and have a keen sense for, the great 
potential of science and technology to benefit and strengthen their 
impact on society. Furthermore, he has been a strong advocate for the 
synergies that could be gained from partnerships among the public, 
private, and academic sectors. He has played a leading role, working 
with us directly, and also collaboratively through the American 
Meteorological Society, in forging a strong and productive partnership 
among the weather industry, the research community, and NWS in support 
of the needs of the Nation, not just the sector in which he worked. His 
efforts were always focused on capitalizing on science, technology, and 
people to improve the safety of Americans when hurricanes, tornadoes 
and other severe weather threaten.
    We recognize, as does he, the mission of NOAA spans considerably 
more than just NWS--including oceans, coasts. fisheries and climate. 
Through our experience working with Mr. Myers, we have seen a person 
capable of leading a large enterprise underpinned by complex science 
and technologies required to meet demanding mission needs. We have seen 
a leader who assembles challenges, inspires, and listens to a team with 
the necessary skill sets to produce strong and successful results. His 
success at AccuWeather, a science and technology based company, speaks 
for itself.
    At a time when the impacts of adverse weather and climate, and 
concerns over the world's environment and the Nation's fisheries are 
significant; competing budget needs are stressing government agencies; 
and the American people are demanding more efficiency from their 
Federal Government, we know Mr. Myers brings the kind of needed 
leadership, vision, business acumen, organizational management, and 
fierce determination to lead NOAA and advance its critical 
contributions to the Nation.
    This is a unique opportunity for the Nation. We urge his 
confirmation.
            Sincerely,

Signatories.

Elbert (Joe) Friday, Jr., PhD
Colonel, USAF (Ret)
Director, NWS 1988-1997
Director, NOAA Research 1997-1998
Director, Board on Atmospheric Sciences and Climate, National Academy 
of Sciences 1998-2003
Professor Emeritus, The University of Oklahoma
Past President, Honorary Member, and Fellow of the American 
Meteorological Society

John J. (Jack) Kelly
Brig Gen, USAF (ret)
Director, NWS 1998-2004
Deputy Under Secretary of Commerce, Oceans and Atmosphere, 2004-2007

David L. Johnson
Brig Gen, USAF (ret)
Director, NWS 2004-2007

John L. (Jack) Hayes, PhD
Colonel (ret)
Director, NWS 2007-2012
Deputy Director, NOAA Research 2005-2006
Deputy Director, National Ocean Service 2004-2005
                                 ______
                                 
                                  WeatherCall Services, LLC
                                                   October 30, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    It is my great pleasure to endorse the nomination of Barry Lee 
Myers for Under-Secretary of Commerce for Oceans and Atmosphere and as 
the Administrator of the National Oceanic Atmospheric Administration. 
He possesses the strategic vision, business management and executive 
leadership skills to help strengthen NOAA and improve its critical 
services to the Nation.
    As the founder and CEO of a small company that disseminates 
critical National Weather Service warnings to the public and industry, 
I urge you to vote to approve the nomination of Barry Lee Myers. The 
American economy is inextricably linked to weather. Thus far, we have 
had a series of NOAA Administrators whose experiences have been in 
academic and research areas of the earth sciences.
    While not a scientist, Mr. Myers has led one of the most successful 
private companies in the Weather Enterprise and brings a wealth of 
experience on the business side of meteorology that NOAA has never seen 
before. Our American Weather Enterprise, which I collectively include 
NWS as part of, is in need of a serious change in direction and vision 
from ``business as usual''. I know Mr. Myers has the skills and 
experience to accomplish this.
    Barry Myers will be an outstanding leader for NOAA. I urge his 
confirmation.
            Sincerely,
                                        Valerie E. Sanders,
                                           President/Meteorologist,
                                             WeatherCall Services, LLC.
                                 ______
                                 
                                                   October 30, 2017
Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    It is my pleasure to endorse the nomination of Mr. Barry Lee Myers 
for Under-Secretary of Commerce for Oceans and Atmosphere and as the 
Administrator of the National Oceanic Atmospheric Administration.
    I have known Barry, personally and professionally for almost 30 
years. I know him to be a man of the utmost integrity, professional 
competence and dedication to the services of our atmospheric and 
oceanic science to our fellow citizens, society, the U.S. economy and 
the world. Barry has been a innovative and passionate leader in the 
broad weather, oceanic, climate ``enterprise'' which encompasses all 
the sectors critical to the advances of the service of science to 
society, the academic, private and public sectors.
    I served on the National Research Council committee, which wrote 
the landmark ``Fair Weather'' report of 2003. The vision of that report 
is in the process of being realized through the growing ``effective 
partnerships in weather and climate services''. Barry Myers is a known 
and highly respected leader in a core sector of that partnership.
    I believe Barry Myers, together with the leadership team of 
dedicated, preeminent scientists within NOAA, academia, other agencies 
and the private sector will be a champion for NOAA and its largest 
division, our National Weather Service whose core mission for the 
American people is the protection of the lives and property.
    This past year we have seen the tragic human and economic impacts 
of historic floods, hurricanes, drought, wildfires, heat and more. Our 
ability as a coordinated weather/climate enterprise to increase 
forecast accuracy, response, preparation and recovery on time scales 
from minutes to decades is more important than ever, as we have seen.
    NOAA leadership is drawn from the best talent from all sectors of 
our economy. Experienced and tested leadership for the scientific 
services is needed in the challenging years ahead.
    I believe Barry Myers is a first class choice to be our next NOAA 
Administrator. He is a proven successful leader who can bridge barriers 
and organization ``turf'' which have at times limited the rapid 
progress and change needed to continue the preeminence of U.S. Science 
in the atmospheric, oceanic and hydrologic sciences.
    I urge his confirmation by the United States Senate.
            Respectfully submitted,
                                               Robert Ryan,
                          CCM (Certified Consulting Meteorologist),
                                  Retired NBC4 Chief Meteorologist,
                        Honorary Member, Fellow and Past President,
                                       American Meteorological Society.
                                 ______
                                 
                                Mike Smith Enterprises, LLC
                                      Wichita, KS, November 6, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    It is my great pleasure to endorse the nomination of Barry Lee 
Myers for Under-Secretary of Commerce for Oceans and Atmosphere and as 
the Administrator of the National Oceanic Atmospheric Administration. 
He possesses the strategic vision, business management and executive 
leadership skills to help strengthen NOAA and improve its critical 
services to the Nation.
    I have known Barry since the Reagan Administration. We have worked 
together to strengthen the entire weather enterprise: to create better 
forecasts, warnings and atmospheric data for the Nation at large. There 
is no doubt in my mind that NOAA will benefit from Barry's creative 
leadership.
    Mike Smith Enterprises, LLC is a commercial weather company based 
in Wichita that provides a number of services to groups large and small 
across the Nation.
    Barry Myers will be an outstanding leader for NOAA. I urge his 
confirmation.
            Sincerely,
                                          Michael R. Smith,
                                                   President/Owner,
                                           Mike Smith Enterprises, LLC.
                                 ______
                                 
          American Weather and Climate Industry Association
                                       Edmond, OK, November 6, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    It is my great pleasure to endorse the nomination of Barry Lee 
Myers for Under-Secretary of Commerce for Oceans and Atmosphere and as 
the Administrator of the National Oceanic Atmospheric Administration. 
He possesses the strategic vision, business management and executive 
leadership skills to help strengthen NOAA and improve its critical 
services to the Nation.
    I have known Barry Myers and have been aware of his achievements 
for more than 35-years. In the eighties and nineties, a period when 
rapid technological growth fueled an insatiable demand for value added 
weather information, AccuWeather, under Barry's direction, levered raw, 
nearly meaningless weather and environmental data being made available 
into easy-to-understand, colorful, and valuable end-user products. As 
this same technology evolution overtook media, and as the weather 
became news on a daily basis, he helped to cause weather to be the 
single most accessed piece of information watched, listened for, or 
selected on radio, television, the wired web, and mobile devices. For 
much of this history, I was able to watch Barry brilliantly orchestrate 
servicing this demand. While Barry has no formal meteorological degree, 
yet clearly, he understands weather. As America's weather industry 
developed and matured during those years, Barry came to appreciate the 
value each sector represented within the Enterprise, but more 
importantly, he recognized their value and affinity of each sector to 
each other. Since 1990, Barry has served as a member of the Board of 
Directors of the AWCIA, the weather industry's trade association 
serving as the industry's chief federal-relations office. More 
recently, he has served as a member of the Environmental Information 
Services Working Group (EISWG), to provide ongoing advice to the 
National Weather Service on improving communications among the sectors 
(public, private and academic). Through Barry's promotion, former NWS 
directors have appointed key weather industry individuals as advisors 
on U.S. delegations to the World Meteorological Organization, allowing 
joint groups to advance national and international issues. Barry's 
efforts have resulted in prominent AWCIA companies jointly supporting 
NOAA/NWS budgets. In many ways with Barry's direct involvement, 
Enterprise sectors have extended greater cooperation resulting in a 
higher level of clarity on sector roles for the first time in decades. 
Because of these achievements and for his unwavering belief that a 
strong and unified Enterprise is good for all sectors, Barry Myers is 
recognized as an expert in weather information exchange and public/
private relationships in the weather field.
    Everyone ends up somewhere, but few end up somewhere on purpose. I 
am an avid believer in ``the butterfly effect''. It happens all of the 
time, and because of Barry Myers, it has happened to America's Weather 
and Climate Enterprise.
    In our case, Barry has nudged us, perhaps just above a perceptible 
level. This nudging has caused sector leaders to pause, to consider 
path changes, to analyze new ideas, and contemplate new directions, and 
envision new efforts and applications, which not only impacted sector 
leaders, but impacted those whom they impacted, then in turn those that 
they impacted, and so on . . . essentially, multiple levels of 
``generations'' of impacts have been made for the benefit of our 
Enterprise. How naive we are when we discount and ignore those internal 
feelings to make a difference, to suggest that thought, promote that 
idea, to advance mutual support. We all lose, forever. Thankfully for 
America's Weather Enterprise, that was not the case with Bany Myers.
    AWCIA members are businesses that have a significant impact on how 
weather information is collected, disseminated and enhanced to provide 
custom services to weather-sensitive businesses as well as the general 
public. AWCIA members build weather sensors, implement government 
weather programs, broadcast weather presentations, disseminate raw 
government and privately-owned weather data, generate weather products 
and services, and provide specialized services to a wide variety of 
markets.
    We are the ``value-added provider'' or extension to the Government 
supplied weather data because we assimilate and tailor the information 
for specific uses. Our member corporations employ from 2-1000+ 
employees and cover a wide spectrum of capabilities and sizes. I have 
been the president of this organization since the late 1990s. I have 
been a professional meteorologist, rendering professional services 
since 1972.
    Barry Myers will be an outstanding leader for NOAA. I urge his 
confirmation.
            Sincerely,
                                            Steven A. Root,
                                Certified Consulting Meteorologist,
                                                        AMS Fellow,
                                                         President,
                                                                 AWCIA.
                                 ______
                                 
                        Weather Decision Technologies, Inc.
                                       Norman, OK, November 6, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    It is my great pleasure to endorse the nomination of Barry Lee 
Myers for Under Secretary of Commerce for Oceans and Atmosphere and as 
the Administrator of the National Oceanic Atmospheric Administration. 
He possesses the strategic vision, business management and executive 
leadership skills to help strengthen NOAA and improve its critical 
services to the Nation.
    I have known Mr. Myers for more than a decade as he and I have, in 
parallel, grown our weather information companies. We have had a long 
partnership and he has always been a professional and a visionary for 
his company and for the entire Weather Enterprise.
    As background, I am the President and CEO and a co-founder of 
Weather Decision Technologies, Inc. a Norman, Oklahoma based company 
with 90 employees. I am a Fellow of the American Meteorological 
Society and have been on a number of committees for that Society.
    Bany Myers will be an outstanding leader for NOAA. I urge his 
confirmation.
            Sincerely,
                                          Michael D. Eilts,
                                                 President and CEO,
                                    Weather Decision Technologies, Inc.
                                 ______
                                 
                                                   November 6, 2017
Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    It is my great pleasure to endorse the nomination of Bany Lee Myers 
for Under-Secretary of Commerce for Oceans and Atmosphere and as the 
Administrator of the National Oceanic Atmospheric Administration. He 
possesses the strategic vision, business management and executive 
leadership skills to help strengthen NOAA and improve its critical 
services to the Nation.
    During his tenure as CEO of AccuWeather, he has been a true leader 
of the American weather industry. He is also a champion in promoting 
stronger partnership among government agencies, private companies, and 
the academic community to improve weather forecasting for the Nation 
and the world, which can be partially reflected in his congressional 
testimony in support for the Weather Research and Forecasting 
Innovation Act of 2017.
    On a personal level, I witness through our numerous exchanges that 
he has a deep respect for science and scientists; he has been always 
welcoming to me, prompt in response, and respectful to my advice and 
scientific reasonings. He certainly shares with us in the academics the 
same vision on the need for building a national numerical weather 
prediction system second to none, the need for enhanced observations 
such as from satellites for monitoring and predicting severe and 
hazardous weather, the need for sustained and enhanced Federal 
government investment.
    I currently, reside in State College, Pennsylvania, which is in 
close proximity to AccuWeather, the world largest weather company that 
Mr. Myers leads. Professionally, I am a tenured full professor in the 
Department of Meteorology and Atmospheric Sciences with a joint 
appointment in the Department of Statistics at the Penn State 
University. I also direct the Penn State Center for Advanced Data 
Assimilation and Predictability Techniques (ADAPT). My research focuses 
on the fundamental understanding of atmospheric predictability, the 
underlying dynamics and uncertainties that limit the accuracy of 
prediction at different scales, and the design of advanced data 
assimilation techniques with innovative uses of radar and satellite 
observations that have led to significant improvements in the analysis 
and forecast of severe weather and tropical cyclones. I have authored 
over 200 peer-reviewed publications and has served on evaluation panels 
or advisory committees for numerous government agencies and societies, 
as well providing expert advice for several weather-related private 
businesses.
    In closing, I personally believe that Barry Myers will be an 
outstanding leader for NOAA. I urge his confirmation.
            Sincerely,
                                       Fuqing Zhang, Ph.D.,
 Professor, Department of Meteorology and Department of Statistics,
Director, Center for Advanced Data Assimilation and Predictability 
                                                        Techniques,
                                     The Pennsylvania State University.

Elected fellow of the American Meteorological Society (AMS)
Recipient of the AMS Clarence Meisinger Award, 2009
Recipient of the AMS the Banner Miller Award. 2015

Disclaimer: The titles, Awards and affiliations listed above is for my 
professional identification. The endorsement expressed in this letter 
is my own and does not necessarily reflect the views of Penn State 
University or AMS.
                                 ______
                                 
                                   Vieux & Associates, Inc.
                                                   November 7, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    It is my great pleasure to endorse the nomination of Barry Lee 
Myers for Under-Secretary of Commerce for Oceans and Atmosphere and as 
the Administrator of the National Oceanic Atmospheric Administration. 
He possesses the strategic vision, business management and executive 
leadership skills to help strengthen NOAA and improve its critical 
services to the Nation.
    I served with Mr. Myers for three years on the NOAA Environmental 
Information Services Working Group (EISWG) and was impressed with his 
clarity of thought and care for our Nation. Protecting life and 
property is his top priority.
    As a woman-owned Oklahoma S-corporation, our firm serves clients by 
providing radar-based rainfall estimates and advanced hydrologic 
modeling software and services. Municipalities, including Washington, 
D.C., St. Louis, Cincinnati, Miami-Dade, Houston, Los Angeles, and East 
Bay Municipal Utility District have benefited from our service. 
Recently, we leveraged our products and services, along with those of 
NOAA, to enhance our newest software, a flood management common 
operating picture for the City of Austin.
    Barry Myers will be an outstanding leader for NOAA. I urge his 
confirmation.
            Sincerely,
                                             Jean E. Vieux,
                                                     President/CEO,
                                               Vieux & Associates, Inc.
                                 ______
                                 
                                            GeoOptics, Inc.
                                     Pasadena, CA, November 7, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    It is my great pleasure to endorse the nomination of Barry Lee 
Myers for Under Secretary of Commerce for Oceans and Atmosphere and 
Administrator of the National Oceanic Atmospheric Administration 
(NOAA). He possesses the strategic vision, business management and 
executive leadership skills to help strengthen NOAA and improve its 
critical services to the Nation.
    Barry possesses a background uniquely tailored to serve as the NOAA 
Administrator. He excelled for many years as an all-star professor at a 
leading business school while also accumulating comprehensive knowledge 
of meteorology gained from long term involvement with the leading 
commercial weather company of our time. He then went on to prove his 
outstanding leadership and management capabilities as the AccuWeather 
CEO.
    Based on my experience as a former NOAA Administrator from 2001-
2008, and now involved in leading an environmental data enterprise, I 
view Barry as an ideal candidate for this assignment. I urge his 
confirmation!
            Sincerely,
                          Conrad C. Lautenbacher, Jr Ph.D.,
                                         Vice Admiral USN, retired,
                                                   CEO, GeoOptics, Inc.
                                 ______
                                 
                                   Radiometrics Corporation
                                      Boulder, CO, November 7, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    It is my great pleasure to endorse the nomination of Barry Lee 
Myers for Under Secretary of Commerce for Oceans and Atmosphere and as 
the Administrator of the National Oceanic Atmospheric Administration. 
He possesses the strategic vision, business management and executive 
leadership skills to help strengthen NOAA and improve its critical 
services to the Nation.
    I have seen Barry's leadership contributions to the AWCIA. He 
brings valuable leadership skills and an excellent view of government-
private partnerships that will make the NOAA mission more successful.
    Radiometrics manufactures state-of-the-art atmospheric instruments 
to improve short term weather forecasts located in Boulder, Colorado.
    Barry Myers will be an outstanding leader for NOAA. I urge his 
confirmation.
            Sincerely,
                                            Dick Rochester,
                                                               CEO,
                                              Radiometrics Corporation.
                                 ______
                                 
                          National Weather Forecasting, LLC
                                         Lodi, NJ, November 8, 2017
Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee:

    It is my utmost and sincere pleasure to endorse the nomination of 
Barry Lee Myers for Under-Secretary of Commerce for Oceans and 
Atmosphere and as the Administrator of the National Oceanic Atmospheric 
Administration. He possesses the strategic vision, business management 
and executive leadership skills to help strengthen NOAA and improve its 
critical services to the Nation.
    National Weather Forecasting worked closely with Mr. Myers on 
government relations issues as members of the American Weather and 
Climate Industry Association (AWCIA). We look forward to his leadership 
at NOAA. No one is better suited to understand the challenges to forge 
greater collaboration between the private and public sectors.
    My company, in business for 32 years, is based at Teterboro Airport 
in northern N.J., just outside NYC in northern N.J. An excellent 
location for business. We provide private weather consulting to a range 
of clients in the tri state area here in NJ, NY and CT (also eastern 
PA). Our specialty is storm forecasting for DPW's, Highway Departments, 
School Districts, Large Companies such as Johnson & Johnson 
Headquarters and many others. We pride ourselves in providing an 
excellent and accurate weather consulting service to our client base.
    Barry Myers will be an outstanding leader for NOAA. I urge his 
confirmation.
            Sincerely,
                                            Daniel Ventola,
                                                         President,
                                     National Weather Forecasting, LLC.
                                 ______
                                 
    Atmospheric & Space Technology Research Associates, LLC
                                                  November 13, 2017
Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    It is my great pleasure to endorse the nomination of Barry Lee 
Myers for Under-Secretary of Commerce for Oceans and Atmosphere and as 
the Administrator of the National Oceanic Atmospheric Administration. 
He possesses the strategic v1s1on, business management and executive 
leadership skills to help strengthen NOAA and improve its critical 
services to the Nation.
    In a time of shrinking budgets and increased accountability, NOAA 
faces a number of important challenges in the next few years. While he 
is not the scientist that some at NOAA had been hoping for, Barry Myers 
is a successful businessman who can be expected to bring much needed 
discipline and focus to NOAA. Mr. Myers is an experienced manager of 
scientists and engineers, and as such he is well qualified to lead 
NOAA. His experience with commercial weather data and his understanding 
that the commercial sector can do things faster, better and cheaper 
will help NOAA leverage the capabilities of the private sector in a way 
they have been reluctant to do. Barry Myers brings executive leadership 
of the highest caliber, and I believe he will be good for NOAA, and 
good for the country.
    ASTRA is a Small Business located in Boulder, CO. We are one of the 
leading U.S. commercial organizations providing space weather services 
and products. We have developed a new model of the upper atmosphere 
that is being transitioned to the USAF Joint Space Operations Center 
(JSpOC) at Vandenberg AFB. We have developed and flown a number of 
Cubesats, with several others currently under construction for NASA, 
NSF and the DoD. We have also developed and deployed an instrument for 
monitoring conditions in the ionosphere that can degrade and disrupt 
GPS signals and UHF satellite communications for both the DoD and 
commercial providers. Two of these systems are about to be deployed on 
NOAA buoys in the Pacific, and we have an array of systems distributed 
across Alaska. We recently provided GPS receivers to NOAA to permit 
tidal measurements in Alaska.
    ASTRA is a proud member of the American Commercial Space Weather 
Association (ACSWA), an association dedicated to improving America's 
competitive edge in space. We represent about 20 small businesses in 
this sector, and have frequent interactions with NOAA personnel.
    I believe Bany Myers will be an outstanding leader for NOAA, and I 
urge his confirmation.
            Sincerely,
                                  Dr. Geoff Crowley, Ph.D.,
                                     President and Chief Scientist,
                                                             ASTRA LLC.
                                 ______
                                 
                          Michigan Technological University
                                    Houghton, MI, November 13, 2017

Hon. Debbie Stabenow,
United States Senate,
Washington, DC.
ATTN: Matt Van Kuiken, Chief of Staff

Dear Senator Stabenow:

    The President has recently nominated Mr. Barry Lee Myers to be the 
next Administrator of the National Oceanic and Atmospheric 
Administration (NOAA). Michigan Tech, through its Great Lakes Research 
Center, partners with NOAA on a variety of issues such as the use of 
autonomous subsurface technology, autonomous subsurface vehicle 
development and deployment, regional observing systems, aerosol 
chemistry, and the impact of warming waters on the coastal food chain.
    Michigan Tech believes it is important for NOAA to have its entire 
leadership team in place as quickly as possible. As such, we are 
pleased to offer our support for the nomination of Barry Myers to be 
the next NOAA Administrator.
    Mr. Myers, an active member of the American Meteorological Society, 
is currently the Chief Executive Officer (CEO) of AccuWeather, Inc. in 
State College, Pennsylvania. Prior to becoming The AccuWeather CEO in 
2007, Mr. Myers was the company's Executive Vice President and General 
Counsel. Since 1990, Mr. Myers has been a member of the Board of 
Directors of the American Weather and Climate Industry Association, the 
weather industry's trade association, serving as the industry's chief 
federal-relations officer. Mr. Myers was an original member of NOAA's 
Environmental Information Services Working Group (EISWG). EISWG advises 
the NOAA Science Advisory Board on the condition and capabilities of 
improving communications among the various public, private, and 
academic entities engaged in environmental information issues.
    Mr. Myers with his expertise in the weather sector, and Admiral 
Gallaudet (now confirmed and sworn in as NOAA's Deputy Administrator) 
with his expertise in ocean, coastal, and Great Lakes matters would 
give NOAA a very powerful leadership team. We understand that Mr. 
Myers' nomination is pending before the Senate Commerce, Science, and 
Transportation Committee. We hope the Committee will consider Mr. 
Myers' nomination favorably and the Senate will act expeditiously to 
confirm him.
    Thank you for the opportunity to express these views and to 
register our support for the new leadership team proposed for NOAA.
            Sincerely,
                                             Glenn D. Mroz,
                                                         President.
                                 ______
                                 
                          Michigan Technological University
                                    Houghton, MI, November 13, 2017

Hon. Gary Peters,
United States Senate,
Washington, DC.
ATTN: Eric Feldman, Chief of Staff

Dear Senator Peters:

    The President has recently nominated Mr. Barry Lee Myers to be the 
next Administrator of the National Oceanic and Atmospheric 
Administration (NOAA). Michigan Tech, through its Great Lakes Research 
Center, partners with NOAA on a variety of issues such as the use of 
autonomous subsurface technology, autonomous subsurface vehicle 
development and deployment, regional observing systems, aerosol 
chemistry, and the impact of warming waters on the coastal food chain.
    Michigan Tech believes it is important for NOAA to have its entire 
leadership team in place as quickly as possible. As such, we are 
pleased to offer our support for the nomination of Barry Myers to be 
the next NOAA Administrator.
    Mr. Myers, an active member of the American Meteorological Society, 
is currently the Chief Executive Officer (CEO) of AccuWeather, Inc. in 
State College, Pennsylvania. Prior to becoming The AccuWeather CEO in 
2007, Mr. Myers was the company's Executive Vice President and General 
Counsel. Since 1990, Mr. Myers has been a member of the Board of 
Directors of the American Weather and Climate Industry Association, the 
weather industry's trade association, serving as the industry's chief 
federal-relations officer. Mr. Myers was an original member of NOAA's 
Environmental Information Services Working Group (EISWG). EISWG advises 
the NOAA Science Advisory Board on the condition and capabilities of 
improving communications among the various public, private, and 
academic entities engaged in environmental information issues.
    Mr. Myers with his expertise in the weather sector, and Admiral 
Gallaudet (now confirmed and sworn in as NOAA's Deputy Administrator) 
with his expertise in ocean, coastal, and Great Lakes matters would 
give NOAA a very powerful leadership team. We understand that Mr. 
Myers' nomination is pending before the Senate Commerce, Science, and 
Transportation Committee. We hope the Committee will consider Mr. 
Myers' nomination favorably and the Senate will act expeditiously to 
confirm him.
    Thank you for the opportunity to express these views and to 
register our support for the new leadership team proposed for NOAA.
            Sincerely,
                                             Glenn D. Mroz,
                                                         President.
                                 ______
                                 
                                       Perfero Advisory LLC
                                                  14 November, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    It is my great pleasure to endorse the nomination of Barry Lee 
Myers for Under-Secretary of Commerce for Oceans and Atmosphere and as 
the Administrator of the National Oceanic Atmospheric Administration. 
He possesses the strategic vision, business management and executive 
leadership skills to help strengthen NOAA and improve its critical 
services to the Nation.
    I worked with Barry in his capacity as CEO of AccuWeather while in 
my capacity as President & COO of a satellite-based commercial weather 
data services company, GeoOptics. His approach to professional 
relationships is direct and above board. His contributions to the 
national and international ``'weather enterprise'' were insightful, 
valuable and prescient.
    Today, I am an advisor and consult to large and small engineering, 
aerospace and critical infrastructure companies--throughout the U.S. 
and around the globe. I live just outside Philadelphia in Gladwyne, 
Pennsylvania in the 2nd Congressional District of Pennsylvania.
    Barry Myers will be an outstanding leader for NOAA and for our 
country. I urge his confirmation.
            Sincerely,
                                      Jonathan P. Kirchner,
                                                 Managing Director,
                                                  Perfero Advisory LLC.
                                 ______
                                 
                                                  November 14, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    It is my great pleasure to endorse the nomination of Barry Lee 
Myers for Under-Secretary of Commerce for Oceans and Atmosphere and as 
Administrator of the National Oceanic Atmospheric Administration. He 
possesses the strategic vision, business management and executive 
leadership skills to help strengthen NOAA and improve its critical 
services to the Nation.
    I have known Barry Myers for over 15 years from his hard and 
diligent work within the American Meteorological Society--Weather, 
Water and Climate Enterprise. There are few that fight as hard as Barry 
to make sure that the entire enterprise has the tools to be the best at 
forecasting, research and keeping our Nation weather ready! Barry has 
fostered connections from the government to private sector on the value 
of weather, climate and water information. Additionally, Barry has been 
instrumental in educating policy makers on the needs of everything from 
ocean data to improved weather satellites. I am proud to say, I have 
had the opportunity to work on committees alongside Barry that address 
those needs and concerns. Barry is a great leader, but he is also a big 
supporter of those like myself in the weather and climate user 
community. As a local television meteorologist in Washington, D.C., I 
feel confident that Barry will protect what works, but also look for 
innovative ways to inform the public of natural disasters. Barry Myers 
will be an outstanding leader for NOAA. I urge his confirmation.
            Sincerely,
                                          Veronica Johnson,
                                           Broadcast Meteorologist,
                                              Show Host & Producer,
                                           WJLA-TV ABC7 & NewsChannel8,
                                                       Washington, D.C.
                                 ______
                                 
                                                  November 16, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    I'm writing to express my support for Barry Myers' nomination for 
Undersecretary for Oceans and Atmosphere at the Department of Commerce. 
As the former Oceanographer of the Navy, President of the Consortium 
for Ocean Research and Education (CORE) and having served on several 
NOAA FACA committees, I believe that Barry Myers is well qualified to 
lead the National Oceanic and Atmospheric Administration (NOAA).
    Mr. Myers successfully created, led and nurtured AccuWeather to 
become the world's largest weather corporation comprising thousands of 
scientists and engineers. I have successfully led scientists and 
research initiatives in Washington, D.C. and believe that Mr. Myers has 
the expertise and skills necessary to lead and inspire NOAA scientists 
that provide environmental forecasts at the core of NOAA's mission.
    NOAA has traditionally struggled with transferring research to 
operations. Throughout his career, Mr. Myers has successfully worked to 
forge strategic partnerships with NOAA, the private sector and 
academia. Effectively managing this three-legged stool is critical for 
the agency's success and I believe that Mr. Myers private sector 
experience will provide a much-needed focus on innovation and return on 
investment for the U.S. taxpayer.
    Data and knowledge transfer is a critical task as NOAA observes, 
researchers and forecasts environmental conditions from the bottom of 
the ocean to the surface of the sun. However, Federal science agencies 
have also traditionally fell short with regards to delivering timely 
information to businesses and the public. This is a strength that Mr. 
Myers will bring to NOAA demonstrated by the success AccuWeather has 
achieved in sharing weather forecasts to two billion mobile devices 
every day.
    As you know, satellite procurement issues have plagued NOAA and 
many wet-side programs that are important to our Rhode Island and our 
Nation have suffered as funds have been diverted to pay for cost 
overruns. Consequently, I believe that Mr. Myers provides a unique 
opportunity to get NOAA's ``dry-side'' house in order that will 
ultimately benefit the entire agency.
    Finally, Mr. Myers is assembling a very strong policy team, 
including RDML Gallaudet, who will manage NOAA's wet-side programs. I 
hope that you can support Mr. Myers nomination to lead NOAA so that the 
agency can successfully provide the data, products and services to 
protect lives and property in Rhode Island and across the Nation.
            Sincerely,
                                         RADM Richard West,
                                     (USN-Ret), Coventry, Rhode Island.
                                 ______
                                 
                          University of Colorado at Boulder
                                                  November 16, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    I fully endorse the nomination of Barry Lee Myers for Under-
Secretary of Commerce for Oceans and Atmosphere and as the 
Administrator of the National Oceanic Atmospheric Administration. I 
have known Mr. Myers for almost twenty-five years and understand his 
character, insight, knowledge of the weather, water and climate 
enterprise to be a strong fit for the challenging job offloading NOAA 
to more productively serve this country.
    Mr. Myers has the intellectual breadth and depth to deal with the 
wide range of weather, coastal, satellite, climate and fishery issues 
that face this nation. He is a visionary in his ability to identify 
unique solutions and paths forward. He was one of the first to fully 
explore providing weather information on cell phones-now a part of 
every day life, but laughed at when he first proposed it. His company, 
AccuWeather, introduced UV forecasts before the National Weather 
Service did. He has a long history of successfully identifying both 
problems and challenges and addressing them with solutions that are 
often al1ead of his time.
    Repeatedly, Mr. Myers has exhibited strong principles and respect 
for this country's constitution and values. Because of his deep 
insights on the subject, he has often been asked to address the 
appropriate roles for public, private and academic sectors in public 
fora. He led the American Climate and Weather Industry Association's 
committee on Federal relations. He served on the Advisory Committee, 
along with the head of the NOAA's National Weather Service and the head 
of NOAA's Office of Oceanic and Atmospheric Research on the American 
Meteorological Society's Forecast Improvement Group, when I led this 
effort. Mr. Myers has always been professional, constructive and firm 
in his desire to lead this country into a stronger and more resilient 
place as leaders of weather forecasting.
    Throughout his career, Mr. Myers has displayed a broad range of 
interests including law, weather, climate, federal-private 
relationships and technological innovation. I trust that he will bring 
much needed leadership to the position. His experience both as a lawyer 
and as CEO of AccuWeather will assure that the cow1try' s needs be 
appropriately and effectively addressed on the important issues of 
weather, water and climate.
    As a joint recipient of the 2007 Nobel Peace Prize for climate 
change, I have interacted with Mr. Myers on important issues to address 
climate research and climate impacts, including coastal flooding and 
severe weather. His expertise extends far beyond numerical weather 
prediction. He is well respected for his intelligence, principles and 
foresight on important issue related to weather forecasting and 
environmental observations.
    I have great confidence that Mr. Myers is prepared for the 
challenges and responsibilities he will face in his future role leading 
NOAA.
    I fully support his nomination and I urge his confirmation.
            Sincerely,
                           Elizabeth C. Weatherhead, Ph.D.,
                                                  Senior Scientist,
                                     University of Colorado at Boulder.
                                 ______
                                 
                          American Sportfishing Association
                                  Alexandria, VA, November 17, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senator Thune, Senator Nelson and Committee Members:

    On behalf of the American Sportfishing Association, I would like to 
express our support for the nomination of Mr. Barry Myers to be the 
Under Secretary of Commerce for Oceans and Atmosphere, more commonly 
referred to as the Administrator of the National Oceanic and 
Atmospheric Administration (NOAA).
    ASA represents over 800 recreational fishing businesses from tackle 
and apparel manufacturers to angling and conservation groups. NOAA is 
an agency with which we have substantial involvement and interest. 
Among the activities the agency provides are fisheries data and 
science, nautical charts and accurate weather and ocean forecasts. A 
well-managed and responsive NOAA is important to our industry, 
conservation, and the angling community. Approximately 11 million 
Americans are saltwater anglers, many of who fish in the EEZ or for 
stocks for which NOAA has lead management authority. U.S. recreational 
fishing in salt water is responsible for creating over $63 billion in 
annual economic activity, and approximately 439 thousand American jobs.
    Those 11 million American anglers and countless communities depend 
on NOAA to conduct sound science, accurately count and forecast 
fisheries populations and trends, and provide service. It is important 
to have timely environmental information that is responsive to 
constituent needs. It is important to have a NOAA that designs, builds 
and operates environmental observing systems within cost and schedule--
a requirement that has proven elusive far too often in the past. Our 
industry needs a NOAA that is transparent, and welcomes citizen/
customer input and feedback. Finally, in an era of tight budgetary 
constraints, it is important to have a NOAA that is run efficiently, 
innovates and focuses on improving products and output.
    As an individual with significant entrepreneurial and management 
experience, Barry Myers has the requisite knowledge, skills and 
abilities to lead and direct an agency with an annual budget of almost 
$6 billion and which employs approximately 12,000 people and supports 
countless contractors and grantees across the Nation. Mr. Myers is a 
manager who has the talent to take five NOAA line offices and get them 
to operate as one unified agency. He has the private sector track 
record that proves he understands technology modernization, lowering 
the cost of doing business, and making products and services responsive 
to the marketplace. He has significant experience in transitioning 
research into operations and service, and stewardship. Frankly, this is 
an area in which NOAA could improve under his leadership. For example, 
NOAA fisheries science and research is too often divorced from the 
needs of Fisheries Service Regional Directors and Fishery Management 
Councils. Data needed to manage recreational1y important fisheries is 
often accorded low priority and unavailable. As an example of the need 
to bring innovation into the agency; the agency's current system for 
estimating angler harvest relies on residential telephone surveys and 
is moving to ``snail mail'' instead of taking advantage of the 
revolution in mobile technology, long after the Nation has moved on. 
Mr. Myers experience shows that he understands how to modernize science 
and services through using smart phones and electronic data. NOAA's 
atmospheric programs fully employ and integrate measurements and data 
from many non-NOAA sources several times a day in the running of 
supercomputer models and issuing forecasts. Yet, with NOAA fisheries 
science, the agency continues to resist using data from fishermen, 
cooperative observers and universities. It insists on using its own 
data, but then states that independent data from NOAA Fisheries Vessels 
arc not available, because ship time is unfunded. Again, Mr. Myers' 
experience shows that he understands that data quality standards can be 
created that allow the use of measurements from many non-Federal 
sources.
    Some groups have told the Committee that Mr. Myers nomination is 
unacceptable because he lacks a doctorate in science. Like many leaders 
in American industry, he instead holds a business degree, a Juris 
Doctor degree, and has substantial real world experience in managing a 
P&L statement and in making changes in products and services to compete 
effectively in the marketplace. In fact, Mr. Myers led and grew an 
environmental technology company that employs many employees who have 
the same academic degrees as NOAA scientists. He has substantial 
experience working with NOAA as a customer and partner, and has been 
recognized by the American Meteorological Society. The issue shouldn't 
be whether Mr. Myers has the specialized knowledge to design and 
engineer a microwave sounder for NOAA's next generation of polar-
orbiting satellites, or is he trained in calculating maximum 
sustainable yield (Or summer flounder. The qualification issue should 
be does he understand as a leader the value of such systems and data 
and what difference they make in NOAA products, whether to the accuracy 
of a weather forecast or in determining sustainable fishing levels.
    We believe that Barry Myers is well qualified to lead NOAA. He is 
the type of leader who will seek to modernize programs and question 
continuing to do business the old-fashioned way, just because that is 
how it has always been done. He deserves the Committee's support.
    With warm regards, I am
            Sincerely,
                                            Scott B. Gudes,
                                Vice President, Government Affairs,
                                     American Sportfishing Association.
                                 ______
                                 
                   Carmel Research Center/Plasma Laboratory
                                Santa Monica, CA, November 17, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson, and Members of the Committee,

    It is my great pleasure to endorse the nomination of Barry Lee 
Myers for Under Secretary of Commerce for Oceans and Atmosphere and as 
the Administrator of the National Oceanic Atmospheric Administration. 
He possesses the strategic vision, business management and executive 
leadership skills to help strengthen NOAA and improve its critical 
services to the Nation.
    We have long been aware of the supportive role of Mr. Myers working 
effectively through the American Meteorological Society, developing 
partnerships in the Weather Enterprise with other companies, academic 
and research institutions and an unwavering support for the National 
Weather Service. Numerous times he went to Congress to advocate for 
NOAA and NWS. His efforts were always focused on societal benefits 
based on science and technology to improve people's safety.
    The Carmel Research Center's Space Plasma Laboratory is made up of 
a unique combination of physicists, computer scientists, and 
technologists. These teams work together to push the forefront of 
science and technology and often times with NOAA. Among the many areas 
of research conducted at CRC are Space Weather and Solar Wind studies. 
At CRC we have teams of scientists working in several states in AK, CA, 
CO, KS, and MA studying the Heliosphere.
    CRC is a proud member of the American Commercial Space Weather 
Association (ACSWA), an association dedicated to improving America's 
competitive edge in space. ACSWA represents about 20 small businesses 
in this sector, and have frequent interactions with NOAA scientists and 
other personnel.
    I believe that Barry Myers is highly qualified to lead NOAA. I urge 
his confirmation.
            Sincerely,
                                Dr. Devrie S. Intriligator,
                                                          Director.
                                 ______
                                 
           Roffer's Ocean Fishing Forecasting Service, Inc.
                              West Melbourne, FL, November 17, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    I am endorsing the nomination of Barry Lee Myers for Under-
Secretary of Commerce for Oceans and Atmosphere and as the 
Administrator of the National Oceanic Atmospheric Administration. He 
possesses the strategic vision, business management and executive 
leadership skills to help strengthen NOAA and improve its critical 
services to the Nation. I will be willing to assist him while in 
office.
    I have known Barry for many years and I believe that he will be an 
outstanding leader for NOAA. I support his confirmation.
            Sincerely,
                                 Mitchell A. Roffer, Ph.D.,
                                                         President.
                                 ______
                                 
                             Space Environment Technologies
                           Pacific Palisades, CA, November 17, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    It is my great pleasure to endorse the nomination of Barry Lee 
Myers for Under-Secretary of Commerce for Oceans and Atmosphere and as 
the Administrator of the National Oceanic Atmospheric Administration. 
He possesses the strategic vision, business management and executive 
leadership skills to help strengthen NOAA and improve its critical 
services to the Nation.
    Our company, Space Environment Technologies, and our association, 
the American Commercial Space Weather Association, have had the 
pleasure of working with Mr. Myers during the past decade in areas 
where tropospheric weather and space weather overlap. We believe Mr. 
Myers will a strong advocate for the NOAA community, including oceans 
and space weather, in addition to tropospheric weather based on his 
experience in building a premier weather company in the U.S.
    Space Environment Technologies (SET), as NOAA's first Weather Ready 
Nation (WRN) Ambassador for space weather, is the foremost global 
provider of commercial space weather data products and services. The 
USAF, NOAA, NASA, NSF, research universities. and commercial aerospace 
organizations are SET's customers. For example, SET has led the 
development effort on a variety of tasks including:

  <bullet> the NOAA GOES-R EXIS and XRS instrument algorithms;

  <bullet> the USAF AFRL SBIR that developed a U.S. Dst real-time and 
        forecast index for use by USAF Space Command operational 
        systems;

  <bullet> the SET-generated solar irradiance indices' forecasts out to 
        72 hours, which SET provides operationally to the USAF in 
        support of daily updates to the NORAD satellite catalog;

  <bullet> the NASA NAIRAS global radiation model operational inputs 
        development;

  <bullet> the NASA SBIR program called ARMAS making real-time aircraft 
        radiation dose rate measurements; and

  <bullet> the NASA RADIAN project assimilating ARMAS data into NAIRAS 
        to create the ``weather'' of aviation radiation along a flight 
        path for use by operational air traffic.

    Barry Myers will be an outstanding leader for NOAA and we urge his 
confirmation.
            Sincerely,
                                           W. Kent Tobiska,
                                                         President,
                                        Space Environment Technologies.
                                 ______
                                 
                                          The Weather Group
                                     Atlanta, GA, November 17, 2017

Hon. John Thune, Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson,

    It is my great pleasure to endorse the nomination of Barry Lee 
Myers for Under-Secretary of Commerce for Oceans and Atmosphere and as 
the Administrator of the National Oceanic Atmospheric Administration 
(NOAA).
    At The Weather Channel, we partner closely with NOAA, the National 
Weather Service, FEMA, Depa1tment of Defense, and other federal, state, 
and local agencies. Each month, 45 percent of American households watch 
The Weather Channel for vital information to protect their families in 
times of severe weather. For seven years in a row, Harris Poll has 
ranked The Weather Channel as the most trusted news network in America. 
None of this would be possible without our close partnership with NOAA. 
Each day, our meteorologists rely on the satellite data, robust 
computer models, surge flood forecasts, local alerts, and local 
insights of NOAA and the National Weather Service. We often bring 
members of these agencies on our air and share scientific insights as 
weather patterns develop.
    We have to innovate constantly to compete in the changing media 
landscape. Our partnership with NOAA is vital and I welcome fresh 
thinking in that relationship. Over the past few years, I have come to 
know Barry Myers as a tough but fair competitor. I respect his long-
standing dedication to the weather enterprise. He will bring strong 
executive leadership and a business-savvy point of view to NOAA. This 
injection of new ideas will strengthen NOAA as it provides vital 
information and services to America.
    Barry Myers will be an outstanding leader for NOAA. I urge his 
confirmation.
            Sincerely,
                                                Dave Shull,
                                           Chief Executive Officer,
                                                     The Weather Group.
                                 ______
                                 
                              American Tunaboat Association
                                   San Diego, CA, November 20, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    On behalf of the American Tunaboat Association (ATA), this is to 
endorse the nomination of Mr. Barry Myers for Under-Secretary of 
Commerce for Oceans and Atmosphere and as the Administrator of the 
National Oceanic and Atmospheric Administration (NOAA).
    The ATA represents the owners of America's premier purse seine tuna 
fishing fleet, and the largest U.S. distant water fishery anywhere on 
the globe. Although somewhat variable, the U.S. purse seine fleet 
catches tuna with a landed value of approximately half a billion 
dollars a year.
    Many of our current members are descendants of the pioneers who 
developed purse seine fishing. Supply from their vessels and the 
vessels of their fathers before them fueled our country's tuna canning 
industry, which has brought U.S. consumers affordable, high quality 
protein for almost 80 years now.
    The ATA represents all the large U.S. flag purse seine vessels 
fishing in the Pacific Ocean, where ATA members' vessels fish pursuant 
to three international Conventions. In the eastern Pacific, there is 
the Convention establishing the IATTC. In the west, where the bulk of 
the U.S. fleet has operated in recent years, there are both the Treaty 
on Fisheries between the United States and certain Pacific Island 
States (popularly known as the South Pacific Tuna Treaty), as well as 
the Convention establishing the Western and Central Pacific Fisheries 
Commission (WCPFC).
    Many U.S. flag purse seine tuna lands their catch at Pago Pago, in 
the Territory of American Samoa, where the tuna industry accounts for 
approximately 80 percent of the private sector economy, and where the 
tuna processing sector is the largest private employer in the 
Territory.
    The U.S. purse seine fleet operates in a very competitive 
international environment, and, we believe that our fleet endures an 
unnecessarily heavy regulatory burden, made worse by rules which are 
not always science based or implemented in a manner that establishes a 
level playing field. This situation is exacerbated by an over-zealous 
enforcement of the U.S. regulations by NOAA legal authorities.
    ATA believes that Mr. Myers has the background and leadership 
ability to effectively fulfill NOAA's dual responsibilities in this 
arena: ensuring sustainable fisheries, while at the same lime 
protecting the legitimate interests of the U.S. fishermen, Simply put, 
we are certain that Mr. Myers will do what he can to maximize U.S. 
fishing opportunities while ensuring the sustainability of our 
fisheries.
    Also, because the U.S. purse seine fishery is largely managed 
internationally, as noted earlier, we are convinced that Mr. Myers will 
ensure that U.S. negotiators will help our fleet in these international 
negotiations.
    Thank you for considering our views. For the reasons elaborated in 
this letter, we urge you to support Mr. Myers' confirmation.
            Sincerely,
                                             Brian Hallman,
                                                Executive Director.
                                 ______
                                 
                         Blue Water Fishermen's Association
                                       Boston, MA, 20 November 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman Thune, Ranking Member Nelson and Members of the 
            Committee,

    On behalf of the Blue Water Fishermen's Association (BWFA), this is 
to endorse the nomination of Mr. Barry Myers for Under-Secretary of 
Commerce for Oceans and Atmosphere and as the Administrator of the 
National Oceanic and Atmospheric Administration.
    BWFA's membership is comprised of U.S. Atlantic pelagic longline 
fishermen, seafood dealers and other associated shoreside enterprises 
dependent on the harvest of Atlantic highly migratory species of fish 
including swordfish and tunas. Our fishermen operate broadly throughout 
the north Atlantic, Caribbean and Gulf of Mexico, in U.S. waters and on 
the high seas. Our shoreside members are primarily based in the New 
England, Mid-Atlantic, South Atlantic and Gulf of Mexico regions.
    These small, mostly family-owned businesses operate in an intensely 
competitive environment dominated by imports that are typically 
produced at an unfair competitive advantage over U.S. producers that 
must bear the substantial costs of multiple layers of domestic and 
international regulations.
    We believe Mr. Myers's strategic vision, business management 
experience and executive leadership skills will serve him well to both 
improve and balance NOAA's dual responsibilities to ensure the 
sustainability of U.S. fisheries while providing U.S. small fishing 
businesses with a fair and reasonable opportunity to compete.
    Further, because our fishery is managed internationally by the 
International Commission for the Conservation of Atlantic Tunas 
(ICCAT), we believe Mr. Myers recognizes the critical need to ensure 
that our U.S. negotiators possess the requisite expertise and 
commitment to putting first the interests of the U.S. and its 
fisheries. NOAA's fishery conservation and management program is the 
most comprehensive and effective in the world, and while we are proud 
to be a part of that success, U.S. fishermen must be rewarded, not 
punished, for performing at the apex of global sustainability.
    Thank you for considering our views. We are convinced Mr. Myers 
will prove to be a highly effective leader for NOAA and its fishery 
management regime. We urge you to support his confirmation.
            Sincerely,
                                               Jack Devnew,
                                                         President.
                                 ______
                                 
                                Northeast Seafood Coalition
                                  Gloucester, MA, November 20, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    On behalf of the Northeast Seafood Coalition (NSC), this letter is 
to endorse the nomination of Mr. Barry Myers for Under-Secretary of 
Commerce for Oceans and Atmosphere and as the Administrator of the 
National Oceanic and Atmospheric Administration.
    NSC is the leading voice for the Federal northeast multispecies 
(groundfish) fishery. NSC members are small family-owned businesses 
that operate along the northeast coast. These businesses represent the 
core of coastal economies throughout the region.
    As a multispecies fishery, our fishermen operate under what is 
among the most intense and complex regulatory regimes in the U.S. This 
regime must account for the dynamics of 20 distinct but interrelated 
fish stocks in three distinct and highly dynamic management areas that 
encompass the Gulf of Maine, Georges Bank and Southern New England/Mid-
Atlantic ecosystems.
    In our region, NOAA science has struggled to accurately measure the 
abundance of fish stocks while fisheries management has been guided by 
management that has served the ``weakest link'' in the complex. These 
realities have prevented the overfishing of weak stocks while leaving 
many healthy stocks in the water underutilized.
    Our fishermen have also struggled--just to survive. Many have not.
    We believe Mr. Myers will bring a fresh and much needed perspective 
and approach to strengthening the science underlying the management of 
our fishery, along with a commitment to achieving the sustainability of 
not only these fish stocks, but also the fishing businesses that rely 
upon a well-managed fishery. His leadership of NOAA will serve our 
Nation and its fisheries well in this respect.
    Thank you for considering our views. We urge you to support his 
confirmation.
            Sincerely,
                                              Jackie Odell,
                                                Executive Director,
                                           Northeast Seafood Coalition.
                                 ______
                                 
                             Center for Sportfishing Policy
                                 Baton Rouge, LA, November 21, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senator Thune, Senator Nelson and Committee Members:

    On behalf of the Center for Sportfishing Policy (Center) and 
America's 11 million marine recreational anglers, I write to express 
our support for the nomination of Barry Myers to be the Administrator 
of the National Oceanic and Atmospheric Administration (Under Secretary 
of Commerce for Oceans and Atmosphere).
    The Center for Sportfishing Policy (Center) is a coalition of the 
leading individual, institutional and corporate advocates for marine 
recreational fishing. For years, partners of the Center have worked 
together to build non-profit and industry partnerships that responsibly 
advocate for sound conservation and maximizing opportunities for 
saltwater anglers at the Federal level. To that end, we have a strong 
interest in the leadership and direction of NOAA. As an office of NOAA, 
the National Marine Fisheries Service is responsible for the 
stewardship of our Nation's natural marine resources. A well-managed 
and responsive NOAA is important to conservation, to our industry, and 
to America's fishing families. Further, it has an impact on the Nation 
as marine recreational fishing generates 440,000 jobs and contributes 
more than $63 billion to the U.S. economy each year.
    As you know, recreational fishing stakeholders have long advocated 
for an updated Federal fisheries management system that uses modern 
data collection methods to better manage our public marine resources 
and the public's access to those resources. It is imperative that NOAA 
set regulations based on sound science using accurate and timely 
environmental information to best serve its constituents and our 
natural resources. An essential element to successful operations at 
NOAA is a welcoming atmosphere for stakeholder input through which 
anglers can build trust in the Federal fisheries management system--an 
element that has been lacking since the creation of the agency.
    It is important to our industry and to anglers that the next NOAA 
Administrator has the skills and willingness to modernize the 
technology used in fisheries data collection, and Mr. Myers' extensive 
business background proves he is prepared for such a job. Mr. Myers has 
the potential to greatly improve the operations at NOAA through his 
expertise in technology modernization and designing products and 
services responsive to the marketplace.
    He would bring a refreshing perspective to the agency and the 
National Marine Fisheries Service--an office in prior administrations 
which resisted using modern management techniques and outside data 
sources to the detriment of America's 11 million saltwater anglers. Mr. 
Myers' real life experiences demonstrate he has the capability of 
bringing NOAA and NOAA Fisheries science into the 21st century, and he 
is deserving of the Committee's support.
    We appreciate your consideration of Mr. Barry Myers to be the next 
Administrator of NOAA.
            Sincerely,
                                          Jefferson Angers,
                                                         President.
                                 ______
                                 
                   University of California, San Diego UCSD
                                    La Jolla, CA, November 21, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson,

    Thank you for your consideration and confirmation of Scripps 
Institution of Oceanography alum, Rear Admiral Timothy Gallaudet, USN 
(Ret). I have closely followed Tim's career and had the honor of 
working with him when he was Oceanographer of the Navy. I very much 
appreciate your Committee's careful consideration of his nomination and 
support for his confirmation. I write to urge the same consideration 
for the confirmation of Barry Lee Myers as Under Secretary of Commerce 
for Oceans and Atmosphere and Administrator of the National Oceanic and 
Atmospheric Administration (NOAA).
    Scripps scientists are major partners in executing NOAA's ocean 
observing programs essential for accurate forecasting of hurricanes and 
typhoons, phenomena such as El Nino and La Nina, drought, and monsoons. 
Our scientists provide a range of science, services and observations to 
various NOAA line offices. Among other things, we provide observations 
critical for satellite data calibration and validation to NESDIS, train 
fisheries stock assessment professionals for NMFS, and host the 
Southwest region geodesy program for NOS. We also have the honor of 
hosting the Southwest Fisheries Science Center on our campus.
    I recently had the pleasure of speaking with Mr. Myers. He shared 
his vision for NOAA, stressed the importance he places on science, and 
conveyed his interest in NOAA's extramural collaborators. With his 
background, he brings subject matter expertise, leadership, and 
demonstrated management experience. Our nation faces growing challenges 
in understanding and mitigating risk from extreme events. The recent 
hurricanes, rapid shift from drought to flooding in the West, and 
stressed marine ecosystems and their living marine resources all call 
attention to the importance of NOAA. I strongly encourage your 
Committee's continued focus on the resources NOAA needs to continue to 
execute its missions, including excellent leadership and management.
    I very much appreciate your attention to this request.
            Sincerely,
                                           Margaret Leinen,
                                                          Director,
                                   Scripps Institution of Oceanography.

Cc: Senator Diane Feinstein
Senator Kamala Harris
                                 ______
                                 
                       Woods Hole Oceanographic Institution
                                  Woods Hole, MA, November 22, 2017

Hon. John Thune, Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman Thune, Ranking Member Nelson and Members of the 
            Committee:

    I support the appointment of Mr. Barry Myers to the position of 
Administrator of the National Oceanic and Atmospheric Administration 
(NOAA). Mr. Myers' decades of experience at the nexus of science and 
technology, and the public and private sectors, has provided him with 
experience that will help him guide the broad science enterprise and 
management mandates under NOAA's jurisdiction.
    My decades working in the ocean sciences, including at the nexus of 
ocean and atmospheric science, has convinced me of the need to 
integrate across the Earth sciences. NOAA is uniquely positioned as an 
agency that has the science and management mandates to expand its 
leadership in this area. However, to be successful it will need to draw 
more heavily on the expertise of its private and academic sector 
partners. This is where I believe Mr. Myers experience will be of 
benefit, encouraging new approaches and elevating awareness of the 
importance of NOAA and its mission to the economic and national 
security interests of the Nation.
    Mr. Myers' experience in the weather sector, complemented by that 
of Deputy Administrator Rear Admiral Timothy Gallaudet USN (Ret.) in 
the ocean sciences, offers a knowledgeable and balanced leadership team 
that will serve the interests of NOAA and the Nation well. I encourage 
the Committee's approval of Mr. Myers nomination.
            Sincerely,
                                            Mark R. Abbott,
                                            President and Director.
                                 ______
                                 
                                   TruWeather Solutions LLC
                                      Reston, VA, November 22, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    It is my great pleasure to endorse the nomination of Barry Lee 
Myers for Under-Secretary of Commerce for Oceans and Atmosphere and as 
the Administrator of the National Oceanic Atmospheric Administration. 
Barry possesses the strategic vision. business management and executive 
leadership skills to help strengthen NOAA and improve its critical 
services to the Nation.
    The Nation's weather industry is at a crossroads, where the 
advancements in Science and Technology (S&T), especially within the 
National Weather Service (NWS) and NESDIS, are outpacing NOAA's ability 
to transition them into operations in a timely manner. This is not a 
criticism of NOAA or the NWS, but rather a reflection of a slow 
government program and procurement system that has become a chokepoint 
in unleashing S&T trapped in our Nation's labs and academia. The 
chokepoints do impact the Nation's economy and competitiveness around 
the world.
    The work NOAA does is important, and NOAA must receive robust 
funding to focus on science Research and Development (R&D) that the 
private sector cannot or will not do; and to produce the best warnings 
and advisories possible, in line with the government responsibility to 
protect life and property. That said, NOAA must evolve and implement 
policies that are private sector friendly to encourage more private 
investment in commercializing R&D. NOAA must also find ways to 
incentivize the private sector in ways that can accelerate improvements 
in weather observation and forecast systems, backed by private 
investment, to improve our Nation's weather S&T to better serve the 
Nation's first responders, homeland security forces and weather 
sensitive businesses.
    There is no easy path to implementing the policies and changes 
required to ensure the Nation's future weather service needs are met. 
We are entering an era where hyper weather precision and accuracy will 
become paramount as weather sensitive Unmanned Autonomous Systems, such 
as driverless cars, trucks, buses and drones, become more prominent on 
our roads and in our skies. I am confident that Barry Myers has the 
perfect mix of skills and experience to guide NOAA during this very 
important period of transformation where public and private entities 
must find ways to work together and accommodate the interests of all 
parties.
    My experience and expertise include over 28 years of government 
service, including 24-years in the Air Force and four years as a NWS 
Senior Executive leading the Science and Technology Directorate. I 
built and led several large weather organizations in the Air Force and 
oversaw an annual $130M budget in the NWS where I was exposed to 
important S&T advancements in the Nation's labs and Universities that 
could not find its way into operations. I founded TruWeather Solutions, 
a Service Disabled Veteran Owned Small Business with offices in 
Virginia and New York in August 2015. Our mission is to unleash pent-up 
S&T and transition it directly into commercial operations to improve 
social decisions.
    I being a very balanced perspective regarding weather industry 
challenges as a former senior weather leader in the Department of 
Defense and in NOAA, and now in building a business in the private 
sector. It is my humble opinion that during these transformational 
times, Barry Myers will be an outstanding leader for NOAA. I urge his 
confirmation.
            Sincerely,
                       Col (Ret.) Donald H. Berchoff, USAF,
                                           Chief Executive Officer,
                                              TruWeather Solutions LLC.
                                 ______
                                 
                                   Southern Shrimp Alliance
                              Tarpon Springs, FL, November 22, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    On behalf of the Southern Shrimp Alliance (SSA), this is to endorse 
the nomination of Mr. Barry Myers for Under-Secretary of Commerce for 
Oceans and Atmosphere and as the Administrator of the National Oceanic 
Atmospheric Administration.
    SSA serves as the national voice for the shrimp fishermen and 
associated shoreside businesses in all eight shrimp producing states 
throughout the southeast and Gulf of Mexico regions.
    We believe Mr. Myers's strategic vision, business management 
experience and executive leadership skills will serve to strengthen 
NOAA including its highly effective fishery management regime.
    SSA has enjoyed a markedly constructive partnership with NOAA for 
many years, working to ensure the proper conservation and management of 
our fishery. Today our shrimp stocks are healthy--neither overfished 
nor subject to overfishing. Further, our bycatch of protected species 
has been substantially reduced and is precisely managed to be in full 
compliance with all applicable requirements.
    Under Mr. Myers' leadership, we believe this highly successful 
partnership will continue to ensure that the U.S. shrimp fishery is the 
most sustainable fishery in the world.
    That said, no other U.S. fishery has been more unfairly or severely 
impacted by illegal imports than the U.S. shrimp fishery. Illegal 
schemes to evade U.S. trade laws including antidumping duties have for 
many years denied our fishermen a fair price for their catch and have 
defrauded the U.S. Treasury and taxpayers out of huge sums of 
uncollected anti-dumping duties.
    Similarly fraudulent schemes to evade FDA rules to prevent the 
importation of shrimp contaminated with banned antibiotics continue to 
deny U.S. consumers the assurance that the imported shrimp they feed 
their families is safe.
    Once again, SSA enjoys a highly constructive partnership with NOAA 
and other Federal agencies to combat these sources of fraud in the 
shrimp import supply chain. We are confident that Mr. Myers is 
committed to continue these efforts including the need to implement the 
Seafood Import Monitoring Program (SIMP) with respect to shrimp imports 
in a timely manner. The statements by Secretary Ross and other 
Administration officials make it clear to us that restoring the best 
interests of the U.S. fishing industry in the realm of U.S. trade 
policy is a priority, and that this partnership will grow even stronger 
under Mr. Myers' leadership.
    Overall, we believe Mr. Myers' experience and skills will enable 
him to be a highly successful NOAA Administrator and that his 
leadership will serve to further strengthen NOAA fisheries policies and 
programs. We urge you to support his confirmation.
    Thank you for your consideration of our views.
            Sincerely,
                                             John Williams,
                                                Executive Director.
                                 ______
                                 
                             Bungalow Media + Entertainment
                                                  November 22, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    It is my great pleasure to endorse the nomination of Barry Lee 
Myers for Under-Secretary of Commerce for Oceans and Atmosphere and as 
the Administrator of the National Oceanic Atmospheric Administration. 
He possesses the strategic vision, business management, and executive 
leadership skills to help strengthen NOAA and improve its critical 
services to the Nation.
    I've known Barry for a number of years now, having served on the 
Board of Directors of Accuweather. I can tell you without reservation 
that Barry possesses the skills and even more importantly the integrity 
necessary to serve our great country. Barry also works tirelessly at 
any endeavor. Additionally, Barry is very unusual in that he maintains 
all of the professional skills combined with the common sense that is 
vital for a position that is evolving so quickly.
    I have lived in New York City my entire life and have been an 
entertainment executive at a wide array of companies including Viacom, 
New Line Cinema, AOL, as well as a number of private equity backed 
production companies including my current company, Bungalow Media+ 
Entertainment. Over this time, I've been involved in many large, 
branded film franchises including Lord of the Rings, Austin Powers, and 
The Mask among others and have come to recognize how important 
communication skills are when dealing with large branded initiatives. 
Barry is very much equipped to excel at the communication necessary to 
make his appointment a success.
    Barry Myers will be an outstanding leader for NOAA. I support his 
confirmation wholeheartedly.
            Sincerely,
                                           Robert Friedman,
                                                               CEO,
                                        Bungalow Media + Entertainment.
                                 ______
                                 
                                  The CEO Perspective Group
                                    New York, NY, November 22, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    I endorse the nomination of Barry Lee Myers for Under-Secretary of 
Commerce for Oceans and Atmosphere and as Administrator of the National 
Oceanic Atmospheric Administration. Barry would bring a wealth of 
experience, expertise, judgment and concern for people to the position. 
Since becoming CEO, he's led AccuWeather to prominence-combining 
innovation, vision, pragmatism, energy and quest for information. He's 
shown he has the experience, skills, ability to build relationships to 
succeed.
    Everyone is cognizant of weather problems, but with a personal 
history of 5 tornadoes, 3 hurricanes and several blizzards be assured 
that I want someone leading NOAA who understands challenges, how to 
prepare and prevent problems. Barry is that person--he will seek out 
the information if he doesn't have it. He has a diverse staff, whom he 
seeks to develop--taking them to Economic Club and other events. Like 
other successful CEOs Barry has started preparing for the future, 
including obtaining commitments from potential staff.
    Lending weight to my comments, note that prior to starting the CEO 
Perspective Group (an elite advisory firm comprised of international 
CEOs, Gerry Ferraro and myself), I worked at two Federal agencies, was 
special advisor on testing to the State Department and was detailed for 
a year to President Ca1ter's Reorganization Project for Law 
Enforcement, Police and Investigative Agencies. Thus understand the 
rigors of government service and what is needed to transition and 
succeed. For 30 years, I've assessed and advised top executives, 
winning awards from the Wall Street Journal, CNN and others, including 
``legendary'' and ``Best for CEO Evaluation and Coaching.'' Per https:/
/www.ceoperspective.com I know leaders--and Barry is excellent.
    As a board director of the bipartisan Women's Campaign Fund for ten 
years and advisory board of Respectability.org, I understand better 
than most bipartisan challenges. Many colleagues and clients don't 
understand why Barry would want to leave a thriving business, but I do 
understand his desire to be of service.
    While I cannot speak to issues facing NOAA and Commerce, I do have 
unique insights and expertise into leadership of a Federal agency. I am 
confident that he will be an excellent leader and a credit to the 
Commerce Department and NOAA. I urge Barry be rapidly confirmed.
            Regards,
                                       Dee A. Soder, Ph.D.,
                                      Founder and Managing Partner.
                                 ______
                                 
                            Consortium for Ocean Leadership
                                  Washington, DC, November 22, 2017

Hon. John Thune,
Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Bill Nelson,
Ranking Minority Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman Thune, Ranking Member Nelson and Members of the 
            Committee:

    In response to President Trump's nomination of Mr. Barry Myers to 
be Under Secretary for Oceans and Atmosphere, Department of Commerce, I 
encourage your thoughtful consideration of who and what the Nation 
needs at the top of our leading ocean and atmosphere agency, and the 
impressive experience that the proposed leadership brings to the table. 
Representing the 90-plus academic, research, and industrial ocean 
science and technology members of the Consortium for Ocean Leadership 
(COL), I appreciate the president taking necessary steps to fill this 
critical leadership role, and trust that Congress will advance highly 
qualified and appropriate professionals such as Mr. Myers in a 
bipartisan, non-politicized manner after careful examination.
    When considering some of the needs of the position, one must only 
look to history to see that science management experience is a 
fundamental requirement. Mr. Myers' leadership of AccuWeather is a 
testament to his ability to develop and guide a scientific enterprise, 
and proof of his competency to inspire and lead scientists providing 
highest quality environmental products and services. It is also 
indicative of his ability to translate research, data, and information 
to operations, which relies on effective collaborations between 
industry, government, and academia. Public-private partnership building 
skills are and will be key to NOAA's success, and Mr. Myers has 
demonstrated great success in doing just that. Lastly, Mr. Myers' 
experience in delivering environmental information to the public in an 
understandable and actionable manner (as evidenced by more than two 
billion mobile phone AccuWeather app users), should only enhance the 
broad set of NOAA's products that utilize extensive observations, 
research, geophysical models, and predictions from the ocean floor to 
the atmospheric ceiling. The U.S. should be leading the world in the 
accuracy and efficacy of all oceanographic and meteorological decision-
making products, and I am confident that with Mr. Myers at the helm, 
the extraordinary NOAA team can lead our Nation to that precipice in 
the coming months. Any political appointee taking over an agency has a 
lot to learn, and Mr. Myers will undoubtedly surround himself with 
scientists whose deep knowledge of issues across NOAA's spectrum, just 
as he has done in the private weather enterprise. This will allow him 
to get up to speed and ensure science-based management underlies all 
decision making.
    Mr. Myers' extensive knowledge of the weather enterprise at NOAA 
will be well balanced by proven scientific leaders in every aspect of 
NOAA's mission, to include the Deputy Administrator--Rear Admiral 
(Rey.) Tim Gallaudet, with PhD in oceanography and proven operational 
proficiency in oceanography and meteorology. Having met recently with 
Mr. Myers to discuss ocean concerns, I am convinced that he and his 
leadership team will bring fresh perspectives to the agency, and will 
only enhance products and services that enable our Nation to understand 
and protect coastal and marine infrastructure, ecosystems and resources 
while growing our marine economy through sustainable and innovative 
practices. NOAA supports our Nation's healthy and resilient communities 
through its robust ocean science, management, and technology portfolio 
that includes education, fisheries management, and the research and 
tools (e.g., satellites, ships, buoys, autonomous vehicles, high 
performance computing and networks) needed to observe and forecast our 
changing ocean environment.
    Our nation's security, safety, economic prosperity, and human 
health demand a healthy and productive ocean and ocean science 
community. Mr. Myers certainly understand this, and I look forward to 
his successful, non-politicized leadership of NOAA as they support this 
demand to the fullest extent possible. COL looks forward to working 
with him to his end. Like others, the ocean science and technology 
community is interested in learning Mr. Myers priorities and goals for 
the agency, and we know you will confirm that those priorities are in 
the best interest of our Nation and our ocean. I applaud your efforts 
in this regard, and I stand ready to support you however I may during 
the confirmation process.
            Sincerely,
                                         Jonathan W. White,
                                          Rear Admiral, USN (Ret.),
                                                   President & CEO,
                                       Consortium for Ocean Leadership.

Cc:
Honorable Ted Cruz; Chairman, Subcommittee on Space, Science, and 
Competitiveness
Honorable Edward Markey; Ranking Minority Member; Subcommittee on 
Space, Science, and Competitiveness
Honorable Dan Sullivan; Chairman, Subcommittee on Oceans, Atmosphere, 
Fisheries, and Coast Guard
Honorable Gary Peters; Ranking Member, Subcommittee on Oceans, 
Atmosphere, Fisheries, and Coast Guard
                                 ______
                                 
                                                  November 24, 2017
Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    I am pleased to support the nomination of Barry Lee Myers for 
Under-Secretary of Commerce for Oceans and Atmosphere and as the 
Administrator of the National Oceanic Atmospheric Administration. While 
I do not know Mr. Myers well, I have been impressed with his interest 
and understanding of the key fisheries issues facing this country. I 
understand that fisheries issues are not the only issues that a NOAA 
Administrator will be required to deal with, but these issues are often 
the most difficult to understand for incoming Administrators.
    I am pleased and impressed that Mr. Myers has taken the time to 
meet with former Congressional staff and industry representatives to 
discuss fisheries issues that are important to this Nation. I am not 
aware of other previous Administrators taking the time to do this prior 
to their confirmation. To me, this signifies that Mr. Myers already 
understands the importance of the domestic seafood industry and also 
understands that he needs to be familiar with these issues even before 
he is confirmed.
    In addition, I think that Mr. Myers's business background will be a 
positive addition to the team at the Department of Commerce and will be 
helpful in understanding and addressing the needs of the domestic 
seafood industry.
    As a former staffer for the House of Representatives' Natural 
Resources Committee dealing with fisheries and ocean policy, I have 
worked with a number of Administrators of NOAA and I believe that Barry 
Myers can be an outstanding leader for NOAA. I urge the Committee to 
vote to favorably report his confirmation.
            Sincerely,
                                               Dave Whaley,
             Independent Consultant for Fisheries and Ocean Policy.
                                 ______
                                 
                     Pacific Seafood Processors Association
                                                  November 27, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee:

    The Pacific Seafood Processors Association (PSPA) endorses the 
nomination of Barry Myers for Under-Secretary of Commerce for Oceans 
and Atmosphere and as the Administrator of the National Oceanic 
Atmospheric Administration (NOAA). Our members find that Mr. Myers 
brings leadership experience, a vision for innovation, and a commitment 
to science that will advance our fisheries and seafood priorities.
    PSPA is a non-profit trade association representing nine seafood 
processing companies in Alaska and around the U.S. Alaska's sustainable 
commercial fisheries land approximately 60 percent of U.S. production, 
including pollock, salmon, crab, cod, halibut, and whiting. PSPA 
members facilitate market access for seafood products domestically and 
around the world. With operations including 3 at-sea processing vessels 
and 31 facilities in 18 Alaskan coastal communities, our members 
support local economies, bolster the rural tax base, and provide 
thousands of jobs in both urban and rural locations.
    Sustaining the productivity of U.S. commercial fisheries requires a 
consistent commitment to core fisheries science and management programs 
at NOAA. In meeting with Mr. Myers, our members discussed the value of 
NOAA's work in carrying out stock surveys and assessments, working with 
fisheries management councils to advance fisheries sustainability, 
supporting domestic and export-oriented market access, and providing 
life-saving meteorological data to fishermen and their communities. On 
all these points, Mr. Myers appreciated the value of NOAA's key 
contributions and noted the value of good working relationships between 
NOAA and our fisheries and the seafood industry as a whole.
    Mr. Myers understands the value of science, innovation, and 
technology in advancing both public welfare and the operational success 
of ocean-dependent businesses. His experience and perspective will be 
an asset to NOAA as it carries out its critical missions. We look 
forward to working with Mr. Myers in his leadership role at NOAA.
    Thank you for this opportunity to comment.
            Sincerely,
                                                Glenn Reed,
                                                         President,
                                Pacific Seafood Processors Association.
                                 ______
                                 
                             United Stations Radio Networks
                                                  November 27, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    It is my great pleasure to endorse the nomination of Barry Lee 
Myers for Under-Secretary of Commerce for Oceans and Atmosphere and as 
the Administrator of the National Oceanic Atmospheric Administration. 
He possesses the strategic vision, business management and executive 
leadership skills to help strengthen NOAA and improve its critical 
services to the Nation.
    I have had the honor of knowing and working with Barry and 
AccuWeather for over 15 years and have always found him to be very 
smart, engaging, honest, thoughtful and caring individual in all of my 
dealings with him.
    My role at USRN is to oversee a national radio network and I have 
done that now for over 20 years. USRN is a full service radio network 
that creates, produces and syndicates audio programming and services to 
over 6,000 radio. stations in the USA. We also sell advertising and 
sponsorships to Fortune 500 companies that need national media 
coverage. We are headquartered in New York City and have been 
successfully operating in this business for over 35 years.
    Barry Myers will be an outstanding leader for NOAA. I urge his 
confirmation.
            Sincerely,
                                          James M. Higgins,
                                                 President and COO,
                                        United Stations Radio Networks.
                                 ______
                                 
                                  Midland Radio Corporation
                                 Kansas City, MO, November 27, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson, and Members of the Committee,

    Please accept our endorsement of the nomination of Barry Lee Myers 
for Under-Secretary of Commerce for Oceans and Atmosphere and as the 
Administrator of the National Oceanic and Atmospheric Administration. 
He possesses the strategic vision, business management and executive 
leadership skills to lead NOAA and improve its critical services to the 
Nation.
    Mr. Myers has proven himself to be an insightful and decisive 
supporter of the commercial weather enterprise, of which we are an 
integral part. As America's leading manufacturer of NOAA All Hazards 
weather alert radios, Midland Radio Corporation is dedicated to 
supporting ``The Voice of the National Weather Service'', NOAA Weather 
Radio. We are certain Mr. Myers will provide the vision and leadership 
that will improve, expand, and re energize the NOAA Weather Radio 
Network, the vital first link in America's emergency warning system.
    Based upon his solid support of the commercial weather enterprise, 
we endorse Barry Myers as the new leader of NOAA.
            Sincerely,
                                              Dan Schwartz,
                                           Chief Operating Officer,
                                             Midland Radio Corporation.
                                              Bruce Thomas,
                                               Chief Meteorologist,
                                             Midland Radio Corporation.
                                               Bruce Jones,
                                                     Meteorologist,
                                             Midland Radio Corporation.
                                 ______
                                 
                 National Coalition for Fishing Communities
                                  Washington, DC, November 27, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee,

    We the undersigned fishing companies, organizations, and vessels 
are writing in support of Barry Myers' confirmation as the next NOAA 
Administrator and Under Secretary of Commerce for Oceans and 
Atmosphere.
    As CEO of AccuWeather, Mr. Myers has a proven record of success, 
working alongside scientists. He is a recipient of the prominent 
American Meteorological Society's Leadership award and is an AMS 
fellow. Mr. Myers served on the Environmental Information Services 
Working Group of NOAA's Science Advisory Board for 5 different heads of 
NOAA's National Weather Service, under presidents of both parties.
    NOAA employs some of the Nation's best scientists, but it has been 
plagued with ongoing mismanagement, as documented in the press, 
including:

  <bullet> Abuses of power and misuse of funds at NOAA's Office of Law 
        Enforcement that led to the appointment of a Special Master to 
        review the case, the return of collected fines, and the 
        demotion and reassignment of NOAA employees.

  <bullet> Issues associated with the NOAAS Bigelow, a NOAA research 
        vessel. Over the past few years the vessel has missed several 
        critical survey trips due to a range of issues including 
        incorrect paint and foreign engines so complicated that 
        engineers had to be flown in from Europe to repair them.

  <bullet> NOAA has been criticized for years over data accuracy and 
        credibility in regards to collection, management and use of 
        fisheries data that is used for management of fisheries, 
        commercial, recreational, cultural and scientific purposes.

  <bullet> The National Weather Service is reported to be on the 
        ``brink of failure'' due to budget and hiring issues left 
        unresolved for the past 5 years.

    Several experts in the field have publicly articulated the need for 
better management at the agency:

        ``No NOAA administrator has been willing to make the 
        substantial, but necessary, changes. Is it possible that an 
        outsider from the private sector might consider a fresh 
        approach?''
        --Cliff Mass, Atmospheric scientist, University of Washington

        ``I think Barry would bring very practical, pragmatic expertise 
        and management acumen to NOAA.''
        --David Titley, Former NOAA COO under President Obama; 
        Professor of Meteorology, Penn State University

    While science remains one of the most vital elements of NOAA, new 
leadership with strong proven managerial experience is needed to right 
the ship after years of mismanagement.
    For these reasons, I strongly support the nomination of Barry Myers 
as NOAA Administrator and Under Secretary of Commerce for Oceans and 
Atmosphere, and ask you to vote to confirm his nomination.
    Thank you for considering this request.
            Respectfully submitted,

Marc Agger                           Richard Canastra, Co-Owner
Owner, Agger Fish Corp               BASE New Bedford Auction
Board Member, Monkfish Defense Fund  New Bedford, MA
Brooklyn, NY
 
Warren Alexander, President          Daniel Cohen, President
Atlantic Shellfish, Inc.             Atlantic Capes Fisheries
Cape May, NJ                         Cape May, NJ
 
Bob Blais, Controller                Jim Cook, Vice President
Seatrade International               POP Hawaii
New Bedford, MA                      Honolulu, HI
 
Scott Bode, COO                      Don Cross, Owner
Pier Fish Co.                        Pamlico Packing Co., Inc.
New Bedford, MA                      Grantsboro, NC
 
Bonnie Brady, Executive Director     Jeffrey W. Davis, CEO
Long Island Commercial Fishing       Blue Harvest Fisheries
 Association                         New Bedford, MA
Montauk, NY                          Newport News, VA
 
Dewey Destin, Owner
Dewey Destin's Seafood Restaurants
Destin, FL
 
Greg DiDomenico, Executive Director
Garden State Seafood Association
Trenton, NJ
 
Wayne Dunbar
Pamlico County Fishermen's
 Association
Pamlico, NC
 
Roy Enoksen, President
Ronald Enoksen, Vice President
Eastern Fisheries, Inc.
Nordic Fisheries, Inc.
New Bedford, MA
 
Brent Fulcher, Owner
Fulcher Trawling
New Bern, NC
 
Chris Fulcher, President
Fulcher's Point Pride Seafood,
 Oriental, NC
Bay City Crab Company, Aurora, NC
Fulcher's Seafood, Oriental, NC
Diamond Shoal Seafood, Hatteras, NC
Crystal Seas Seafood, Bayboro, NC
Shellfish Express, Oriental, NC
 
Joe Gilbert, Owner
Empire Fisheries
Empire Scallop
Invictus Fisheries
Milford, CT
 
Mike Goto, Auction Manager
United Fishing Agency
Honolulu, HI
                                     Wayne Heikkila, Executive Director
Jim Gutowski, President              Western Fishboat Owners Association
Fisheries Survival Fund              American Fishermen's Research
Members in CT, MA, ME, NC, NY, VA     Foundation
                                     Astoria, OR
                                     Members in AK, CA, HI, OR, WA
 
 
 
 
 
 
 
 
 
 
Ed Mullis, General Manager
B&C Seafood, Inc.
Newport News, VA
 
Robert Nagle, Vice President
John Nagle Co.
Boston, MA
 
Robert Newberry, Chairman
Delmarva Fisheries Association
Chestertown, MD
Members in MD, VA
 
Gerry O'Neill, Owner
Cape Seafood
Western Sea Fishing
Gloucester, MA
 
Dan Occipinti, General Counsel
Pacific Seafood
Clackamas, OR
 
Erik Orman, President
Tempest Fisheries
New Bedford, MA
 
Ernie Panacek, General Manager
Viking Village
Barnegat Light, NJ
 
Diane Pleschner-Steele, Executive
 Director
California Wetfish Producers
 Association
Monterey, CA
 
William Polumbo, President
Palombo Fishing Corp., Newport, RI
International Marine Industries,
 Newport, RI
Boston Wholesale Lobster Corp.,
 Lynn, MA
                                     Jeff Reichle, Chairman
Laura Foley Ramsden, Owner           Lunds Fisheries, Inc.
Foley Fish                           Cape May, NJ
Boston, MA                           Affiliated companies:
                                     Sun Coast Calamari, Inc., Oxnard,
                                      CA
                                     Port Hueneme Ice, LLC, Port
                                      Hueneme, CA
                                     Cape May Ice, Inc., Cape May, NJ
                                     Cape Clam, Inc., Cape May, NJ
                                     Cape Trawlers, Inc., Cape May, NJ
                                     Cumberland Freezers, LLC,
                                      Bridgeton, NJ
 
 
 
 
 
 
 
F/V Perseverance                     F/V Miss Madeline
F/V Sea Angles                       F/V Mt. Vernon
F/V Gaston Bell                      F/V Permits
F/V Annie Elizabeth                  F/V Scombrus One
F/V Nancy Elizabeth                  F/V Shakari
F/V Elise G                          F/V Squid Light
F/V Charisma                         F/V Squid Light Too
F/V Gannet                           F/V Western Explorer
F/V Golden Nuggett
 

                                 ______
                                 
                  National Marine Manufacturers Association
                                                  November 27, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senator Thune, Senator Nelson and Committee Members:

    On behalf of the National Marine Manufacturers Association (NMMA) 
and America's 11 million saltwater recreational anglers, I write to 
express our support for the nomination of Barry Myers to be the 
Administrator of the National Oceanic and Atmospheric Administration 
(Under Secretary of Commerce for Oceans and Atmosphere).
    By way of background, NMMA is the leading recreational marine 
industry trade association in North America, representing 1,400 boat, 
engine, and accessory manufacturers. NMMA members collectively produce 
more than 80 percent of the recreational marine products sold in the 
United States with direct expenditures on recreational boating of $37 
billion annually. The U.S. marine manufacturing industry is comprised 
of nearly 35,000 businesses that provide over 650,000 jobs. To that 
end, we have a strong interest in the leadership and direction of NOAA. 
As an office of NOAA, the National Marine Fisheries Service is 
responsible for the stewardship of our Nation's marine fishery 
resources. A well-managed and responsive NOAA is important to 
conservation, to our industry, and to America's fishing families. 
Further, it has an impact on the Nation as marine recreational fishing 
generates 440,000 jobs and contributes more than $63 billion to the 
U.S. economy each year.
    As you know, recreational fishing stakeholders have long advocated 
for an updated Federal fisheries management system that uses modem data 
collection methods to better manage our public marine resources and the 
public's access to those resources. It is imperative that NOAA set 
regulations based on sound science using accurate and timely scientific 
information to best serve its constituents and our natural resources. 
An essential element to successful operations at NOAA is a welcoming 
atmosphere for stakeholder input through which anglers can build trust 
in the Federal fisheries management system--an element that has been 
lacking since the creation of the agency.
    It is important to our industry that the next NOAA Administrator 
has the skills and willingness to modernize the technology used in 
fisheries data collection, and Mr. Myers' extensive business background 
proves he is prepared for such a job. Mr. Myers has the potential to 
greatly improve the operations at NOAA through his expertise in 
technology modernization and designing products and services responsive 
to the marketplace.
    He would bring a refreshing perspective to the agency and the 
National Marine Fisheries Service--an office in prior administrations 
which resisted using modem management techniques and outside data 
sources to the detriment of America's 11 million saltwater angels. Mr. 
Myers real life experience demonstrate he has the capability of 
bringing NOAA and NOAA Fisheries science into the 21st century, and he 
is deserving of the Committee's support.
    We appreciate you consideration of Mr. Barry Myers to be the next 
Administrator at NOAA.
            Sincerely,
                                           Thomas Dammrich,
                                                         President,
                             National Marine Manufacturers Association.
                                 ______
                                 
                                  ACT | The App Association
                                  Washington, DC, November 27, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson, and Members of the Committee,

    It is my great pleasure to endorse the nomination of Barry Lee 
Myers for Under-Secretary of Commerce for Oceans and Atmosphere (NOAA) 
and as the Administrator of the National Oceanic Atmospheric 
Administration. He possesses the strategic vision, business management, 
and executive leadership skills to help strengthen NOAA and improve its 
critical services to the Nation.
    ACT | The App Association represents approximately 5,000 small 
business app makers and connected device companies across the globe, 
and in every state and Congressional district. Our member companies 
leverage the connectivity of mobile devices from phones to cars, 
refrigerators, and smart factories, producing innovations that enhance 
our lives. The app economy is now valued at about $143 billion and 
represents the user interface for $8 trillion in international trade 
annually. But despite these big numbers, small enterprises drive this 
powerful engine--they need accurate weather modeling and information to 
make their products even better.
    During Mr. Myers' time at AccuWeather, our industry saw an 
exponential growth in the use of weather data by mobile applications to 
provide consumers vital information. Now part of a $143 billion 
industry, mobile apps rely on weather not only to let people know if 
it's raining outside, but also to predict how the weather impacts 
shipping, staffing, safety, and energy conservation. We see Mr. Myers' 
experience with both the public and private sector elements of NOAA's 
jurisdiction as vital for the future of data in our connected world.
    We look forward to working with Mr. Myers and urge his 
confirmation.
            Sincerely,
                                               Morgan Reed,
                                                         President,
                                             ACT | The App Association.
                                 ______
                                 
                               National Fisheries Institute
                                                  December 13, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune and Nelson:

    The National Fisheries Institute (``NFI'') supports the nomination 
of Mr. Barry Myers to be the Under Secretary of Commerce for Oceans and 
Atmosphere and Administrator of the National Oceanic Atmospheric 
Administration (``NOAA'').
    NFI has been the Nation's leading advocacy organization for the 
seafood industry for 71 years. NFI member companies represent every 
facet of the fishing world and every link in the seafood supply chain. 
From responsible aquaculture, to a marketplace supporting free trade, 
to ensuring consumers have the facts on the sustainability and health 
benefits of fish and shellfish, NFI and its members support and promote 
sound science-based public policy.
    If confirmed, Mr. Myers will lead a post essential to seafood 
harvesters, processors, distributors, retailers, and restaurants--and 
the consumers who depend on these companies for billions of seafood 
meals every year. NFI is heartened to see that Mr. Myers supports the 
science-based fishery management approach that has made the United 
States a global leader in sustainable seafood. His successful business 
background, too, suggests an understanding of the vital importance of 
considering all private sector views when engaged in the sensitive task 
of regulating complex industry sectors. NFI appreciates and supports 
his call for expanding the Nation's seafood production, including 
through responsible growth in aquaculture.
    Given the Administrator's central role in formulating policies that 
have an impact on commercial seafood businesses across the nation, it 
is essential to fill this position now. NFI urges the Senate to swiftly 
confirm Mr. Myers.
    Should you have any questions, you may contact me at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="375d54585959525b5b4e7759515e1958455019">[email&#160;protected]</a>
            Sincerely,
                                             John Connelly,
                                                         President.
                                 ______
                                 
                                            Mystic Aquarium
                                                  December 15, 2017

Hon. John Thune, Chairman,
Hon. Bill Nelson, Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Senators Thune, Nelson and Members of the Committee:

    Please consider my support for the nomination of Barry Lee Myers 
for Under-Secretary of Commerce for Oceans and Atmosphere and as the 
Administrator of the National Oceanic Atmospheric Administration.
    The important mission of NOAA includes the conservation of marine 
mammals and ocean habitats, which are central to our mission and we 
look forward to working Mr. Myers on these matters. We appreciate his 
strategic, executive leadership skills and believe this expertise and 
perspective will strengthen NOAA and serve as a productive basis for 
what we can do together with NOAA for good of our shared interests.
    From our headquarters in Mystic, Connecticut, we carry out a 
nationwide mission of inspiring people to care for and protect our 
ocean planet through conservation , education and research. We are 
long-serving partners with NOAA on marine mammal rescue, to which we 
bring a large and highly-experienced expert staff of scientists and 
veterinarians. Our educational work extends from the aquarium itself to 
field sites around New England and the country, where we partner with 
multiple schools and institutes on the scientific, technological, 
engineering, and mathematical topics comprised by ocean conservation.
    There is much work to do on these matters that will benefit from a 
swift confirmation of Mr. Myers.
            Sincerely,
                                      Stephen M. Coan, PhD,
                                                 President and CEO.

    Senator Sullivan. I am going to begin by recognizing 
Chairman Thune for accommodating his schedule to begin the 
questioning of Mr. Myers. Mr. Chairman.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Thank you, Mr. Chairman. I appreciate you and 
Senator Inhofe pinch hitting and chairing today, and Senator 
Schatz and the other members of the Committee.
    And, Mr. Myers, thank you for being here and for your 
willingness to serve in this important position.
    I just have one quick question. I will have a couple 
questions I will submit for the record.
    Earlier this Congress, the Weather Research and Forecasting 
Innovation Act, which Senator Schatz and I introduced in the 
Senate, was signed into law. And one of my top priorities in 
this law was a requirement to designate a warning coordination 
meteorologist within each weather forecast office for outreach 
and communication at the local level. In my conversations with 
communities and stakeholders in South Dakota, I repeatedly 
heard that this position provides one of the most valued 
services. For example, during the Sturgis bike rally, which is 
a big event annually in South Dakota where the population not 
only more than doubles, it increases by many multiples, having 
established relationships with local emergency managers is 
paramount to the safety of our citizens as the weather in the 
Black Hills can rapidly change.
    If confirmed, do you commit to the full implementation of 
the weather bill, including using warning coordination 
meteorologists to improve outreach and communications with 
local communities?
    Mr. Myers. Senator, thank you. Yes, I do.
    The Chairman. I would also like to have you, if you get the 
opportunity, to visit some rural weather forecast offices such 
as the one in Aberdeen, South Dakota just to see how difficult 
it is to provide severe weather forecasts in parts of the 
country that do not have reliable cell phone service. Would you 
be interested in coming out and visiting one of those offices?
    Mr. Myers. I would be very interested.
    The Chairman. Good. Hopefully we can work to make that 
happen.
    Mr. Chairman, I have a couple of other questions that I 
will submit for the record. But I appreciate, Mr. Myers, you 
being here, and we will look forward to moving your nomination 
along in the process.
    Mr. Myers. Thank you very much.
    Senator Sullivan. Thank you, Chairman Thune.
    I am going to begin with my questions.
    Mr. Myers, I know that you appreciate the importance of 
cooperation between the Executive Branch and Congress. These 
confirmation hearings give us an opportunity to underscore that 
point. If confirmed, will you pledge to work collaboratively 
with this Committee and its members and to provide thorough and 
timely responses to our requests for information and our 
requests for you to appear before this Committee?
    Mr. Myers. Yes, I will.
    Senator Sullivan. I also want to just address--Senator 
Nelson highlighted the issue of conflicts of interest. You, I 
think, did a very strong job in your opening statement about 
what you intend to do, if confirmed. But let me just ask you 
more directly. If confirmed, will you strictly abide by all 
applicable conflict of interest regulations, rules, laws, and 
the appearance of conflicts?
    Mr. Myers. Yes, I will.
    Senator Sullivan. Let me begin by an issue. I really 
enjoyed our meeting that we had a couple of weeks ago. As I 
mentioned in my opening statement, I think it is clear, as 
Senator Nelson mentioned, NOAA is a beloved agency. It is a 
very important agency to the entire country. Nowhere is this 
more important than in the great State of Alaska where NOAA's 
missions impact so many elements of my state. And NOAA's 
missions--they have entire offices that are directly focused on 
Alaska because we are so big and have so many important 
elements of the NOAA mission. Yet, much of NOAA staffing and 
infrastructure for Alaska-based missions are not located in 
Alaska. And you and I have talked about this at some length.
    For example, by law, the NOAA research ship Fairweather is 
home ported in Ketchikan, Alaska. That is in the law, but it 
actually resides in Oregon.
    I am very interested in the issue of ocean debris. We had a 
bill that has passed out of the Senate, and is hopefully going 
to be moved out of the House, the Save Our Seas bill that is 
focused on ocean debris where NOAA plays a huge role. And this 
bill would even expand that role. I met with the head of the 
NOAA ocean debris program who is based here on the East Coast 
this summer and met with the head of the Alaska director for 
the NOAA ocean debris program. I was surprised to realize that 
that person was not even based in Alaska.
    No other Senator would tolerate such a situation where an 
executive agency focuses exclusively on their State's weather 
and NOAA-related issues and are not even based in that state. 
To be the most effective and cost effective to the taxpayer, 
NOAA staff and assets who work solely on Alaska issues must be 
in Alaska. The previous administration did little to work with 
me on this. I would like your commitment to help to restore the 
agency's presence as appropriate, when they are working on 
Alaska issues, to be in Alaska.
    Will you commit that, if confirmed, you will undertake a 
comprehensive review of this staff and asset movements out of 
my state on Alaska issues to come back to Alaska and offer a 
detailed plan and timeline working with me and my office for 
moving these staff positions and assets back to Alaska?
    Mr. Myers. Senator Sullivan, thank you very much for that 
question.
    The discussion that you and I had was very informative, 
enlightening, and interesting to understand so many assets that 
serve Alaska are not in Alaska.
    Senator Sullivan. Exclusively serve Alaska.
    Mr. Myers. I do commit to looking at this and doing a 
complete review and certainly reporting back to you and the 
Committee on those issues.
    Senator Sullivan. Thank you.
    You mentioned in your opening statement the issue of 
seafood trade. I have appreciated Secretary Ross' emphasis on 
trying to do something about the seafood trade deficit. The 
agencies under NOAA's purview have a lot to do with it. Will 
you work with me and other seafood exporters to reduce barriers 
that put us at a competitive disadvantage with regard to other 
countries? I know it is a priority of the Secretary. I just 
want to get your commitment on that.
    Mr. Myers. Yes, you have my commitment.
    Senator Sullivan. One other area that again impacts Alaska, 
but it impacts the whole country is on the issue of 
hydrographic surveying. There are a lot of parts of my state 
that still rely on charts and data collected back in the 1800s 
when Russia was still in charge of Alaska. There is a potential 
to address the backlog of hydrographic surveying in Alaska and 
throughout the entire country through partnerships with the 
private sector, but there is needed leadership for this to 
happen.
    Will you work with this Committee to aggressively reduce 
the charting backlog and increase the use of public-private 
partnerships to achieve this goal in terms of upgrading our 
hydrographic surveying around the country?
    Mr. Myers. Yes, I will, Senator.
    Senator Sullivan. Great. Thank you.
    Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman.
    Mr. Myers, thank you for your willingness to serve.
    I have three questions. The first two should be quick.
    Can you assure me that as NOAA Administrator, you will 
support the agency's climate research portfolio and advocate 
for sufficient levels of funding to advance research relating 
to climate change?
    Mr. Myers. Yes.
    Senator Schatz. Can you assure me that as NOAA 
Administrator, you will comply with NOAA's scientific integrity 
policy and defend the rights of your scientists?
    Mr. Myers. Yes, I will. I am familiar with that policy, 
Senator.
    Senator Schatz. Thank you very much.
    I want to flesh out this question around conflicts of 
interest. I know you have been expecting this question.
    So my understanding--and tell me if I am getting any of the 
facts wrong--is that you and your wife will resign and divest--
makes sense--but that your brothers will continue to own more 
than 90 percent of AccuWeather, and a son-in-law will continue 
to work at the company as a high level executive, and a nephew 
will still be on the Board of Directors.
    Now, it is a family company and you cannot force your 
family to divest because you are going to go and do another 
thing. And as I read both the Code of Federal Regulations and 
the statute around this, what you are doing seems to be 
compliant with the law in the strictest possible terms, but the 
challenge here--right--is that your divestiture after 90 days 
allows you to then make decisions as NOAA Administrator that 
could benefit AccuWeather.
    And so the question is what is the scope of your recusal 
not just in legal terms, but how do you view this problem--
right--which is that you built this thing from scratch and now 
NOAA and AccuWeather have this sort of--I do not know--
coopetition sort of relationship where you depend on each 
other, you are sort of scuffling with each other sometimes, but 
you are absolutely enmeshed? Right? And then some of the people 
who are closest to you are also going to be on the other side 
of this wall. So I am just trying to figure out as a person how 
you are going to sort all this out in your new role?
    Mr. Myers. Senator Schatz, thank you very much for that 
question.
    I think that any business executive that has close ties to 
a company, has worked at a company for a long time, has led the 
company, whether they may be relatives or they may be very 
close longtime friends, has the same issue coming into 
government that I have. I have made it clear that I will 
divest, as you had described. I have made it clear to my 
brothers. In fact, jokingly I explained to them that we may see 
each other at Thanksgiving dinner and we can talk about 
football and family things, but we cannot talk about NOAA. And 
people who know me I think know that I am very principled in 
these regards, and I am very serious about it.
    I also know what the legal requirements are. I do not 
believe legally I could favor one company over another without 
violating a whole host of Federal statutes, regardless of 
whether that company was one to which I had relatives or not.
    Senator Schatz. Can you give me an example of--because part 
of this is you were in a role or you are currently in a role 
and then you may be in a new role. So the question becomes, you 
know, thinking about the Santorum legislation or any of the 
other instances in which AccuWeather and NOAA do not see eye to 
eye, can you think of an instance in which you were playing a 
role as CEO of AccuWeather and took a position which would not 
be consistent with your potential position as NOAA 
Administrator? In other words, where would you have to say, 
well, that was different and now I am the NOAA Administrator 
and I represent the public and the government, and therefore, I 
am going to have to be at odds with my former employer?
    Mr. Myers. I do not know if I can bring up a specific 
instance. I have worked with NOAA, as was described, for many 
years. I have served on their advisory boards. I have worked 
with the NOAA Administrator. I have worked with the heads of 
every manager of the National Weather Service since about 1988.
    Senator Schatz. What about the Santorum bill? Is that an 
example where your view may have to change because of the role 
that you may be stepping into?
    Mr. Myers. Well, let me explain, if I can, a little bit 
about the Santorum bill to put it in some context.
    Recognizing that it occurred half a generation ago and 
circumstances I think in the weather field were significantly 
different at the time, people say I was trying to privatize the 
National Weather Service. I never advocated for that, and I 
never have. My advocacy was always a level playing field.
    The words that are in the Santorum bill actually came from 
a 1991 National Weather Service policy that was published in 
the Federal Register. It was their words. It was not the 
Senator's words. In fact, I can read it to you, it said that 
it, ``will not compete with the private sector when a service 
is currently provided or can be provided by commercial 
enterprises unless otherwise directed by applicable law.'' That 
was the National Weather Service policy that in 2004 they 
withdrew.
    Senator Schatz. Right, but let us just be clear about what 
that would mean as a practical matter for NOAA. It would mean 
you cannot provide free stuff that a private company is 
currently charging for. That is what it means to be competing 
with the private sector. And what NOAA does is--obviously, 
AccuWeather is not going to get into the satellite business. 
Right? But the question is in terms of the dissemination of 
weather data. NOAA has the capability of distributing 
information for free where private sector enterprises may want 
to value-add or do different things to the interface to make it 
more user friendly. But it does not seem to me there should be 
any prohibition on the government providing the data that it 
collects for free.
    My time is up here. But this is my question. Right? You are 
a smart lawyer. You are an accomplished business person. You 
are not going to come into this hearing unprepared to answer 
this question, and you are not going to come into a 
confirmation process without having run the traps. But my 
question sort of remains that, dispositionally and maybe even 
ideologically, you have not made the transition all the way to 
the government and representing NOAA and representing the 
public first. And I think that is going to be a transition, but 
I would encourage you to think through not just whether you are 
compliant with the CFR and U.S. Code and what the ethics people 
tell you, but understanding this new role really is different 
than the old role and you may have to rethink some of your most 
fundamental assumptions.
    Thank you for the extra time.
    Senator Sullivan. Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman.
    Mr. Myers, the scientists in the Federal Government are 
increasingly paranoid that because the President has pulled out 
of the Paris Agreement and that NOAA is such a central provider 
of information on this subject, that they are very fearful that 
they are going to be punished.
    So I guess my question to you is, given the 13 Federal 
agencies that unveiled the fourth national climate assessment 
on November 3, and that that report comprehensively describes 
that humans are the main cause of rising global temperatures 
and creating the warmest period in the history of human 
civilization.
    So my question to you is, do you agree that humans are the 
main cause of climate change? Yes or no, sir.
    Mr. Myers. Thank you, Senator, for that question.
    I have read the reports and I have no reason to disagree 
with them.
    Senator Markey. So does that mean you agree with them?
    Mr. Myers. I agree with the reports. They are based on 
quality peer-reviewed research, which is something that I 
strongly support.
    Senator Markey. So you agree that humans are the main cause 
of climate change? Is that what you are saying?
    Mr. Myers. That is what I am saying.
    Senator Markey. OK, good.
    Will you commit to continuing to support the work of NOAA's 
scientists, which they have done for the national climate 
assessment?
    Mr. Myers. Yes, Senator, I do. And I was on the graduate 
faculty at Penn State for many years. I know what quality 
research looks like. I know what peer-reviewed research looks 
like. And scientists should be free to operate in that kind of 
an environment, and they need to subject their research, 
obviously, to peer review so that other scientists can weigh in 
on it. But once that process is completed, that information 
should be made available to all.
    Senator Markey. Will you commit to continuing all of the 
critical climate science that NOAA undertakes?
    Mr. Myers. Yes, I will certainly within the budget that is 
allocated by Congress.
    Senator Markey. Will you commit to not reassign NOAA 
scientists working on climate change?
    Mr. Myers. Senator, I am not sure if I can quite answer 
that question because I do not know what the circumstances of 
any given person may be from a personnel standpoint, an 
interest standpoint, or a needs standpoint. But I will not do 
it based upon their science conclusions.
    Senator Markey. Will you commit to not preventing NOAA 
scientists from speaking publicly about their work on climate 
change science or retaliating against those scientists who do?
    Mr. Myers. Again, as long as the work that they are talking 
about is the peer-reviewed research that they have done that is 
accepted as quality science, they should be free to talk about 
that.
    Senator Markey. So let us talk about the budget cuts then 
that you referred to. The President's proposed budget cut 
proposes big cuts to NOAA, including a $250 million cut from 
NOAA's coastal research programs, as well as eliminating grants 
that help communities plan and implement severe weather 
warnings. These cuts would make these communities even more 
vulnerable than they already are. Do you support these cuts?
    Mr. Myers. I understand the nature of the cuts. I 
understand why they were done. I think Secretary Ross has been 
clear about the fact that many of these are very good programs 
that suffered from these cuts but the line had to be drawn 
somewhere and those lines were drawn where they were drawn. And 
as a member of the administration, certainly I will 
appropriately carry out the budget that is allocated by 
Congress.
    Senator Markey. What would your plan be for maintaining 
NOAA's services for communities experiencing sea level rise in 
light of those massive proposed cuts?
    Mr. Myers. Senator, I am not sure that I can give you a 
firm answer at this time not knowing what resources may be at 
the disposal of NOAA to assist with those communities. Clearly 
sea level rise in a number of places is a concerning issue.
    Senator Markey. Well, obviously coastal communities are at 
great risk, and most of the people on this Committee represent 
coastal communities. For example, NOAA's Office of Coastal 
Management received requests for coastal resilience grants this 
year in excess of $135 million, which fund flood protection, 
habitat restoration to reduce storm impacts. So it is 
unacceptable that the Administration is proposing these deep 
cuts because it is clear that the public does need this funding 
in the years ahead. So you will be given the responsibility of 
basically making decisions that ultimately cannot meet the 
needs of these communities. You do understand that that will be 
an impossibility on your job?
    Mr. Myers. Senator, I understand that the job is going to 
be very challenging and that these are some of those 
challenging issues that will have to be dealt with.
    Senator Markey. ``Challenging'' is a euphemistic way of 
describing the overwhelming challenge that the planet is going 
to face but especially the coastal communities in America. 
Boston is the fourth most vulnerable city in the United States 
to climate change and the eighth most vulnerable in the world. 
So obviously, a dramatic cutback in these funds is going to 
have a dramatic impact on the future of our city.
    Thank you, Mr. Chairman.
    Senator Sullivan. Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you, Mr. Chairman.
    And good morning, Mr. Myers. Congratulations on your 
nomination.
    If confirmed, it will be your responsibility to serve the 
public interests, not just the private interests of a company's 
bottom line. Americans deserve access to the lifesaving 
forecasts and other weather information provided to the public 
by NOAA. As the CEO of AccuWeather, you advocated for keeping 
NOAA's taxpayer-funded data from the public. AccuWeather backed 
a bill in 2005 that would have banned Federal meteorologists 
from providing services that competed with private companies 
like yours.
    Do you still believe that NOAA should refrain from making 
weather and forecasting products available to the public, 
including those such as emergency first responders, farmers, 
and small businesses?
    Mr. Myers. Senator Hassan, thank you very much for that 
question and for your good wishes.
    I would like to state that I actually never advocated those 
things, and in fact, if anything, I have advocated the 
opposite. I have spoken many times in advocation of free and 
open data from NOAA, that it should be available to all, that 
there should always be a level playing field for all of U.S. 
citizens and U.S. companies.
    The concern from 1991 through I think 2004 was a different 
environment. In fact, the policy that the National Weather 
Service had in 1991 assisted, I believe, in helping create the 
greatest weather enterprise on earth here in the United States. 
The nature of that policy is gone, and everybody is operating 
quite well in a new environment. And I support and have talked 
about it many times that all--all--National Weather Service 
data should be made available. In fact, it is not actually 
available and----
    Senator Hassan. Because my time is limited, what I am going 
to suggest is that I will submit the background articles we 
have that indicate that you appeared by reports--and they may 
be inaccurate reports--to take a different position in 2005. 
And I will ask you to comment on that for the record because I 
would like to touch on this issue in a slightly different way.
    I was Governor of New Hampshire, and when we had severe 
weather events where potentially lifesaving decisions were made 
based on the free information provided by the National Weather 
Service out of Gray, Maine, I would rely on that information. 
During severe weather events, we would have numerous calls 
daily with the Weather Service to get up-to-the-date forecast 
information. I cannot stress the importance of having this 
information available on a minute-to-minute basis so that 
resources could be most efficiently allocated throughout New 
Hampshire. And I should add sometimes we would learn that we 
did not need as many resources, and we could deploy them to 
another state if a storm, for instance, shifted its path a 
little bit.
    So can you commit to me that, if confirmed, the National 
Weather Service will continue to have this relationship with 
Governors and emergency management officials and, if possible, 
expand resources and this free information to be made available 
to states when asked?
    Mr. Myers. Senator, yes, I will.
    Senator Hassan. Thank you.
    I also wanted to follow up on an issue that is very 
important to those of us who represent coastal states. We in 
New England recognize the importance of sustainable fisheries, 
but we have serious concerns about the costs that hardworking 
fishermen, who are already subsisting on the margins, are 
forced to bear right now for monitoring programs. If confirmed, 
how will you ensure sustainable fisheries and reduce the cost 
burden placed on our fishermen so that they can be able to 
afford to fish for generations to come?
    Mr. Myers. Thank you, Senator, for that question.
    Yes, I understand that in some cases it may cost $500 a day 
to have somebody on a boat doing those duties. But one of the 
things that I think certainly would be helpful is trying to 
understand the nature of technology and whether or not some of 
these things cannot be done in a much more modernized way.
    Senator Hassan. Thank you very much.
    I yield the remainder of my time. Thank you, Mr. Chair.
    Senator Sullivan. Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you.
    Mr. Myers, thank you and thank you for your willingness to 
serve. I appreciate you being here.
    The Western Regional Climate Center, a partnership with the 
Desert Research Institute in Reno, Nevada, is one of six 
regional climate centers in the United States that delivers 
high quality climate data services in conjunction with NOAA and 
national climate and weather partners. The WRCC serves as a 
focal point for coordination of applied climate activities in 
the west, including drought and climate monitoring and conduct 
applied research on the impacts of climate variability and 
climate extremes in the western United States.
    Do you know if NOAA and the staff of the WRCC are under any 
administration guidelines or edicts discouraging the mention of 
global climate change when discussing and conducting climate 
research? Are you aware of any administration guidelines 
prohibiting that?
    Mr. Myers. Senator, I am not, no.
    Senator Cortez Masto. Would you ever condone any such 
guidance?
    Mr. Myers. Guidance that said certain words could not be 
used in describing----
    Senator Cortez Masto. Correct, that global climate change 
could not be used when discussing and conducting climate 
research.
    Mr. Myers. No, I would not agree with that.
    Senator Cortez Masto. OK.
    As NOAA serves as co-chair of the Aquatic Nuisance Species 
Task Force, how will you enforce its focus on aquatic invasive 
species issues given that warming water temperatures will have 
severe impacts not only to Lake Tahoe's ecosystems and 
economies, but nationwide?
    Mr. Myers. Senator, I am not sure if I can provide a quick 
answer to that question. I would certainly be pleased to get 
back to you on that in some greater detail.
    Senator Cortez Masto. Thank you. I appreciate that. And so 
can I get your commitment to work closely with the various 
stakeholders in Nevada like those working hard to maintain Lake 
Tahoe in its pristine condition and to address needed 
scientific engagement on combating the effects of climate 
change or other concerns like ecosystem restoration and 
invasive species?
    Mr. Myers. Yes.
    Senator Cortez Masto. Thank you.
    As part of its evolve initiative, the National Weather 
Service plans to retrain and refocus its field workforce to 
provide impact-based decision support services to both core 
partners such as the media and local governmental entities and 
its general partners such as local hospitals and school 
districts and the general public. These efforts include 
webinars, briefings, providing spot forecasts, utilizing social 
media, preparedness, education, and development of specialized 
forecasts.
    Do you support the, quote, evolution of the National 
Weather Service in this direction?
    Mr. Myers. Senator, thank you for that question.
    Yes, I do. AccuWeather was actually one of the first 
signers of the Weather Ready Nation Initiative, and serving on 
the Environmental Information Services Working Group as a group 
advising the NOAA Science Advisory Board, I actually over the 
years have significantly supported the whole concept of doing 
this kind of IDSS initiative especially with local and State 
emergency management agencies.
    Senator Cortez Masto. Thank you.
    In testimony before the House Science Committee in June of 
2016, you urged the National Weather Service to focus on its 
core mission of sharing data, support for developing models, 
and severe weather warnings. You also claimed that the best 
public forecast came from the private sector.
    Should the National Weather Service curtail or terminate 
issuance of its public forecasts?
    Mr. Myers. I have not advocated that they do that. I think 
that they need to certainly examine all their programs, but 
they do a significant service. In fact, AccuWeather and other 
companies in the field deliver the National Weather Service 
public forecasts every day to millions of Americans.
    Senator Cortez Masto. So the National Weather Service 
should not curtail or terminate issuance of its public 
forecasts?
    Mr. Myers. I am not advocating that.
    Senator Cortez Masto. Great. And you would not remove these 
forecasts from the agency's website, weather.gov. Correct?
    Mr. Myers. Not at all.
    Senator Cortez Masto. Recently my colleagues in the House 
have requested information relating to the National Weather 
Service's operations and workforce analysis.
    Will you commit to a fully transparent process and 
completely fulfill information requests from Congress so that 
they can be assured that any and all proposed decisions 
stemming from the operations and workforce analysis are, 
indeed, supported by evidence?
    Mr. Myers. Senator, yes, I will. In fact, I was one of the 
people who was interviewed for that analysis.
    Senator Cortez Masto. Thank you.
    And then finally, I just want your comment on this. You are 
familiar with the Weather Profits Fund, LLC?
    Mr. Myers. Yes, I am.
    Senator Cortez Masto. Is that one that you are divesting 
all interest and ownership in or any involvement with?
    Mr. Myers. I do not have any interest or ownership in it.
    Senator Cortez Masto. Fantastic.
    So in an article describing this venture, your brother, 
Joel Myers, was quoted as explaining how weather-based hedge 
funds could profit from inside information. And it was quoted 
and it said, ``for example, an investment manager can benefit 
from knowing just 5 minutes ahead of time that the National 
Weather Service in Silver Spring, Maryland is about to 
reclassify a category 3 storm into a more powerful category 4 
storm,'' he said. That could cause a spike in the price of 
natural gas futures on which the manager could capitalize, Mr. 
Myers said. And there is concern that now you were the brother 
that would provide that inside information.
    Can you address that article and address that concern?
    Mr. Myers. Senator, yes, I can. Actually that comment was 
made in conjunction with the concern that insider information 
could and was being used by people within the agency, not 
people outside of the agency. In fact, the National Weather 
Service has taken the unusual step in 2000 of issuing a letter 
but never formulated it into a policy that no employee of the 
government could invest in such futures. There not being any 
policy that actually stopped that, and there has been an 
ongoing concern just as there is in the U.S. Department of 
Agriculture's crop reports, that there be an uniform release 
mechanism for all information to the public uniformly all at 
once and that no employee of any government agency should be 
able to leak that information elsewhere.
    AccuWeather had no way to gain access to any such 
information, and there is no way I can imagine that I would 
have any way to do that. The people creating that information, 
the agency, have it first, and those are the people that need 
to be under some sort of a policy, I believe, to ensure uniform 
release as most other government agencies have.
    Senator Cortez Masto. Thank you. I notice my time is up. 
Thank you.
    Senator Sullivan. Senator Inhofe.

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, we have lots of problems, and this 
administration is going to be addressing a lot of these 
problems. You know, I look at the deficit. It is something that 
we are going to have to do something about. We are going to 
have to get our heads together, and we are going to have to do 
it. I have 20 kids and grandkids that I do not want to hand 
these burdens off to. And so I would hope that you, in the 
position that I hope that you will be confirmed for--and I 
believe you will--would go along with doing everything we can 
to be as frugal as possible in running the administration that 
you would be involved in.
    Would you do that?
    Mr. Myers. Yes, I will, Senator.
    Senator Inhofe. Would you also be willing to listen to 
qualified scientists on every subject, including climate 
change?
    Mr. Myers. Yes, I will, Senator.
    Senator Inhofe. After listening to the introduction by 
Senator Toomey, I cannot imagine anyone would question your 
qualifications for this office, and you definitely have it.
    My State of Oklahoma has a couple unique things that are 
not prevalent in some of the other states. For one thing, we 
are in what we refer to as ``tornado alley.'' I have been in 
aviation now for 60 years and I am still very active in it, and 
I know a lot of people who will not even fly through southern 
Kansas, northern Texas, and the State of Oklahoma. So we are 
special. We have special needs in that respect.
    Have you thought about how you can look at some of the 
areas of the country that might need a little bit more 
attention than some of the rest of them? In our case, it 
happens to be in two areas. One is tornados and the other 
drought.
    Mr. Myers. Senator, thank you for that question, and I am 
well aware of your prowess as a pilot.
    AccuWeather has offices actually in Edmond, Oklahoma and 
next door in neighboring Wichita, Kansas to deal with severe 
weather, and tornados present a unique problem especially to 
the United States, which is a country that has more tornados 
than any other country on Earth. And you are right in the 
middle of that.
    Protecting lives and property is a critical mission that 
NOAA has, and improving tornado warnings and tornado warning 
lead time is critically important. The latest statistics show 
that in fact some of the lead times have decreased, and I am 
very concerned, if confirmed, to assure that that trend will be 
going in the other direction. It is critically important.
    The issues of drought, of rainfall are also critically 
important in those states in the Midwest, and I am well aware 
of what those problems and issues are. And I believe that NOAA 
and the National Weather Service, certainly focusing on the 
weather bill that was passed, have a mission to look at the 
seasonal and sub-seasonal forecasting to assist farmers in that 
regard.
    Senator Inhofe. Well, that is one of the areas that I am 
really interested in. I have been on the Senate Armed Services 
Committee for many years. I have served as Ranking Member on 
that. NOAA's polar and geostationary weather satellites 
currently enable the most accurate forecast in history. I mean, 
I have watched some of our tornados that have taken place like 
in Moore, Oklahoma where we would have the information. It is 
so much more now than it was 10 years ago, 20 years ago where 
the prediction is much, much more accurate. And so that takes 
care of that problem that we are having. I know that that is 
going to continue to improve, and under your leadership, you 
have the background to do that.
    But so far as the national security is concerned, programs 
rely on the NOAA satellite data, including global cloud imagery 
used for planning and executing daily combat missions. Are you 
aware of that contribution that is being made of that 
technology to defending our nation?
    Mr. Myers. Yes, I am.
    Senator Inhofe. And this is something that I would like to 
have you really concentrate on because it is an area where we 
are dependent upon that. It is a matter of saving lives. I 
think you and I have talked about that, and I think it is a 
very important part of your mission. And I am hoping that you 
will particularly be engaged in that work.
    Mr. Myers. I pledge to do so, Senator.
    Senator Inhofe. I look forward to working with you.
    Thank you, Mr. Chairman.
    Senator Sullivan. Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you, Mr. Chairman.
    Mr. Myers, I look forward to working with you on a number 
of issues of importance to my constituents and to the populace 
in general.
    One of those would be the full implementation of the 
Coastal Act. The Coastal Act was signed into law July 6, 2012 
and has still not been fully implemented. The problem that the 
Coastal Act addresses is this issue after a hurricane loss of 
determining whether that loss should be paid as a wind claim or 
a water claim under the flood insurance program. The Coastal 
Act was designed to lower the costs of FEMA's National Flood 
Insurance Program by better discerning wind versus water, 
particularly in cases where there is nothing left but a slab. 
There is data out there that can be used, and I think it is 
high time we got this bill fully implemented.
    In that regard, I have introduced the Coastal 
Implementation Act of 2017 to make technical changes to the Act 
which would be necessary for NOAA to implement the law.
    So I simply ask you, have you had time to familiarize 
yourself with this since we chatted earlier? And will you 
prioritize implementation of the Coastal Act so that coastal 
property owners can be assured of fair compensation after 
storms?
    Mr. Myers. Senator Wicker, thank you for that question.
    Yes, I am familiar with the Act, and I am also familiar 
with the Federal Flood Insurance Act. In fact, AccuWeather has 
testified in many of those cases in the past that were very 
difficult to discern whether it was wind or water damage for 
homeowners. And so I applaud the fact that there is such an Act 
now, and its implementation is and should be a prime concern.
    Senator Wicker. Well, very good. There is information out 
there that we gather that we think can divide up these losses 
in a fair way, and we can use that information. So thank you.
    Let me switch then to the issue of aquaculture. And we know 
a little about aquaculture in my State of Mississippi because 
we produce more inland farm-raised catfish than all of the 
other states put together.
    I am working on an aquaculture bill that would expand and 
enhance marine aquaculture. And, of course, NOAA will and does 
play a key role in this industry already but can really play a 
vital role as we expand this to what it can be for the United 
States and catch up with other nations there.
    So as NOAA Administrator, will you work with me on my 
legislation to enhance aquaculture and advance the cause of 
marine aquaculture in the United States?
    Mr. Myers. Yes, I will, Senator.
    Senator Wicker. Great.
    And then let me just ask you to comment, if you will, about 
unmanned systems. I am going to ask you, if you are confirmed--
and I am sure you will be--to work with me on a bill to 
encourage the use of unmanned maritime systems by NOAA to meet 
your mission priorities. Will you work with me on legislation 
to move these unmanned system technologies forward?
    Mr. Myers. I would be happy to.
    Senator Wicker. Thank you. I look forward to working with 
you.
    Thank you, Mr. Chairman.
    Senator Sullivan. Thank you, Senator Wicker.
    Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Mr. Chairman.
    Mr. Myers, NOAA's mission relies on the use and production 
of good science that is shared with the public, and the agency 
has demonstrated its commitment to good science by developing 
its own scientific integrity policy. The purpose of the 
scientific integrity policy is to strengthen scientists, 
decisionmakers, and the public's confidence in quality and 
reliable NOAA science and to demonstrate the agency's 
commitment to a culture of scientific excellence.
    And I think you can probably answer this one in a yes or no 
format. You stated in your written testimony that scientific 
integrity has been a core value and central component in the 
success of the company you have led. Do you see a need to 
change the current scientific integrity policies at NOAA?
    Mr. Myers. I am familiar with the scientific integrity 
policy, and I believe it is a good one. I am not in a position 
right now to say whether I would suggest ways to improve it or 
not, but I certainly support the entire concept of scientific 
integrity underlying the work that is done.
    Senator Udall. And will you commit to maintaining a culture 
at the agency that respects the integrity of rigorously 
researched and tested scientific findings and that does not 
compromise scientific research and findings based on political 
and other non-scientific concerns?
    Mr. Myers. Yes.
    Senator Udall. I mean, one of the things that I think is so 
important in these agencies that have scientists is that they 
are career people. They have spent a lot of time. They are real 
resource. You do not intend to really disrupt that culture. Do 
you?
    Mr. Myers. I have no intent to disrupt the culture. I 
support quality, peer-reviewed science. I have supported it in 
academia, and I would support it at NOAA. So, no, I have no 
reason to do that.
    Senator Udall. Focusing right now on climate change 
research, will you commit to not undermine the agency's 
research on climate change?
    Mr. Myers. I have no reason to undermine any research, 
Senator, and certainly not that.
    Senator Udall. Thank you very much.
    Let me ask you a little bit. Will you commit to support and 
carry out NOAA's statutory responsibilities implementing the 
full suite of conservation laws, for example, the Endangered 
Species Act, the Marine Mammal Protection Act, and the National 
Marine Sanctuaries Act?
    Mr. Myers. Yes, I will.
    Senator Udall. And will you commit to support and advocate 
for NOAA's missions and not to interfere with or undermine 
those missions?
    Mr. Myers. Yes, I will.
    Senator Udall. Thank you very much, Mr. Chairman. 
Appreciate it.
    Senator Inhofe [presiding]. Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    Mr. Myers, we had a chance to talk about salmon, and 
obviously, in the Pacific Northwest, they are not only an 
economy, they are a part of our culture. Today there are 28 
salmon stocks listed as endangered species under the Endangered 
Species Act in Washington, Oregon, California, and Idaho. A 
critical program in supporting the Pacific salmon fishery is 
the Pacific Coast Salmon Recovery Fund. The Trump 
administration budget would propose completely eliminating that 
fund. In addition, the largest commercial salmon fishery in the 
world, Bristol Bay, is something that would threaten with 
Pebble Mine our salmon. An assessment found by EPA that the 
mine poses a direct threat at $1.5 billion of sockeye salmon 
and threatens 20,000 jobs.
    So with these actions and also proposing fisheries science 
and management slashing of $24 million, I have a feeling this 
administration is not as robustly supporting of fisheries 
science as we think that we need to have for good management 
and job creation.
    So I like the fact that you are giving good short answers. 
So do you support eliminating the Pacific Coastal Salmon 
Recovery Fund?
    Mr. Myers. Senator, thank you for that question.
    I was certainly not involved in the decision, but I 
understand that Secretary Ross has explained that hard 
decisions were made, and the line had to be drawn somewhere 
even with regard to top quality programs. I would certainly be 
interested in finding out more, if confirmed, as to how these 
decisions were made and what the future is with regard to these 
concerns and issues.
    Senator Cantwell. So that is an undecided? Is that what 
that is? Is that an undecided?
    Mr. Myers. I do not know that it was an undecided, Senator.
    Senator Cantwell. Do you support the Pacific Coast Salmon 
Recovery Fund?
    Mr. Myers. Well, as I understand it, as you said, the 
funding for that has not been recommended in the budget. So as 
I say, I think the concern is that we have a quality program 
that is currently not being funded.
    Senator Cantwell. Do you support cuts in stock assessments?
    Mr. Myers. Yes, I do.
    Senator Cantwell. You support cuts in stock assessments?
    Mr. Myers. No. I am sorry. I thought you said catch stock 
assessments. I am sorry.
    Senator Cantwell. Do you support the Administration's cuts 
in stock assessment?
    Mr. Myers. I am not intimately familiar with what they have 
done in terms of that. I would be happy to get back to you on 
that.
    Senator Cantwell. Yes, please do. This is very important.
    Do you support the proposed Pebble Mine?
    Mr. Myers. Again, Senator, I am not intimately familiar 
with it. I know what the issue is, but I do not have the 
details of it.
    Senator Cantwell. Maybe you can come back and give us 
something on that. It is critically important. I know a lot of 
people are asking you about weather because of your background, 
but to me NOAA is about fish, and it is very important that we 
get these policies right.
    I also want to ask you about a different conflict of 
interest issue, which is NOAA's role in oil spills and what you 
have to do. The Oil Pollution Act of 1990 is the bedrock of 
what oil spill prevention and response is. As the NOAA Under 
Secretary, you will have a leading role in ensuring that the 
law is executed and polluters pay.
    As you know, Commerce Secretary Ross is still a shareholder 
in Diamond Shipping Group, a shipping company that operates 33 
medium-range tankers that move petroleum and other products 
between international ports. Along with this role that you will 
have as Under Secretary, Secretary Ross oversees the large 
areas of response. Do you think Secretary Ross has a conflict 
of interest due to the ownership of Diamond Shipping and the 
authorities granted to him under the Oil Pollution Act of 1990? 
And if you do not know an answer here and you want to get back 
to me, that is OK too.
    Mr. Myers. Yes, I do not know an answer, and I would be 
happy to get back to you, Senator.
    Senator Cantwell. So what I am looking for is protection of 
a robust economy that is around our waters for fishing, and 
obviously, when oil spills happen, they damage those fisheries. 
I believe the Secretary is conflicted here. I think they keep 
changing their story as to whether he is involved or not 
involved. While you have a similar issue that you are trying to 
address here this morning, I am interested in what we are going 
to do to make sure that there are not conflicts here and that 
we know that someone is going to be aggressive in protecting 
our fisheries. So you can get back to me on those answers. I 
appreciate it.
    Mr. Myers. Thank you, Senator.
    Senator Cantwell. Thank you.
    Senator Inhofe. Senator Duckworth.

              STATEMENT OF HON. TAMMY DUCKWORTH, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Duckworth. Thank you.
    I would like to return, Mr. Myers, to the discussion a 
little bit on sciences. As you know, science is the bedrock of 
NOAA for executing its mission. 11 out of the 12 previous NOAA 
administrators appointed by both Republican and Democratic 
Presidents have all held PhDs in a science-related field. You 
are a lawyer by training and an accomplished businessman, but I 
am concerned that your background and experience lacks any 
scientific expertise that has benefited most of your 
predecessors. However, I have been very encouraged by your 
answers today and the answers you gave me in our multiple 
meetings that we have had about your support for science.
    So I would like to ask you a couple questions briefly about 
how you will recommend NOAA approach its scientific work and 
whether you will surround yourself with scientists and allow 
them to do their jobs. Do you agree that scientific work at 
NOAA should be free of political agendas and any bias from 
senior management?
    Mr. Myers. Yes.
    Senator Duckworth. Do you agree that scientists and not 
political appointees should determine the direction of 
scientific work at NOAA?
    Mr. Myers. Yes.
    Senator Duckworth. Do you agree that science should be 
accessible to the public and published freely?
    Mr. Myers. The only clarification I have to that is that 
quality science that is peer-reviewed and meets the quality 
assurances that is generally considered appropriate in 
scientific fields, yes.
    Senator Duckworth. Do you agree that as a taxpayer-funded 
agency that the taxpayers should have access to the scientific 
results as a result of the work of scientists at NOAA?
    Mr. Myers. Yes, they should.
    Senator Duckworth. Thank you.
    Mr. Myers, our military leaders have made it very clear 
that climate change is a national security issue that is 
exacerbating conflicts around the world. In fact, even in my 
own National Guard unit in Illinois, our commander of the 
Illinois Army National Guard actually gave a speech to us when 
I was a young officer saying that it does not matter if you 
believe in climate change or not, but the icecaps are melting 
and the Russians are going to get access to the polar reaches 
and we will have to defend, that drought is causing large 
population migrations in Africa and that will mean eventually 
greater U.S. involvement from the resulting conflict.
    So I am alarmed that instead of heeding our military's 
sound logic regarding the interconnectedness of these issues, 
the Trump administration has done everything it can to prevent 
the Executive Branch from even talking about climate change. 
And this is reflected in the dramatic cuts, 32 percent, from 
NOAA's Climate Change Office.
    How do you reconcile these observations? Do you support 
robust investments in climate change research, as well as 
action on climate change, and do you agree with our military 
leaders that human-caused climate change is indeed a national 
security threat?
    Mr. Myers. Senator, thank you for that question.
    And I believe that actually General Mattis during his 
confirmation hearing addressed that same issue and indicated 
that climate change was a national security concern that was 
having effects with regard to our bases and other activities 
around the world.
    And I also agree with you that if ice is melting, ice is 
melting, and one's opinion about it is really not relevant. It 
is a fact.
    And so I fully support the ability, as I said, of 
scientists to do their work unfettered. That disinformation 
needs to be then made available. Science should take us 
wherever it takes us, and we cannot dispute the facts once they 
are in front of us, and we need to act upon them.
    Senator Duckworth. Thank you.
    A concern that I have with NOAA--this sort of touches on my 
colleague's mentioning that NOAA is just beyond weather. The 
National Weather Service's satellite budget is growing in 
dominance in terms of NOAA's overall budget, and as vital as 
that is, I would like to know how someone such as yourself who 
has dedicated your entire career to working on weather issues 
will deal with all of the other needs within NOAA that are non-
weather related. How will you ensure, for example, that we have 
a modern fleet of satellites without neglecting other parts of 
the agency's mission as that fleet of satellites continues to 
be more expensive and requires greater resources?
    Mr. Myers. Thank you, Senator, for that question.
    Certainly the satellite programs are a challenge. We have 
the best satellite program I believe in the world, and we have 
plans to continue to maintain it as such, which I support. But 
we are fortunate that we have new companies that are starting 
to come into the space with low orbit satellites that are 
smaller that do different or complementary missions, and we 
need to look at all those for solutions to the burgeoning costs 
of these things. But we definitely need to make sure that we 
ensure that we are getting the kind of data that we need to 
populate our weather models and do our weather forecasting 
because that is critically important.
    And I fully agree with you that NOAA is a huge agency, and 
yes, my background is mostly in the weather side or so-called 
dry side of the agency. But if you look at the agency in terms 
of fisheries, oceans, coasts, planes and boats, buoys, 
weather--and I could go on and on. It is a huge agency with a 
huge portfolio of many diverse but somewhat interrelated 
aspects. And I hope to bring quality management and new ideas, 
new technology to all of it.
    Senator Duckworth. Will you ask for more funding for those 
programs if they need it?
    Mr. Myers. As needed as time goes by, of course I will.
    Senator Duckworth. Thank you.
    I yield back.
    Senator Sullivan [presiding]. Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    Mr. Myers, I will join my colleagues in welcoming you to 
the Committee, and I certainly do appreciate your willingness 
to serve the public as well. Thank you for your willingness to 
serve. And I certainly also appreciate the time we spent 
together in my office discussing many of these issues, some 
that you just outlined in great depth.
    But I would like to hear today your thoughts on NOAA's 
cybersecurity and what steps you would take to protect data 
from foreign intrusion. In addition to being on this committee, 
I also serve on the Homeland Security Committee. I also serve 
on the Armed Services Committee. National security is something 
I think a great deal about, and I think without question 
probably our number one national security risk are potential 
cyber attacks and not only potential, the ones that we have 
already received and will continue to get.
    And my question to you, sir, is that last year NOAA 
upgraded its data dissemination infrastructure allowing faster 
data streaming speeds while improving the agency's 
cybersecurity. And as part of this shift, NOAA notified 
AccuWeather, your company, and other commercial weather 
providers the agency would no longer allow companies a physical 
link to NOAA's data assets in private industry, an agreement 
that was previously called the family of services which 
afforded companies, including AccuWeather, preferential 
treatment basically. NOAA's action to decouple the physical 
connection was taken at the direction of the National Security 
Council to provide faster and more secure data and specifically 
to protect the data from cybersecurity threats.
    Your company, AccuWeather, was the only company to voice 
opposition to this improvement. And I understand you met with 
then Secretary of Commerce Pritzker to ask that she would 
intervene on your behalf, reverse the upgrade, and allow 
AccuWeather to continue to retain a physical link to NOAA's 
data despite some very clear cybersecurity risks associated 
with that.
    So my question is, what steps will you take to uphold and 
to strengthen NOAA's management of cybersecurity threats?
    Mr. Myers. Senator, thank you very much for that question 
and maybe an opportunity to clarify something.
    Actually the family of services is available to anyone. It 
is a paid connection. And most of the major companies in the 
weather industry had connections, and in fact, it is the only 
time I can remember every single company signed a letter of 
protest about an action taken by the National Weather Service.
    Part of the reason for that, as it turned out, was that the 
explanation I think that was afforded to the companies that 
were connected that were being terminated at the time was not 
sufficient. But once we understood the national security issue 
that was involved--and it took a while to somewhat tease that 
out--we understood what was going on.
    There was concern with regard to the new delivery mechanism 
because 95 percent of the public receives its information now 
in the United States with regard to weather through companies 
that are in the weather industry, and even delays of a few 
seconds in a tornado situation could be critical. So the 
industry was rightfully concerned about the issue of 
timeliness. We were not concerned about the issue of security 
nor the mechanism, and in fact, the current mechanism is what 
it is and it seems to be working. And we have worked with the 
government on that and other issues as changes take place. But 
I think it was quite a reasoned position to take at the time 
knowing what we knew and not knowing what we did not know.
    Senator Peters. And so knowing what you know now because 
you said your concern was timing not security, you do believe 
that security, especially cybersecurity, is of critical 
importance. And what steps do you plan to undertake, if 
confirmed?
    Mr. Myers. Senator, I fully agree that cybersecurity is a 
huge challenge and critically important. It is something we as 
a company and other companies address daily. It is something 
clearly that NOAA needs to address in the most effective way 
possible.
    I believe actually NOAA is a national defense agency for a 
whole variety of reasons, some of which were mentioned 
previously in terms of the relationship with the military and 
the security of the Nation. So I fully support the need for 
robust cybersecurity.
    Senator Peters. Mr. Myers, we also had a chance to speak 
about marine sanctuaries when you were in my office, and we 
talked about Alpina, Michigan which is home to the Thunder Bay 
National Marine Sanctuary. I had an opportunity to show you 
some photographs of that wonderful sanctuary and the map of the 
sanctuary.
    The Great Lakes also have a Wisconsin Lake Michigan 
sanctuary moving through the designation process and a 
nominated sanctuary in Lake Erie. The Thunder Bay sanctuary, as 
you and I talked about, draws hundreds of thousands of visitors 
annually, has revitalized coastal communities, certainly a very 
important part of NOAA's mission, I believe.
    So I just want to get your commitment on the record and 
your thoughts about supporting and maintaining our current list 
of national marine sanctuaries.
    Mr. Myers. Thank you, Senator, for that. And I also want to 
thank you for the assurance that I could see a sanctuary in a 
glass-bottom boat and I was not going to have to dive.
    No, I think that the sanctuary program has been a very good 
program, and I do support it. I know there are several others 
that are pending. I do not know the details on those, but agree 
that it is a quality program.
    Senator Peters. Thank you.
    Senator Sullivan. Mr. Myers, I have just a few follow-up 
questions. One is, if confirmed--and I think that is highly 
likely. I think you have done an outstanding job in this 
hearing today, and you are very well qualified. Can I get your 
commitment to come to Alaska? We have a lot of NOAA services 
that I have explained to you in our meeting and then in this 
hearing today. I would welcome your commitment to do that.
    Mr. Myers. Well, Senator, thank you for that. I many times 
tell people I have visited every state in the Lower 48 and I 
have never been to Alaska or Hawaii. I would love to have the 
opportunity.
    Senator Sullivan. Well, I think the Ranking Member and I 
want you to change that record. So if confirmed, can you commit 
to coming not just to Alaska but to Hawaii as well?
    Mr. Myers. Yes, I will.
    Senator Sullivan. Great.
    I think one thing you will see in Alaska is the size. 
Right? If you superimpose my state on the Lower 48, you will 
see Ketchikan, Alaska would be right around where St. 
Petersburg, Florida is and the Aleutian Island chain would be 
where San Diego is. That is the kind of territory we are 
talking about covering and that NOAA has responsibility for. 
And yet, Alaska has 3 percent of the weather capability found 
in the Lower 48. This is a serious safety concern for my 
constituents, many of whom live in extremely remote areas of 
the country. We have few roads, making air and maritime 
transportation necessary for daily life. Therefore, timely, 
accurate, and accessible weather forecasts from the National 
Weather Service are essential.
    In some cases, however, Alaskan air carriers have had to 
purchase weather data, which the National Weather Service is 
required by law to provide. Further, many Alaskans who travel 
to remote areas to hunt and fish rely on twice-a-day, broadband 
weather transmissions to help them determine if it is safe to 
travel that day.
    We recently learned or heard that these radio 
transmissions, which are such a critical lifeline and safety 
line in Alaska, will no longer be reported with no plan to have 
a replacement program. This would be very devastating to my 
constituents.
    Will you commit to helping enhance the weather reporting 
capabilities in Alaska, if confirmed, and take a look at this 
issue upon confirmation on the canceling of this very important 
and I think quite cost effective program for NOAA and my 
constituents?
    Mr. Myers. Senator Sullivan, thank you for the question.
    I will be happy to look at it. I am not familiar with it at 
this time, but clearly your state is presented with challenges 
because of its size and population spread and these are special 
concerns that need to be considered.
    Senator Sullivan. Great. Thank you.
    Well, given our hope to place you on our next markup, the 
hearing record will remain open through Wednesday, December 6. 
During this time, Senators are asked to submit any questions 
for the record for you, Mr. Myers. Upon receipt, we 
respectfully ask that you submit written answers as 
expeditiously as possible to the Committee but no later than 
Monday, December 11.
    Again, I want to thank you for appearing today, for your 
desire to serve your country and give back to your country, as 
you noted very movingly in your opening statement.
    This hearing is now adjourned.
    [Whereupon, at 12:10 p.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Questions Submitted by Hon. John Thune to 
                            Barry Lee Myers
    Question 1. Section 405 of the of the Weather Research and 
Forecasting Innovation Act of 2017 (hereinafter, the Weather Act) 
specifically requires warning coordination meteorologists to increase 
NOAA's impact-based decision support services, including by liaising 
with users of products and services of the National Weather Service 
(NWS) and collaborating with State, local, and tribal governments. If 
confirmed, how would you seek to increase the NWS's deployment of 
impact-based decision support services?
    Answer. I actively supported this legislation including this 
provision. I will serve as a blueprint to guide the agency. I am 
advised NOAA has taken preliminary steps to address the efficiency and 
effectiveness of its impact-based decision support services by 
commissioning a study on this topic. If confirmed as NOAA 
Administrator, I will review the recommendations of this new study to 
ensure that deployment of impact-based decision support services align 
with the core mission of the agency, coordinate with state, local and 
tribal governments, and best serve the American people.

    Question 2. As you know, one of my priorities in the Weather Act is 
promoting research and forecasting for seasonal and subseasonal weather 
conditions. These forecasts are of vital importance to the vibrant 
agricultural economy in my state of South Dakota and help weather-
dependent businesses make long-term decisions and avoid costs and even 
disasters. If confirmed, do you commit to ensuring these seasonal 
forecasts are a high priority for NOAA going forward?
    Answer. Yes. Seasonal and subseasonal weather forecasts are an 
emerging and important new area for the National Weather Service 
mission. Increasing our ability to forecast weather events, from short-
term events such as tornadoes to long term events such as drought, will 
improve our ability to protect American lives and property and enhance 
the national economy.

    Question 3. The Senate Commerce Committee has jurisdiction over the 
United States Coast Guard, and in my role as Chairman I have continued 
to monitor the situation where Mexican citizens are illegally 
harvesting red snapper in U.S. waters off of Texas. The Coast Guard 
interdicts and seizes many of these launchas, but no civil penalties 
have been issued by NOAA to punish and stop this behavior. I am, 
however, aware of NOAA moving forward with a negative certification of 
Mexico resulting in restriction of some port access and services in the 
area. Will you continue to monitor this situation and keep me informed 
on discussions with Mexico to dissuade these bad actors from harvesting 
such a valuable fish in U.S. water?
    Answer. Yes. I share your concern about poaching and how it impacts 
our ability to sustainably manage our fisheries. According to some 
Coast Guard numbers, illegal fishing along the U.S.-Mexico border costs 
the country over $11 million in revenue each year. I understand that 
red snapper is a key fish that is targeted in these launchas, which 
hurts not only our commercial fishermen, who then have to compete with 
cheaper fish on the marketplace, but also our recreational fishermen 
whose seasons are limited as we attempt to rebuild the stock that is 
illegally depleted. I will keep you informed as we investigate 
opportunities to curtail these incursions on our commerce.

    Question 4. Two years ago, in December 2015, the Committee first 
requested technical drafting assistance (TDA) from NOAA about the 
Fishing Capacity Reduction Program, specifically related to necessary 
authority. I have not received the requested TDA to date, despite 
numerous follow-up requests. I would like to know what authority would 
be required for NOAA to make individual loans under the program and 
what authority NOAA would need to refinance Capacity Reduction loans. 
If confirmed, can you commit to providing the requested TDA within two 
months of your confirmation?
    Answer. Given that a priority of mine is reducing the seafood trade 
deficit, I am interested in finding ways to help our commercial 
fisheries maximize their sustainable harvests. I share the Committee's 
interest in helping to put fishing businesses on a level playing field 
with other businesses getting Federal loans and I will work 
expeditiously to understand the delay and work to provide the technical 
drafting guidance you seek.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                            Barry Lee Myers
    Question 1. Would you agree that exploring emerging technology like 
smartphone apps for estimating angler catch is something NOAA Fisheries 
should be considering for managing saltwater recreational fisheries?
    Answer. Yes. I understand there is concern with the methods that 
NOAA employs to estimate recreational landings because it appears that 
newer technology is available that could lead to more effective and 
timely catch count. It is difficult to effectively manage what cannot 
be accurately counted. It is in the best interest for all that NOAA 
pursue technologies to provide fishery managers with better, more 
reliable and real-time data to improve our recreational fishery 
management. Many of these technologies already exist in everyday use on 
mobile devices that utilize wireless communications and GPS locational 
technologies. I look forward to applying my private sector experience 
in developing mobile weather applications to facilitate these 
technologies for our recreational fisheries.

    Question 2. What is the long term plan for NOAA to recapitalize or 
modernize the aging G-IV hurricane chase aircraft? Would you consider 
leasing a previously owned aircraft that could represent a more cost 
efficient option?
    Answer. If confirmed, I will support the Weather Research and 
Forecasting Innovation Act, to acquire back-up capabilities that are 
currently provided by the G-IV aircraft. As part of this back-up 
capability all aspects of fulfilling this need from intra-governmental 
aircraft sharing MOUs to supplemental data from UAVs and public private 
partnerships should be considered. Additionally, refurbishment or 
replacement should be considered. Options to ensure no lapse in this 
critical component of the hurricane observing network needs to be the 
goal.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dean Heller to 
                            Barry Lee Myers
    Question 1. As a rancher in Nevada, I check the weather every 
single day. I need to know about precipitation, soil moisture and 
temperature, changes in dewpoint, and other conditions.
    Detailed weather data from NOAA is something Nevada ranchers and 
farmers--from Winnemucca to Ely and Elko--rely on every day to make 
decisions that will impact their yields for that year.
    But there are some in the commercial weather industry who want to 
limit access to this data so it can be monetized.
    Taxpayer dollars fund the collection of this data--and taxpayers 
should have full access to it.
    Will you commit to continue collecting the weather data that allows 
ranchers and farmers to make informed decisions?
    Answer. Yes. Weather data which is paid for with Taxpayer dollars 
should be available to all citizens.

    Question 2. Will you commit to not limiting the National Weather 
Service from releasing forecast information to the public?
    Answer. Yes. Weather forecasts which are funded by Taxpayer dollars 
should be available to all citizens.

    Question 3. Will you commit that you will not hand over any 
National Weather Service data exclusively to a third party that could 
result in limited public access or a paywall for accessing weather 
data?
    Answer. Yes. Weather data which is paid for with Taxpayer dollars 
should be available to all citizens.

    Question 4. Will you commit that private companies will not receive 
weather data or forecasts before the general public has access to it?
    Answer. Yes. All government weather data and forecasts should be 
made available to all--citizens and companies alike--through uniform 
release mechanisms which make the information available to all 
simultaneously.

    Question 5. Another important NOAA program in Nevada is the Western 
Regional Climate Center.
    The research they do touches on Lake Tahoe, water conservation in 
Nevada, monitoring smoke from fires, drought monitoring, and wind 
energy assessments.
    Will you commit to supporting this program and the other centers?
    Answer. NOAA's Regional Climate Centers are an important tool that 
helps NOAA pursue research in its climate portfolio. If confirmed, I 
will support NOAA's mission, which includes climate, weather, and ocean 
research.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Shelley Moore Capito 
                           to Barry Lee Myers
    Question. NOAA has a large and significant presence in West 
Virginia, and we are very proud of the investment NOAA has made in my 
state--specifically in Fairmont, West Virginia. This facility serves as 
the primary backup facility for all of NOAA's emergency contingency 
operations. We would like to do more, and feel we have the people and 
the capabilities to do so. For example, WV plays a role, and can do 
more, in the realm of high performance computing.
    Most recently, the West Virginia facility serves as the 
Consolidated Backup Facility for the GOES-R, now GOES-16, satellite 
mission that launched in November 2016 and was so vital in forecasting 
operations for the most recent hurricanes, including Hurricane Marie as 
it neared Puerto Rico last week. Will you commit to working with me to 
strengthen NOAA's partnership in Fairmont?
    Answer. Yes. I understand that NOAA's facility in Fairmont has a 
quality reputation and is a linchpin in the I-79 Technology Park. If 
confirmed, I would appreciate the opportunity to visit the facility and 
investigate opportunities to strengthen NOAA's partnership in Fairmont.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                            Barry Lee Myers
    Question 1. If NOAA elects to buy a greater percentage of data from 
the private sector to supplement the agency's weather data as you have 
advocated for in the past, how do you suggest balancing commercial 
weather companies' concerns about sharing proprietary models and data 
with NOAA's mandate to provide the American public and foreign partners 
with all available information to protect life and property--
information that has been bought with taxpayer dollars?
    Answer. My position has been that this is an area that needs to be 
studied as I support the NOAA mandate to provide the American public 
with all available information to protect life and property. 
Information supported by taxpayer dollars--whether created within the 
government or purchased from outside sources--needs to be made 
available according to applicable law and regulations to everyone 
freely and openly. Keeping data behind locked doors and away from 
American citizens through restrictive licenses is problematic. The 
Weather Research and Forecast Innovation Act signed this year opens the 
door for NOAA to work through this issue for the benefit of the Nation.

    Question 2. In the past, you have said that sunny day forecasts 
should not be provided by the National Weather Service because they do 
not protect life and property. However, there are numerous examples of 
life or death situations that occur on sunny days. For example, sunny 
day flooding in Miami Beach can cause serious damage to property, and 
rip currents and swell size can be a matter of life and death for the 
thousands of people that use Florida's beaches. Furthermore, twelve 
senior citizens died from heat exhaustion in a nursing home after 
Hurricane Irma. This was on a sunny day. Free and accessible sunny day 
forecasts are critical to life and property. Can you make an assurance 
that, if you are confirmed, the National Weather Service will continue 
to freely provide all sunny-day forecast products it currently issues?
    Answer. I think the question above is blending the ``sunny day'' 
forecast issue with life and property concerns. I agree that life and 
property concerns are paramount and within the mission of NOAA. Some of 
my past references about ``sunny day'' forecasts related to situations 
where staff was being pulled away from life and property tasks to 
handle routine matters. That is always a balance that needs to favor 
life and property protection.

    Question 3. Can you commit to protecting current resources and 
funding for the National Weather Service's impact-based decision 
support services (IDSS)?
    Answer. If confirmed, I will support further development of the 
National Weather Service's IDSS, which is an interpretative service 
provided to help core partners, such as emergency personnel and public 
safety officials, make decisions when weather, water and climate 
impacts the American people. This is part of the NWS Weather Ready 
Nation (WRN) initiative that I was a major contributor and support of 
prior to launch.

    Question 4. The National Weather Service has an obligation to the 
taxpayers to provide products and services to protect life and 
property. Please list and describe any products or services that the 
National Weather Service currently provides that you believe fall 
outside of this obligation.
    Answer. The National Weather Service provides life-saving forecasts 
and warnings every day. They carry out one of the core missions of 
NOAA. I support all of their core missions in (1) data creation and 
gathering including remote sensing from space, (2) numeric weather 
prediction (modeling), (3) severe weather warnings for water, 
tornadoes, hurricanes, snow, etc. (4) seasonal and sub-seasonal 
forecasting (5) climate prediction, to name a few. Outside of the 
obligation are special taxpayer funded value added forecasts for 
specific businesses and industries, for example. As the weather 
industry continues to evolve and advance, this will benefit NOAA and 
NWS and the Nation. We have the best weather services for our citizens 
of any nation on earth, and through cooperation between government and 
the private sector that will continue to be the case.

    Question 5. In recent years, AccuWeather has registered a number of 
website domains that mimic official U.S. Government weather domains. 
When people go to those official-sounding domains, they are redirected 
to the AccuWeather website. For example, ``nationalweatherservice.org'' 
and ``weatheralerts.org'' were registered by AccuWeather. In the case 
of ``nationalweatherservice.org,'' the National Weather Service 
requested that AccuWeather stop using that particular domain name, but 
AccuWeather refused. To this day, that site still redirects people to 
the AccuWeather site.
    Answer. AccuWeather has never posed as a government entity, in fact 
it has the strongest weather brand in the world. Its website is also 
free to the public. At the outset of the Internet in the 1990s all 
companies, usually through their technical service and computer 
departments, and many government agencies, scrambled to create and 
secure domain names that they thought would be important. It was 
somewhat the ``wild west'' and many people went to significant lengths 
to secure variations of words and names. Additionally, there were at 
the start of the Internet only four domains .com, .net, .gov, and .edu. 
Back then the .gov designation was for government sites, and the other 
domains were for others to use. Additionally, many URLs and brand or 
trademarks did not align. And many people had URLs that sounded or 
looked similar to other brands or organizations. AccuWeather has always 
been sensitive to those concerns. And over the many years since those 
days has policed issues to ensure common sense in the use of URL and 
also trademark alignment. Today, in 2017, there are an unlimited number 
of domains. As a result, there are now dozens of 
``nationalweatherservice'' domains currently in use or available for 
sale on the internet, such as ``nationalweatherservice.network.'' These 
are totally unrelated to AccuWeather or the National Weather Service, 
and the number will only be expected to grow. I was not the AccuWeather 
CEO in the 1990s at that time and did not always know about the many 
URL domains we had or that others registered. However, on January 3, 
2003, upon the request of the NWS, I was informed of this URL that had 
the name ``national'' ``weather'' and ``service'' in lower case letters 
and all run together as one long word with the .org URL suffix. In full 
cooperation with NWS I required the servers at AccuWeather be changed 
so that ``nationalweatherservice.org'' would no longer point to an 
AccuWeather site, and it was ``mothballed,'' in cooperation with NWS 
and as NWS had requested. In 2005 I was advised by the NWS that the URL 
was functional again and ordered it terminated again. Until your 
question, it was assumed that it continued to be inactive. However, 
upon inquiry this week, it was discovered that on or about June 20, 
2016 the company made server upgrades which updated all of the Domain 
Name Servers. This inadvertently reactivated the mothballed domain. 
That is why your staff thought it to be active. It has once again been 
deactivated. If you plug in that domain it will not go to AccuWeather. 
Such non-prompted domains usually generate little or no traffic. 
Although these actions under the Internet domain registration protocols 
were permissible, AccuWeather was responsive and cooperative with NWS 
when the issue was raised. In fact AccuWeather has always worked well 
with the NWS as to intellectual property concerns. For example, two 
years ago, at my behest, AccuWeather licensed two very important 
tornado warning observer reporting patents to NWS free of change, for 
the good of the public. The URL issue above was a minor unintended 
event. However, this situation, and your questions, have alerted me to 
an intellectual property issue relative to NOAA as to what actions 
were, and are, taken to protect the NWS brands and URLs, as a company 
would have done. This is an area I plan to have reviewed at NOAA, if 
confirmed.

    Question 5A. What was AccuWeather's intent in registering these 
official-sounding websites and redirecting the traffic?
    Answer. See answer to main question above.

    Question 5B. Do you agree that this could be confusing to the 
general public--especially when someone is seeking official information 
on a hurricane or other severe weather event?
    Answer. See answer to main question above.

    Question 5C. If confirmed, what types of actions will you take to 
ensure that private weather forecasting services do not use websites to 
confuse people seeking emergency weather warnings?
    Answer. See answer to main question above.

    Question 6. Will you commit to standing up to climate deniers?
    Answer. NOAA is an agency that must adhere to an information policy 
based on transparent, defendable, and reproducible scientific studies 
acquired through the well-established scientific method and peer-review 
process. Any and all research that adheres to required academic and 
Federal peer review standards should be disseminated.

    Question 6A. Further, will you commit to continuing NOAA's 
important work on climate science?
    Answer. Yes.

    Question 6B. Lastly, will you commit to preserving the funding and 
resources that NOAA currently needs for climate research and outreach?
    Answer. If confirmed, it is my intention to continue NOAA's 
scientific climate research and outreach within the funding authorized 
by Congress.

    Question 7. For many residents of Florida, climate change and sea 
level rise are not theories--they are something they live with every 
day. Residents of Miami Beach and many other parts of South Florida, 
for example, now have to deal with street flooding during minor storms 
and King Tides. What do they need to do to prepare, and how can NOAA 
help them?
    Answer. There is no disputing the observed sea-level rise, and the 
South Florida region has been experiencing an increase roughly six 
times the global average. NOAA can assist through the continued 
research on the causes and projections on sea level rise. NOAA's duty 
to the taxpayers is to continue to further the understanding and 
predictability of these processes, both anthropogenic and natural. In 
addition, NOAA's flood inundation capability may play an additive role 
here.

    Question 8. In pre-hearing questions, you noted that, before 
publishing any scientific studies, NOAA must ensure that the data and 
research adhere to high standards of scientific quality. Do you think 
that NOAA currently adheres to high standards of scientific quality?
    Answer. To the best of my knowledge I believe NOAA as an 
organization adheres to this policy, yes. I agree with, and support 
NOAA's scientific integrity policy NAO 202735D.

    Question 8A. What is your opinion of NOAA's current peer review 
process?
    Answer. While peer-review processes at any organization are not 
perfect, it is the most robust method for vetting scientific research. 
NOAA's use of OMB's ``Final Information Quality Bulletin for Peer 
Review'', which employs methods recommended by the National Academy of 
Sciences is a rigorous process.

    Question 8B. If confirmed, do you plan to change or allow change to 
either NOAA's peer review process or scientific integrity policies?
    Answer. If confirmed, I have no present plans to change either the 
process or peer review policy.

    Question 9. By flying into and above storms, hurricane hunter 
aircraft collect critical data for NOAA's forecasts. Although these 
aircraft are critical to NOAA's forecasting capabilities, they are 
aging and there is no backup capability. Earlier this year Congress 
passed H.R. 353 requiring a backup capability for the hurricane 
hunters. However, there have been multiple emergency repairs this 
season. For example, in September, the main cabin door on the 
Gulfstream started leaking at forty-five thousand feet and the aircraft 
had to make an emergency landing during reconnaissance for Hurricane 
Maria. In light of the deteriorating condition of the current G-IV 
Hurricane Hunter and its inability to reliably perform its critical 
mission, if confirmed, do you commit to not only expediting the process 
for the backup plan but also replacing the current G-IV aircraft with a 
newer model?
    Answer. The Weather Research and Forecasting Innovation Act 
requires this, and I do commit to providing this plan as fast as 
possible if confirmed. As part of this plan, all aspects to fulfilling 
this back-up capability from supplemental data to refurbishment or 
replacement should be considered.

    Question 10. In 2016, NOAA published its plan for the 
recapitalization of its research vessel fleet. Some of these vessels 
are almost 50 years old, and two of NOAA's vessels were recently taken 
out of commission for extensive repairs. What will you do to ensure 
that NOAA's recapitalization plan stays on track and its vessels are 
able to continue carrying out their vital research missions?
    Answer. I share your concern regarding the aging fleet of NOAA's 
vessels. These vessels have been instrumental to so many of the 
agencies' missions. I am aware of the Final Report of the NOAA 
Independent Review Team on NOAA Fleet Recapitalization (October 1, 
2016) and personally met with the co-chair, Dick West, RADM, United 
States Navy (ret). If confirmed, I would work to implement it within 
available budget resources.

    Question 11. An important part of setting annual catch limits in 
fisheries is the collection of fishery dependent data, but the 
collection of this data in recreational fisheries--through dockside 
interviews, mail-in questionnaires, etc.--has been challenging. As a 
result, lower recreational catch limits are set at more precautionary 
levels to make sure overfishing is prevented. In your view, what are 
the reasons accurate recreational fishing data collection is such a 
challenge and what will you do to improve it?
    Answer. Garnering accurate recreational fishing data is a 
challenge, particularly in Florida where there are thousands of docks 
and points of access for recreational fishermen and The Commission on 
Saltwater Recreational Fisheries Management published statistics that 
show that there are 4,878,000 recreational saltwater anglers in 
Florida, more than any other state. Commercial and for-hire data is 
much more robust and with the use of electronic reporting these sectors 
have been able to minimize uncertainty and therefore maximize their 
harvests. The ability to more accurately and timely estimate or measure 
recreational landings will require the use of technologies such as 
applications on mobile devices. Facilitating the development, 
implementation and certification of these technologies will be a 
priority, should I be confirmed.

    Question 12. One of the most important provisions in the last 
Magnuson-Stevens Act reauthorization was to require fishery management 
councils to set annual catch limits in all fisheries that cannot, by 
law, exceed the levels recommended by their scientific and statistical 
committees. The result has been that many fisheries have returned to 
healthier levels than we have seen for a long time. What are your views 
on the importance of science-based annual catch limits and 
accountability measures in sustainable fishery management?
    Answer. Science-based catch limits and accountability measures have 
been, and will continue to be, key components in the rebuilding of many 
of our fish stocks. Accurate data is a critical core input to these 
approaches.

    Question 12A. Are you committed to basing management decisions on 
the best available science?
    Answer. Yes, science needs to guide management decisions.

    Question 13. To save lives and property, it is essential to have 
accurate, accessible forecasts. This is the core function of the 
National Weather Service. As of July, however, the National Weather 
Service had over six hundred vacant positions out of a workforce of 
over four thousand. If confirmed, what will you do to address the 
employment vacancies?
    Answer. I understand there are vacancies throughout the agency, but 
NWS appears to be the most challenged in this regard. If confirmed, I 
will take into account the recent National Weather Service Operations 
Workforce Analysis (OWA) performed by McKinsey & Co. and independently 
evaluate the situation, to ensure we recruit, hire, train, and retain a 
robust and highly skilled workforce that can most effectively 
accomplish the NOAA mission and within the budget limits as 
appropriated by Congress.

    Question 13A. Will you commit to exempting weather service public 
safety employees from any hiring delay or freeze?
    Answer. If confirmed, I will study the reports mentioned above to 
better understand the cause of these delays, and the most efficient 
process to mitigate them in the future.

    Question 14. In your response to pre-hearing questions on the 
weather satellite system, you state, ``NOAA will need to understand and 
manage the risks to these programs and potential rescheduling options 
to ensure that it is cost-effective in meeting long term programmatic 
requirements.'' If you are confirmed, will you commit to providing a 
strategy, in writing, on how you plan to address managing the risks to 
these programs (for example, the JPSS and GOES programs) while ensuring 
that there is no gap in satellite coverage?
    Answer. If confirmed, I will have the agency develop and provide a 
strategy, and look forward to working with you and your staff to ensure 
we have continuity of observations, while taking into consideration 
opportunities to reduce risk, save resources and advance capabilities.

    Question 15. In 2017, the NESDIS Independent Review Team found that 
without accelerating the launches of JPSS-3/4 (the Polar Follow-On 
program) there is a high probability of a gap in coverage from our 
Polar-orbiting operational environmental satellite constellation. 
However, the administration has proposed reducing funds for the Polar 
Follow-on program. In light of this, how will you work to ensure there 
is no gap in coverage?
    Answer. I appreciate the difficulties and challenges associated 
with NOAA's satellite programs and their budgets. In recent years, NOAA 
satellites have accounted for roughly 40 percent of the agency's 
overall budget while simultaneously trying to balance other important 
portfolios. My understanding is that the President's FY18 budget 
includes funding to develop PFO/JPSS-3 and JPSS-4 instruments and 
spacecraft buses that are copies of JPSS-2. If confirmed, I look 
forward to reviewing this plan and working with Congress to avoid a gap 
in coverage.

    Question 16. Between NOAA's cancellation of the COSMIC-2B program 
and the so far unsuccessful commercial weather satellite data pilot 
program, there is concern that NOAA may be facing a gap in critical 
radio occultation data. How do you plan to mitigate this gap?
    Answer. My understanding is that NOAA is pushing forward with the 
second round of the commercial weather data pilot program. If 
confirmed, I look forward to overseeing this program. Radio Occultation 
data has proven an important observing system and its data feeds into 
our numerical weather models.

    Question 16A. Further, if the commercial weather satellite data 
pilot program continues to prove unsuccessful, how would you suggest 
using the money allocated for that program in a more effective manner?
    Answer. The Weather Act provides specific funding for the 
commercial weather data pilot program for the next four years. As this 
program continues, it will be important to monitor its progress and 
make further decisions at the appropriate time.

    Question 17. The CDARS program within NESDIS supports the space-
based components of both the Argos and the Search and Rescue Satellite 
Aided Tracking Systems (SARSAT). However, the existing constellation of 
satellites supporting the Argos and SARSAT systems is operating well 
past its design life. It is necessary to fully fund the CDARS program 
to deliver updated Argos and SARSAT instruments into space by 2021, but 
the President requested only $500,000 for the program -a miniscule 
amount compared to the $49 million needed to run the program. Without a 
substantial increase in funding, we are in danger of major coverage 
gaps for the Argos and the SARSAT systems. How do you plan to mitigate 
these gaps in the face of a severely reduced budget?
    Answer. My understanding is that the President's Budget Request for 
Fiscal Year 2018 provides funding for the CDARs program. The CDARs 
program provides an important mission for NOAA, and I look forward to 
working with you to continue this program.

    Question 18. Scientific literature states national marine 
sanctuaries and other protected areas are essential to maintaining the 
health of the oceans. This includes the health of fish populations that 
American fisheries depend upon. Even though all of the United States' 
marine sanctuaries, monuments, and other protected areas make up less 
than 1 percent of the EEZ, these areas have been singled out by the 
current administration to open them up to oil and gas development--an 
activity that has repeatedly proven to be detrimental to the 
environment. In addition, opening up marine sanctuaries to oil and gas 
development is in direct contravention of the extensive public review 
process where local stakeholders determine which activities are allowed 
to occur in their sanctuaries. If confirmed, what will you do as NOAA 
Administrator to maintain the size and integrity of the U.S.' existing 
marine protected areas?
    Answer. If confirmed, I will uphold the statutory responsibilities 
of the agency. I understand that marine protected areas provide 
significant ecological and economic benefits. I will support the 
transparent, and inclusive processes to establish such areas through 
the essential fish habitat protocols in the Magnuson-Stevens Act and 
the National Marine Sanctuaries Act.

    Question 19. Two new sites--Wisconsin-Lake Michigan and Mallow Bay-
Potomac River (MD)--are in the public process for being considered 
sanctuaries. Both sites were nominated and supported by Republican 
governors in partnership with their local communities with strong 
letters of bipartisan support. Will you support the current community-
driven efforts to expand sanctuaries and designate new ones to conserve 
critical natural, cultural, and historic resources for future 
generations?
    Answer. I understand that the pending sites are going through the 
proper rulemaking procedures. If confirmed, I will support the National 
Marine Sanctuaries Program and those local communities interested in 
expanding it.

    Question 20. NOAA has a role in the Department of Interior's 
offshore oil and gas leasing decisions. How will you ensure that, in 
the face of pressure from the administration to fulfill the directives 
under Executive Order 13795, NOAA applies the highest scientific 
standards and takes into account the most accurate and up-to-date 
scientific information available on the impacts of seismic and oil and 
gas activities on marine mammals, habitat, and fisheries in its 
permitting decisions?
    Answer. I have previously stated and continue to affirm my 
intentions to adhere to NOAA's legal obligations with respect to its 
important role in conducting environmental review of offshore energy 
development. I also believe that more can be done to leverage the 
extramural research community, particular in areas such as underwater 
acoustic impacts on marine life. If confirmed, I look forward to making 
progress in this area.

    Question 21. In response to Question C.3 on your Committee 
Questionnaire, you stated that ``AccuWeather has been involved in 
routine civil and administrative actions, such as contracts disputes 
and employee claims for unemployment compensation, workers 
compensation, and other personnel matters.'' The response did not, 
however, provide any detail on the substance of these actions. On 
February 23, 2017, Bloomberg reported that the Department of Labor 
brought an administrative action against AccuWeather (OFCCP v. 
AccuWeather, Inc., Dep't of Labor A.L.J. No. 2017-OFC-11) alleging that 
AccuWeather, in its capacity as a government contractor, denied access 
to Department of Labor inspectors seeking data on a sexual orientation 
bias complaint. Please provide a copy of the complaint, any responses 
filed by AccuWeather, and a detailed summary of the current status or 
disposition of this case.
    Answer. This is a matter working through a legal process. As such, 
I am not in a position to comment on or provide disclosures from the 
company. I can state that the government was not denied access, rather 
there was a jurisdictional dispute that had to first be resolved. Once 
that was resolved they were given full cooperation. I can also state 
that AccuWeather has denied any liability in this case. The case is not 
yet resolved. AccuWeather is proud of its LBGTQ policies and related 
positive actions and support which go back many decades.

    Question 22. How have you handled any allegations of workplace 
harassment as CEO of AccuWeather? NOAA has recently ordered the Ship 
Reuben Lasker to return to port immediately to initiate an 
investigation into allegations of inappropriate harassing behavior 
aboard the ship. If confirmed, how would you handle an investigation of 
this nature as the Administrator of NOAA?
    Answer. Such complaints are handled by the company's Human 
Resources Department and General Counsel's office. In my past role as 
General Counsel I did handle such complaints. Such situations are 
inappropriate and have no place in the workplace. Clear policies and 
swift action are needed. I will fully implement Subtitle C-Sexual 
Harassment and Assault Prevention at the National Oceanic and 
Atmospheric Administration S. 2943.

    Question 23. The Southeast Fishery Science Center in Florida has 
experienced recurring coastal flooding problems in recent years. This 
flooding is only likely to get worse over time, as a result of 
increasing sea level rise. Most recently, the Center incurred $1.3 
million in damage as a result of Hurricane Irma and will require 
significant repairs to become fully operational once more. Given the 
important role it plays in the sustainable management of fisheries off 
Florida's coasts, what, in your view, is the long-term solution to the 
coastal flooding problems Florida's Southeast Fishery Science Center 
faces?
    Answer. I share your concern about damage to NOAA's facilities as a 
result of sea level rise and also this year's hurricanes, and improving 
the resilience of NOAA's coastal infrastructure. I am not familiar with 
the specific circumstances of the Southeast Fishery Science Center but, 
if confirmed, I will be interested in working with you on solutions.

    Question 24. Despite having the second longest coastline in the 
U.S., no NOAA research vessels are homeported in Florida. This absence 
severely limits NOAA's research and operational capabilities. Recently, 
the Senate Commerce Committee voted to pass S. 1129, which requires 
that NOAA complete a strategic plan for the construction or acquisition 
of the facilities needed to allow for an oceanographic research vessel 
to be homeported in St. Petersburg, Florida. In light of this, if 
confirmed, would you direct NOAA to homeport a new, existing, or 
reactivated research vessel in St. Petersburg, Florida?
    Answer. I am aware of the Final Report of the NOAA Independent 
Review Team on NOAA Fleet Recapitalization (October 1, 2016) and 
personally met with the co-chair, Dick West, RADM, United States Navy 
(ret). I understand there is a large amount of oceanographic expertise 
in Florida, including the University of South Florida in St. 
Petersburg. Consequently, I will consider homeporting a research vessel 
there, should that be a consideration in the strategic plan.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            Barry Lee Myers
Oil Spills
    Question 1. The National Oceanic and Atmospheric Administration 
(NOAA) has a leading role under the Oil Pollution Act of 1990. What do 
you envision NOAA's role is before, during, and after an oil spill 
occurs?
    Answer. NOAA's programs have important responsibilities with 
respect to oil spill response. Prior to a spill, NOAA conducts 
environmental review under several different authorities including the 
Endangered Species Act, Marine Mammal Protection Act, and Magnuson-
Stevens Act (for essential fish habitat). During a spill, NOAA assists 
with projecting the trajectory of the spill, declaring fishery 
disasters, and advising on impacts of various response strategies with 
respect to trust natural resources. After the spill, NOAA assists with 
the Natural Disaster Response Assessment. If confirmed, I will maintain 
these and other required roles with respect to the Oil Pollution Act 
and related statutes.

    Question 2. Commerce Secretary Ross is still a shareholder in 
Diamond S. Shipping Group, as well as other shipping companies. Diamond 
S. Shipping operates 33 medium range tankers that move petroleum and 
other products between international ports. In Secretary Ross' current 
position he plays a role in a number of key oil spill response 
activities including damage liability determinations. Do you think 
Secretary Ross has a conflict of interest due to his ownership of 
Diamond Shipping and the authorities granted to him under the Oil 
Pollution Act of 1990? Do you think Secretary Ross should recuse 
himself from all oil spill related Commerce business? What will you do 
to ensure NOAA's oil spill activities are kept separate from the 
Secretary's office?
    Answer. I am not aware of the specific circumstances of the Diamond 
S. Shipping Group. It is always important to avoid conflicts of 
interest.
Pacific Coastal Salmon Recovery Fund and Bristol Bay, Alaska
    Question 3. Healthy salmon populations are critical to our economy 
and culture in Washington State, and throughout the Pacific Northwest. 
Today, there are 28 salmon stocks listed under the Endangered Species 
Act in Washington, Oregon, California and Idaho. A critical program in 
supporting the Pacific salmon fishery is the Pacific Coast Salmon 
Recovery Fund. The Trump Administration's proposed budget would have 
completely eliminated the fund. Do you support eliminating funding for 
the Pacific Coast Salmon Recovery Fund? Why or why not? If you support 
elimination of this funding what is your specific plan to ensure NOAA's 
continued support of protecting, restoring, and conserving Pacific 
salmon and steelhead? Do you generally support funding for salmon 
management and restoration? How will you ensure that NOAA meets its 
obligation to treaty tribes with salmon fishing rights if funding is 
cut?
    Answer. I do support funding for salmon management and restoration. 
I appreciate the economic and cultural benefits that salmon provides 
and while a good program, the PCSRF was indeed targeted for elimination 
in the FY2018 budget request and was targeted for elimination in a 
previous budget under President Obama before subsequent amendment. As 
Secretary Ross testified, the current budget environment requires a 
line to be drawn somewhere, and unfortunately several quality programs 
including PCSRF fell below the line. If confirmed, I look forward to 
learning more about the program and other opportunities to protect, 
restore and support salmon habitat in the development of future budget 
requests.

    Question 4. A 2014 assessment by the EPA found that the proposed 
mine poses a direct threat to the $1.5 billion Bristol Bay sockeye 
fishery and the over 20,000 American jobs that it supports. Do you 
support the Pebble Mine? How would the proposed Pebble Mine impact the 
fisheries that NOAA manages?
    Answer. I understand that Bristol Bay may be the world's most 
productive fishery, with over 40 million sockeye salmon returning to 
Bristol Bay's rivers every year. I support a transparent inclusive 
environmental review based on the best available information. The 
threats to essential fish habitat should be considered and I will 
support NOAA's role in that process.

    Question 5. The Trump Administration's budget also proposes 
slashing funding for fisheries, science, and management by $24.5 
million. This funding provides support for reef fish stock assessments, 
cooperative research for fisheries data collection, the National Catch 
Share Program, and interjurisdictional fisheries grants. During your 
nomination hearing and in your pre-hearing answers, you said you 
support President Trump's FY 2018 NOAA Budget proposal. How will NOAA 
be able to make science-based fishery management decisions without 
adequate funding for stock assessments? Why do you support these cuts? 
If you support these cuts what is your specific plan to ensure NOAA's 
ability to conduct stock assessments will not be compromised?
    Answer. Stock assessments are the lifeblood of our fishery 
management system and have been supported by industry, environmental 
groups and both sides of the aisle in Congress. Given an overall 
allocation that reduces NOAA by 16 percent, I view the comparatively 
low 4-5 percent reduction as an indication that the Administration 
supports fishery science and management. If confirmed, stock 
assessments will continue to be a top priority and it will need to be 
managed within the budget challenges.
Fisheries
    Question 6. Do you support our Nation's conservation laws, 
including the Magnuson-Stevens Fishery Conservation and Management Act, 
Endangered Species Act, Marine Mammal Protection Act, Coastal Zone 
Management Act, and the National Marine Sanctuaries Act?
    Answer. Yes.

    Question 7. Do you commit to carry out NOAA's statutory 
responsibilities implementing all of those laws?
    Answer. Yes.

    Question 8. Do you believe that conservation under those laws are 
part of NOAA's core mission and core responsibilities and is worthy of 
fully funding?
    Answer. Conservation is a core mission of NOAA, and one that is 
shared with states and localities. If confirmed, I would continue to 
support NOAA's conservation programs within the appropriated funding 
levels.

    Question 9. If others in the administration ever proposed actions 
that violated any of these laws (like overfishing in violation of the 
Magnuson-Stevens Act), how would you react? What specific steps would 
you take to meet NOAA mandates under the Magnuson-Stevens Act?
    Answer. If confirmed I would uphold the spirit and intent of the 
Magnuson-Stevens Act and I would advise others of the responsibilities 
as NOAA sees them.

    Question 10. Do you agree that overfishing should never be allowed?
    Answer. Ending overfishing is one of the main goals of the 
Magnuson-Stevens Act and I support that law.

    Question 11. Do you agree that depleted fisheries should be 
rebuilt?
    Answer. The Magnuson-Stevens Act requires that fisheries be rebuilt 
and I support that law.

    Question 12. Do you agree that fisheries management decisions 
should be based on the best available science?
    Answer. Yes, as per national standard 2.

    Question 13. Will you commit to opposing ANY actions that would 
undermine these core conservation principles of the Act?
    Answer. If confirmed I would uphold the spirit and intent of the 
Magnuson-Stevens Act.
Fisheries Enforcement
    Question 14. Over the past decade the number of Mexican lanchas 
illegally fishing for U.S. target species, such as red snapper, has 
exponentially increased. Illegal fishing along the U.S. Mexico border 
costs the United States over $11 million in revenue each year. In 2013 
and 2014 combined, 1,525,715 lbs of red snapper was poached from U.S. 
waters by Mexican lanchas. The Coast Guard has the responsibility to 
board and interdict these vessels. However, once interdicted any 
determinations to document the case or pursue civil penalties against 
the mariners solely resides with NOAA. Historically, NOAA has chosen 
not document or pursue civil penalties against these mariners. 
Additionally, the Department of Justice will only pursue criminal 
penalties against these mariners if there is a documented history of 
illegal fishing. Why isn't NOAA documenting or pursuing civil penalties 
against mariners who are illegally fishing targeted species in U.S. 
waters? Current actions are clearly not effectively deterring illegal 
fishing in our waters. What is your plan to fix this?
    Answer. I share your concern about this poaching and how it is 
impacting our ability to sustainably manage our fisheries. These 
illegal landings hurt not only our commercial fishermen, who then have 
to compete with cheaper fish on the marketplace, but also our 
recreational fishermen whose seasons are limited as we attempt to 
rebuild the stocks that have been illegally depleted.
    I am not aware of why NOAA has not pursued documenting and pursuing 
penalties. I will keep you informed as I investigate opportunities, 
including enforcement, port restrictions and trade sanctions, to 
curtail these incursions on our commerce. I look forward to working 
with Congress to level the playing field for our domestic commercial 
sector while also improve access for our recreational fishermen.

    Question 15. In the 2018 NOAA Blue Book, NOAA requested a one 
million dollar reduction in funding for fisheries enforcement. NOAA is 
already struggling to take appropriate actions to deter illegal 
fishing. How will you be able to reduce illegal fishing without 
adequate funding to support this mission?
    Answer. I share your concern regarding fisheries enforcement. I am 
not aware of the basis for the reduction. If confirmed, I will look for 
opportunities to leverage partnerships with other agencies and develop 
and deploy new technologies that could reduce the cost of enforcement.
The National Weather Service
    Question 16. This year the United States is enduring one of its 
most costly years for extreme weather--a near-record 16 billion-dollar 
weather disasters have ravaged the Nation. Compounding these effects 
are the obstacles the National Weather Service has faced trying to fill 
a growing number of vacant forecaster positions. There are currently 
nearly 700 unfilled positions at the National Weather Service and a 
report from the Government Accountability Office showed staff vacancies 
increased 57 percent from 2014 to 2016. In addition, the Trump 
Administration proposed a 6 percent cut in funding to the National 
Weather Service and prevented 216 jobs from being filled prior to the 
2017 hurricane season due to a government wide hiring freeze. What is 
your plan to restore staffing to adequate levels? Do you support these 
proposed budget cuts or types of hiring freezes? How will you be able 
to restore staffing with these obstacles?
    Answer. I understand there are vacancies throughout the agency, but 
NWS appears to be the most challenged in this regard. If confirmed, I 
will take into account the recent National Weather Service Operations 
Workforce Analysis (OWA) performed by McKinsey & Co. and identify the 
cause of these delays, and the most efficient process to mitigate them 
in the future. Additionally, if confirmed, I will ensure we recruit, 
hire, train, and retain a robust and highly skilled workforce that can 
most effectively accomplish the NOAA mission and within the budget 
limits as appropriated by Congress.

    Question 17. Reliable, accurate, and publically available weather 
modeling and forecasts are critical in saving lives and protecting our 
country's infrastructure. I am concerned that we continue to rely on 
the European model during extreme forecasts. Even the nightly news 
compares the ``U.S. model'' to the European one. In your role at NOAA 
what is your plan to bring U.S. weather prediction and forecasting up 
to the level it needs to be to protect Americans?
    Answer. NOAA's weather models have been bested in many 
circumstances by other models in the world, most notably the European 
weather model. To improve NOAA's numerical weather prediction 
capabilities, we must ensure that we are focusing the appropriate 
resources toward making substantial improvements. I believe the Weather 
Research and Forecasting Innovation Act provides a framework for the 
United States to substantially enhance our focus on improving weather 
models and forecasts, including research-to-operations, outreach to 
harness the innovations occurring at universities and within private 
industry. I am committed to making America's work in this area, second 
to none.

    Question 18. There is a significant gap in Doppler radar coverage 
in Central Washington state. This gap presents a number of challenges, 
including restricting first responders ability to accurately forecast 
and respond to wildfires in the region. What can NOAA do to help close 
this gap in Doppler coverage in Central Washington?
    Answer. If confirmed, I will work with the Committee to explore the 
ways we can address these gaps in coverage. Gaps in radar coverage are 
well known and are problematic, not just from the aspect of beam 
overshoot, which can miss low-level phenomena like tornadic 
circulation, snow and sleet (all of which can be missed within the 
radar beam radial sweep), but also from general topographic blocking in 
mountainous terrain. Additional radars, managed by local TV stations 
and airports, do exist. Whether or not they are able to fill the gaps 
or are able to provide data to the quality and reliability that is 
needed would be something that should be explored. There may also be a 
need in industry to have radar data for purposes beyond protection of 
life and property of the general public. Public-private partnerships 
and possibly shared-cost models might be an option. Additionally, there 
may be non-radar related sampling and observing methods to mitigate 
some of these issues. If confirmed, I would employ an approach to 
assess all reasonable and appropriate options to eliminate the gaps 
that leave taxpayers exposed to severe weather threats.

    Question 19. Do you view the National Weather Service 
supercomputing capacity as sufficient for both NWS and OAR activities? 
Why or why not? How does this capacity compare to our international 
counterparts?
    Answer. The NOAA HPC resources are less than both UKMO and ECMWF. 
Additionally, whereas ECMWF and UKMO only focus on their global 
modelling system, NWS runs a broad suite of models from space weather 
to global to tropical and regional models.

    Question 20. Do you support climate modeling and forecasting? Do 
you support budget cuts to climate programs in NOAA, and throughout the 
Administration?
    Answer. I support research in climate change causation and 
prediction. In difficult budgetary situations, we must look to ensure 
funding for many programs under NOAA's portfolio. While some programs 
have received reduced growth or reductions compared to recent years, it 
is my intent to continue the research of all NOAA portfolio areas, 
including climate programs.
Conflicts of Interest
    Question 21. You stated that you, ``Will not participate personally 
and substantially in any particular matter that to your knowledge has a 
direct and predictable effect on your spouse's compensation or 
employment with AccuWeather.'' How can you effectively perform the job 
of Under Secretary while also having to remove yourself whenever the 
issue at hand could potentially impact the financial holdings of your 
family?
    Answer. My spouse will be resigning from the company simultaneously 
with me and therefore such conflict will be eliminated. I will follow 
the advice and guidance of the ethics officials from the Department of 
Commerce/NOAA to ensure that I comply with all ethics laws and 
regulations.

    Question 22. Once a political appointee is confirmed, the recusal 
processes relies heavily on self-accountability. How will you ensure 
transparency with the public and Congress when potential conflicts of 
interest arise? Will do you document your recusals or conflicts of 
interest that arise and make them available immediately to Congress?
    Answer. I will rely upon the guidance from the Office of Government 
Ethics or other agencies with jurisdiction for their guidance. I will 
follow the advice and guidance of the ethics officials from the 
Department of Commerce/NOAA to ensure that I comply with all ethics 
laws and regulations.

    Question 23. The fact that your brother can still stay in senior 
management at a private weather company, while you hold a top position 
that oversees the public National Weather Service, and those two 
positions are perfectly compatible, is troubling to say the least. How 
and what is your specific plan to divest from issues within NOAA that 
might bring about financial gain to your wife, not to mention issues 
that would benefit your brother? Can you explain to me how you can 
serve the American people competently while also having to maintain 
impartiality?
    Answer. As mentioned above, my wife will be leaving the company 
when I do. No one person can dissolve all personal relationships when 
they move from the private sector to the public sector--friends and 
relatives. Many successful people in business have deep relationships 
across a variety of businesses and industries. That does not mean they 
cannot serve. There are Federal statute and guidelines as to conflicts 
and recusals. Quality people of character should be expected to comport 
with dignity and appropriate decorum. I will follow the advice and 
guidance of the ethics officials from the Department of Commerce/NOAA 
to ensure that I comply with all ethics laws and regulations.

    Question 24. Do you have any intention of returning to AccuWeather 
after serving as the Under Secretary of Commerce for Oceans and 
Atmosphere?
    Answer. No.
Budget
    Question 25. This year NOAA awarded $1.4 million in Coastal 
Resilience Grant funding to the Washington Department of Fish and 
Wildlife. In your answers to my pre-hearing questions you responded 
that you supported the Trump Administration's 16 percent cut to the 
NOAA budget. The proposed cuts include complete elimination of the 
Coastal Resilience Grant Fund. Why do you support termination of the 
Coastal Resilience Grant Program, a program that directly supports 
efforts to protect life and property from coastal hazards? What is your 
plan to ensure NOAA will continue to support states' participation in 
the National Coastal Zone Management program? How will you be able to 
enact your plan without adequate funding?
    Answer. If confirmed as Administrator, it would be my role to 
understand the valuable programs that NOAA employs and set priorities 
for those that are central to NOAA's core mission. One factor to 
consider when formulating a budget is the ability to offset cuts 
through partnerships with state and local governments or external 
groups. If confirmed, I would be an advocate for working with the 
Administration and Congress to support adequate funding to meet NOAA's 
mission needs.

    Question 26. The President's Budget would also result in complete 
elimination of the John H. Prescott Marine Mammal Rescue Assistance 
Grants program. I introduced a bill last Congress that reauthorizes the 
grant program. My bill had bipartisan support. This is the only Federal 
funding source for the stranding network. NOAA's FY18 Blue Book states 
``Eliminating funding for this program will also decrease data and 
resources from the stranding network, which helps NOAA establish links 
between marine mammal health and the condition of coastal ecosystems.'' 
Why do you support the termination of a grant program, like the 
Prescott Marine Mammal Rescue Grant program, that is noncontroversial 
and has bipartisan congressional support? How will NOAA be able to 
carry out its mission ``to conserve and manage coastal and marine 
ecosystems and resources'' without this critical funding?
    Answer. Given the budget allocation, certain valuable programs, 
including the Prescott Marine Mammal Rescue Assistance Grants, fell 
below the line of programs that the agency could afford. I look forward 
to learning more about these priorities to help inform future budget 
requests.

    Question 27. In your role as Under Secretary of Commerce for Oceans 
and Atmosphere you will be charged to make decisions and act in the 
best interest of the public and NOAA. Your unwavering support for the 
Trump Administration's unprecedented 16 percent cut to NOAA in the 
Fiscal Year 2018 budget does not indicate to me that you are in support 
of what is best for NOAA. Under the President's proposed budget there 
are offices within NOAA which would be subjected to over a 30 percent 
cut. What will you do in you role as the Under Secretary to prevent 
NOAA from being whittled away and advocate for funding? How will you 
convey to the Administration that adequately funding NOAA is a 
paramount priority and in the best interest of the public?
    Answer. If confirmed as Administrator, it would be my role to 
understand the valuable programs that NOAA employs and set priorities 
for those that are central to NOAA's core mission. One factor to 
consider when formulating a budget is the ability to offset cuts 
through partnerships with state and local governments or external 
groups. If confirmed, I would be an advocate for working with the 
Administration and Congress to support adequate funding to meet NOAA's 
mission needs.
Ocean Acidification
    Question 28. In Washington state, shellfish populations plummeted 
about a decade ago, putting thousands of family wage jobs at risk. 
Luckily, NOAA, UW and OSU scientists determined that ocean 
acidification was impacting juvenile oysters, and developed solutions 
to mitigate that impact, saving an industry in my state. Without NOAA's 
scientists, it's entirely possible that Washington's shellfish industry 
and thousands of jobs would have been wiped out before we even knew 
what was happening. Do you agree that ocean acidification is happening, 
and that it's a real problem? Do you support ocean acidification 
research and Federal support for ocean acidification monitoring in the 
IOOS network, including NANOOS?
    Answer. Ocean acidification is being measured and is a problem, 
particularly at higher latitudes where it has impacted the shellfish 
industry. I support ocean acidification research and leveraging the 
IOOS regions and assets to advance monitoring and forecasting.

    Question 29. Do you agree that ocean acidification poses an active 
economic threat to coastal communities across the U.S.?
    Answer. Yes, there have been recorded impacts of acidification on 
the shellfish industry.

    Question 30. Do you support the work of the NOAA Ocean 
Acidification Program as authorized under the Federal Ocean 
Acidification Research and Monitoring (FOARAM) Act?
    Answer. Yes.
Revitalizing the Economy of Fisheries in the Pacific Act
    Question 31. The fishing industry is crucial to Washington state's 
coastal economy. Last Congress, I spearheaded the Revitalizing the 
Economy of Fisheries in the Pacific Act (Pacific REFI Act) which was 
intended to put fishing businesses on a level playing field with other 
businesses receiving Federal loans. However, NOAA has not implemented 
the Act's provisions. Why hasn't NOAA implemented this Act? Do you 
think fishermen should receive the same interest rates on Federal loans 
as other businesses? Should there be barriers for them to refinance 
these loans to current rates? What will you do to afford groundfish 
fishermen the flexibility they need to grow their businesses and help 
spur economic activity in communities all along our coast? Will you 
supply the technical support required to fully implement the REFI 
Pacific Act? If so, when?
    Answer. I have been informed of the general aspects regarding the 
Pacific REFI Act and failure to implement it. My understanding is that 
NOAA issued a proposed rule on August 6, 2015 to refinance the loan; 
however, it required an appropriation to implement. I share your belief 
that fishermen should be able to have comparable access to financial 
markets. I am not aware of the reasons why the technical support you 
referenced has not been provided but, if confirmed, I will place a high 
priority addressing the matter.
Mukilteo Fisheries Research Station
    Question 32. The current Mukilteo Fisheries Research Station in 
Washington has been at the forefront of marine research in the Pacific 
Northwest for decades. In its current state the facility is nearly 
unusable with rusted walls, rotting ceilings, and a sinking foundation, 
and is in need of major repair. The facility has been condemned, yet is 
still used by a handful of scientists who need access to laboratory 
facilities. Do you agree that NOAA has an obligation to maintain this 
and other similar facilities? Can you promise me that you'll advocate 
for much needed funding for this NOAA research facility?
    Answer. I share your concern that NOAA's scientists should have the 
tools needed to successfully execute its mission, including habitable 
research facilities. If confirmed, I commit to working with you to find 
solutions to this and other matters pertaining to backlogged 
maintenance and repairs of NOAA facilities.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                            Barry Lee Myers
    Question 1. Marine Sanctuaries are a useful way to help preserve 
our natural resources and boost tourism. The 13 national marine 
sanctuaries encompass more than 600,000 square miles, including large 
areas on the Great Lakes. When exploring new potential sanctuary sites, 
it is important that towns and businesses near the proposed sanctuary 
get to provide feedback, especially when commerce or marine navigation 
could be affected. Mr. Myers, what steps would you take to ensure local 
viewpoints are considered in the Marine Sanctuary designation process?
    Answer. I agree that the National Marine Sanctuaries Program is a 
useful way to help preserve our natural resources and boost tourism. 
One of the reasons is the active role afforded to local communities 
with respect to their management. If confirmed, I would continue to 
support the program and role that State and local communities have with 
respect to the designation process to ensure their voices are heard.

    Question 2. The Port of Duluth is the largest port on the Great 
Lakes, hosting approximately 1,000 vessels and handling an average of 
35 million short tons of cargo per year. The port's continued success 
depends on the safe navigation of vessels. The National Oceanic and 
Atmospheric Administration (NOAA) operates the Physical Oceanographic 
Real-Time System (PORTS) service that provides real-time weather 
updates to mariners and promotes safe and efficient navigation within 
U.S. waters. Mr. Myers, will you commit to support NOAA's PORTS 
service?
    Answer. Yes, if confirmed, I will continue to support the PORTS 
program. I understand the data provided by this program increases the 
safety and efficiency of the participating ports.

    Question 3. What role do you believe NOAA plays in promoting 
maritime safety and efficiency?
    Answer. There are several programs within NOAA that have an 
important role in supporting maritime safety and efficiency. In 
addition to PORTS, NOAA is responsible for maintaining accurate 
hydrographic maps. Naturally, the maritime forecasts provided by the 
National Weather Service are of great importance to the mariners. If 
confirmed, I will continue to support these and other important roles.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                            Barry Lee Myers
Ethics
    Question 1. Have you signed an ethics agreement in relation to the 
position for which you have been nominated?
    Answer. Yes.

    Question 2. Who is charged with enforcing your ethics agreement?
    Answer. This is a legal question under Federal law which I am not 
qualified to answer. I will follow the advice and guidance of the 
ethics officials from the Department of Commerce/NOAA to ensure I 
comply with my ethics agreement.

    Question 3. What are the ramifications for failure to comply with 
the divesture deadlines in your ethics agreement?
    Answer. This is a legal question under Federal law which I am not 
qualified to answer. I will follow the advice and guidance of the 
ethics officials from the Department of Commerce/NOAA to ensure I 
comply with my ethics agreement.

    Question 4. Do you have any family members that work at 
AccuWeather? If so, please list any spouse, sibling, child and step-
child who is employed by AccuWeather, Inc. or affiliated entities.
    Answer. My wife Holly Myers, and my brothers Joel N. Myers and Evan 
A. Myers.

    Question 5. In your prepared testimony to the Committee, you state, 
``I have agreed with the Office of Government Ethics that my wife and I 
will resign from every company, board and organization that could be in 
conflict with my new role.'' Where is your wife's agreement 
memorialized?
    Answer. I do not know that there is specific memorialization in a 
document, but I have pledged that this will occur.

    Question 6. In your ethics agreement, you state, ``I will not 
participate personally and substantially in any particular matter that 
to my knowledge has a direct and predictable effect on my spouse's 
compensation or employment with AccuWeather, Inc.'' Can you affirm that 
your wife will resign from AccuWeather, Inc. immediately upon your 
confirmation, if confirmed?
    Answer. Yes. My wife will resign from AccuWeather coincident with 
my date of resignation. I will follow the advice and guidance of the 
ethics officials from the Department of Commerce/NOAA to ensure I 
comply with my ethics agreement.

    Question 7. Please list the company, board, and organization 
positions where your wife holds a position that she will resign, per 
your written testimony.
    Answer. My wife holds the position of ``Manager of Executive 
Projects'' for AccuWeather, Inc.

    Question 8. Are there any laws related to conflicts of interest 
that prevent you from working on interests that benefit your brother? 
If so, please list them.
    Answer. This is a legal question under Federal law which I am not 
qualified to answer. I will follow the advice and guidance of the 
ethics officials from the Department of Commerce/NOAA to ensure I 
comply with my ethics agreement.

    Question 9. Are the interests of your brothers imputed to you under 
Federal ethics laws?
    Answer. Not to my knowledge. The relationship has been disclosed to 
the Office of Government Ethics and there has been no indication of any 
such issue. I will follow the advice and guidance of the ethics 
officials from the Department of Commerce/NOAA to ensure I comply with 
my ethics agreement.

    Question 10. Should the interests of your brothers be imputed to 
you?
    Answer. Not to my knowledge. I will follow the advice and guidance 
of the ethics officials from the Department of Commerce/NOAA to ensure 
I comply with my ethics agreement.

    Question 11. Will you seek any ethics waivers during your tenure? 
If so, please list any waivers you will seek.
    Answer. None of which I am currently aware. I will follow the 
advice and guidance of the ethics officials from Department of 
Commerce/NOAA and if a waiver is necessary, I will make the waiver 
publically available.

    Question 12. Are you subject to any exemptions from ethics laws 
that allow you to work on matters that affect AccuWeather? If so, 
please list any exemptions.
    Answer. None of which I am currently aware.
Privatization of NOAA services
    Question 13. Are you familiar with the Weather Service Duties Act, 
S. 786, as introduced in the 109th Congress?
    Answer. Yes.

    Question 14. Did you support this legislation, as introduced?
    Answer. I supported this in principle (see explanation of the 
issues below).

    Question 15. Did you engage in any lobbying efforts for this 
legislation?
    Answer. I do not recall if the company engaged a lobbyist at that 
time or not.

    Question 16. Did you take any steps to advocate for this 
legislation? If so, please specify what actions you took.
    Answer. I was interviewed by the press and others as to the 
background of the issues related to the legislations (see explanation 
as to the issues below)

    Question 17. Would the Weather Service Duties Act have incurred a 
financial benefit on AccuWeather, Inc.?
    Answer. It would have maintained the status quo as existed in the 
1991 NWS policy.

    Question 18. Has your view on this legislation changed since its 
introduction? If so, please explain how your view has changed.
    Answer. The situation more than half a generation ago was much 
different than today. By way of brief background, it was in fact the 
NOAA policy from 1991, published in the Federal Register, that itself 
stated ``NWS will not compete with the private sector when a service is 
currently provided or can be provided by commercial enterprises, unless 
otherwise director by applicable law.'' It was this policy that NOAA 
revoked in 2003. The National Research Council in its Fair Weather 
Report in 2003 states that House and Senate reports regularly 
admonished the NWS to avoid competing with the private sector. In 
January 2004 both houses of Congress were concerned about this issue to 
the extent that they placed the following language in the joint 
appropriation report, ``The conferees urge NOAA and NWS to take maximum 
advantage of capabilities and services that already exist in the 
commercial sector to eliminate duplication and maximize the 
accomplishment of the core mission of the NWS.'' It was following those 
concerns that S 786 was introduced to place the 1991 NOAA Policy, then 
recently revoked, back into law. It did not move forward, but the 
government and weather industry have now spent a decade working well 
together, in large part through my leadership, to have the best weather 
information sources to the public of any county on Earth. I have always 
supported the free and open access of all government weather data to 
the public--both private citizens and businesses alike--through uniform 
release mechanisms to everyone at the same time so that no one person 
or business had any advantage. I continue strongly to support that 
position.
Consumer protection
    Question 19. Are you familiar with the website 
nationalweatherservice.org?
    Answer. Yes.

    Question 20. What would one find at that website?
    Answer. The link should go to Network Solutions, the domain name 
provider.

    Question 21. Does AccuWeather own the rights to 
nationalweatherservice.org?
    Answer. Yes. (see explanation below).

    Question 22. Can you explain the rationale for a website named 
nationalweatherservice.org directing consumers to a for-profit 
enterprise controlled by your family, instead of to the National 
Weather Service, which is a government service that provides 
information relatively free?
    Answer. AccuWeather has never posed as a government entity, in fact 
it has the strongest weather brand in the world. Its website is also 
free to the public. At the outset of the Internet in the 1990s all 
companies, usually through their technical service and computer 
departments, and many government agencies, scrambled to create and 
secure domain names that they thought would be important. It was 
somewhat the ``wild west'' and many people went to significant lengths 
to secure variations of words and names. Additionally, there were at 
the start of the Internet only four domains .com, .net, .gov, and .edu. 
Back then the .gov designation was for government sites, and the other 
domains were for others to use. Additionally, many URLs and brand or 
trademarks did not align. Now, in 2017, there are an unlimited number 
of domains. As a result, there are now dozens of 
``nationalweatherservice'' domains currently in use or available for 
sale on the internet, such as ``nationalweatherservice.network.'' These 
are totally unrelated to AccuWeather or the National Weather Service, 
and the number will only be expected to grow. I was not CEO in the 
1990s and at that time and did not always know about the many URL 
domains we had. However, on January 3, 2003, upon the request of the 
NWS, I was informed of this and required the servers at AccuWeather be 
changed so that ``nationalweatherservice.org'' would no longer point to 
an AccuWeather site, and it was ``mothballed,'' in cooperation with NWS 
and as NWS has requested. In 2005 I was advised by the NWS that the URL 
was functional again and ordered it terminated again. Until your 
question, it was assumed that continued to be the case. However, upon 
inquiry this week, it was discovered that on or about June 20, 2016 the 
company made server upgrades which updated all of our Domain Name 
Servers. This inadvertently reactivated the mothballed domain. It has 
again been ordered to be inactivated. Such non-prompted domains usually 
generate little or no traffic. Although these actions under the 
Internet domain registration protocols were permissible, AccuWeather 
was responsive and cooperative with NWS when the issue was raised. In 
fact AccuWeather has always worked well with the NWS as to intellectual 
property concerns. For example, two years ago the company licensed two 
important tornado warning observer reporting patents to NWS free of 
change for the good of the public. It seems that actions were not taken 
to protect the NWS brand or URL, as a company would have done, in the 
earlier days of the internet. This is an area I plan to have reviewed 
at NOAA, if confirmed.

    Question 23. Do you believe this is a fair and honest practice by 
the owner of nationalweatherservice.org to maintain a site that sends 
consumers to a business site?
    Answer. See above.
Mobile app tracking
    Question 24. In August, several organizations, including the 
Washington Post, detailed how consumers with an AccuWeather app were 
still being tracked on mobile devices even if they chose the ``opt 
out'' option to ensure their privacy. Did an AccuWeather app track 
consumers without their consent?
    Answer. This issue is currently under legal review to ensure 
compliance is at the appropriate levels and therefore I am not able to 
comment on the details of the matter. I can tell you that AccuWeather 
privacy disclosure policies I believe addressed and disclosed these 
issues and has since been strengthened to disclose even more about how 
mobile devices work. There have been some recent news stories that 
suggest many people do not realize that mobile devices themselves, 
unrelated to the software or apps, receive and transmit information 
even when people use the device ``opt out'' features. When the issue 
came to our attention we promptly disabled all known features and third 
party code we were able to tie to these issues.

    Question 25. Did AccuWeather or any AccuWeather vendor profit from 
the sale of location tracking information?
    Answer. Please see answer above.

    Question 26. What do you say to Americans concerned about your 
ability to run a significant agency when your company and one of its 
partners mishandled consumer privacy?
    Answer. Please see answer above. In addition, AccuWeather does not 
believe it has mishandled consumer privacy. I would add that NOAA may 
or may not know how these technical issues operate on mobile device and 
mobile websites and the agency may possibly have the same issues as 
private companies face. I will bring a cutting edge understanding of 
these issues and insure that NOAA is considering all such concerns as 
well.
Experience
    Question 27. You certainly are knowledgeable of weather. And NOAA 
has a big role to play in that area. But NOAA--the agency you have been 
nominated to lead--does much more than weather. NOAA handles many other 
areas that are critical to Connecticut. You note in your testimony that 
NOAA's budget is 60 percent ``weather components.'' Please list the 
``components'' to which you refer that support your statement, as some 
argue that the non-weather-related functions, which fall outside of 
your weather-related experience, are a much more significant part of 
NOAA's activities than what you contend.
    Answer. The budgets for NWS and NESDIS together make up roughly 60 
percent of NOAA's overall budget. NOAA budget allocation is a function 
of the cost of the programs, and does not necessarily reflect the 
relative importance and criticality of the non-weather-related 
functions to the taxpayers and U.S. economy.

    Question 28. NOAA has many responsibilities outside of weather-
related duties. Aside from your general familiarity with weather, what 
experience do you have in oceans policy?
    Answer. No one comes to this agency will full knowledge in all of 
its diverse areas, just as no CEO of a business comes to a business 
with full knowledge of all the diverse areas of a major company. If 
confirmed, I plan to ensure we have the executive and scientific 
leadership in all areas of the agency who bring the expertise to the 
decision making process needed in every area.

    Question 29. What experience do you have in fisheries policy?
    Answer. No one comes to this agency will full knowledge in all of 
its diverse areas, just as no CEO of a business comes to a business 
with full knowledge of all the diverse areas of a major company. If 
confirmed, I plan to ensure we have the executive and scientific 
leadership in all areas of the agency who bring the expertise to the 
decision making process needed in every area.

    Question 30. What experience do you have in coastal protection 
issues?
    Answer. No one comes to this agency will full knowledge in all of 
its diverse areas, just as no CEO of a business comes to a business 
with full knowledge of all the diverse areas of a major company. If 
confirmed, I plan to ensure we have the executive and scientific 
leadership in all areas of the agency who bring the expertise to the 
decision making process needed in every area.
NOAA budget
    Question 31. NOAA has an annual budget of about $5.5 billion. In 
May, the president released his proposal for next year's budget. That 
proposal cuts the resources of NOAA by nearly 16 percent--or $1 
billion. The funding will slash investments in weather modeling, 
forecasting, tsunami warnings, tornado detection, aquaculture and 
research. What steps have you taken to study the president's proposed 
budget for Fiscal Year 2018?
    Answer. I have read the NOAA Blue Book and have been briefed by the 
line offices at NOAA.

    Question 32. Are there any cuts in the president's proposed budget 
for Fiscal Year 2018 that you oppose?
    Answer. I support the President's budget and share Secretary Ross's 
belief that good programs were cut, as cuts needed to fall somewhere in 
light of the emphasis on areas such as national security. Should I be 
confirmed, I look forward to learning more about congressional 
priorities to help in the development of future budget requests.

    Question 33. Do you agree with the president's decision to cut 
funding for SeaGrant?
    Answer. I understand that SeaGrant is a valuable program that 
unfortunately fell below the line where tough decisions had to be made 
to fit within the budget allocation. See answer above.

    Question 34. Is it responsible to cut NOAA's budget in Fiscal Year 
2018?
    Answer. It is responsible for the President to put forward a budget 
that includes spending reductions given the difficult fiscal 
environment our Nation faces.
Business relationship with China
    Question 35. In 2014--by all reputable accounts--hackers, possibly 
in coordination with the Chinese government, broke into NOAA's network. 
It's clear they were there maliciously, they disrupted NOAA satellites 
for days, and they compromised key data used for weather forecasts, 
disaster planning, emergency management, aviation and shipping, and 
sought other kinds of ``environmental intelligence.'' What the Chinese 
were able to access was probably priceless--and their intrusion was 
very harmful to the United States. The following year, in 2015, your 
company, AccuWeather, announced a 20-year ``groundbreaking joint 
venture'' with the Chinese government, making AccuWeather the sole 
distributor of certain weather products in the country--as I understand 
this surpasses anything any other competitor, like the Weather Channel, 
has an agreement to do. Are you concerned about the 2014 incident and 
the extent to which some in China would go to hack NOAA?
    Answer. I am concerned with any hack of any government or private 
sector systems or servers. Such intrusions are dangerous and criminal. 
I have not been briefed on the 2014 incident, what data was hacked, or 
why. If confirmed, I will want to know what actions have been taken to 
ensure our critical NOAA servers and systems, and the related data, are 
secure.

    Question 36. What questions did you ask of your Chinese 
counterparts in your negotiations leading up to the 2015 deal?
    Answer. I did not personally ask specific questions about this 
incident as I did not have any detailed information about the incident. 
Our company did discuss computer security issues. We also sought and 
received assistance from our government including former and present 
Secretaries of Commerce, a former NOAA Administrator, and the U.S. 
Minister for Commercial Affairs of the U.S. Department of Commerce at 
the U.S. Embassy in Beijing, among others, who were well aware of the 
nature of the possible business relationship involved. Also please 
note, that the Chinese Meteorological Administration works 
cooperatively with our government and uses computer systems from 
American companies.

    Question 37. Are you confident your business counterparts had 
nothing to do with the 2014 hacking?
    Answer. See answer above.

    Question 38. How would you characterize your relationship with 
China today?
    Answer. AccuWeather has a Joint Venture there and the reports I 
have received indicate it is a good relationship.

    Question 39. Should Americans be concerned that your family's 
company has a close relationship with China, which could very well have 
been involved in efforts to hack an agency that you have been nominated 
to lead?
    Answer. No. See answers above.

    Question 40. Are you committed to preventing any similar hacking or 
cyber attacks ever happening to NOAA again?
    Answer. Yes. See answer to Answer 35 above.
Fisheries
    Question 41. NOAA oversees critical fishery management plans. 
Connecticut's fishermen rightly complain these plans are outdated and 
fail to reflect changes in fish stocks due to global warming, thus 
hurting Connecticut's fishermen. Do you agree that the existing quota 
system needs to be overhauled to better reflect the changing geographic 
distribution of fish stocks?
    Answer. I appreciate your concern with regards to black sea bass 
(and other species) migrating northward while much of the quota for the 
species remains in the hands of fishermen in the mid-Atlantic. I want 
to ensure we have sustainable, efficient and profitable commercial 
fisheries. If confirmed, I look forward to finding an equitable 
solution in accordance with MSA national standards.

    Question 42. Will you work to ensure that the fishery management 
measures you approve appropriately balance the need to promote 
conservation with the needs of fishermen in my state to make a living?
    Answer. Yes, to the maximum extent practicable, I will work to 
ensure that conservation and management measures are followed per the 
guidelines of National Standard 8 which take into account the 
importance of fishery resources to fishing communities.

    Question 43. You mention in your testimony the ongoing trade 
imbalance in this country. How do you plan to address this issue?
    Answer. I support implementation of the Seafood Import Monitoring 
rule to level the playing field for our domestic commercial fishermen 
and to ensure that imported seafood is legally caught and not 
misrepresented. If confirmed, I also plan to work with the NOAA's 
Office of Aquaculture to help promote a robust and sustainable domestic 
aquaculture industry and would like to achieve regulatory relief for 
fishermen working in sustainable fisheries.
Human-caused climate change
    Question 44. Do you agree with each of the following statements 
included in the U.S. Global Change Research Program's recent Climate 
Science Special Report?
    Question 44a. ``Human-caused climate change has made a substantial 
contribution to [sea level rise] since 1900, contributing to a rate of 
rise that is greater than during any preceding century in at least 
2,800 years.'' (page 10)
    Answer. Yes, I have stated that quality peer reviewed science such 
as was recently published in the CSSR, shows the anthropogenic 
component of climate change is contributing to sea-level rise.

    Question 44b. ``The magnitude of climate change beyond the next few 
decades will depend primarily on the amount of greenhouse gases 
(especially carbon dioxide) emitted globally.'' (page 11)
    Answer. I have stated that quality peer reviewed science such as 
was recently published in the CSSR, shows the anthropogenic component 
of climate change is in great measure the CO<INF>2</INF> contribution.

    Question 44c. ``There is broad consensus that the further and 
faster the Earth system is pushed towards warming, the greater the risk 
of unanticipated changes and impacts, some of which are potentially 
large and irreversible.'' (page 11)
    Answer. I do not dispute this finding.

    Question 44d. ``The world's oceans are currently absorbing more 
than a quarter of the CO<INF>2</INF> emitted to the atmosphere annually 
from human activities, making them more acidic (very high confidence), 
with potential detrimental impacts to marine ecosystems.'' (page 28)
    Answer. I do not dispute this finding.

    Question 44e. ``The rate of acidification is unparalleled in at 
least the past 66 million years.'' (page 28)
    Answer. I do not dispute this finding and note this quote in the 
report (same page) is quantified as ``medium confidence''. The report 
defines ``medium confidence'' as ``suggestive evidence (a few sources, 
limited consistency, models incomplete, methods emerging, etc.), 
competing schools of thought.''

    Question 44f. ``This assessment concludes, based on extensive 
evidence, that it is extremely likely that human activities, especially 
emissions of greenhouse gases, are the dominant cause of the observed 
warming since the mid-20th century. For the warming over the last 
century, there is no convincing alternative explanation supported by 
the extent of the observational evidence.'' (page 10)
    Answer. I do not dispute this finding.

    Question 44g. ``Many lines of evidence demonstrate that human 
activities, especially emissions of greenhouse gases, are primarily 
responsible for the observed climate changes in the industrial era, 
especially over the last six decades.'' (page 36)
    Answer. It is referenced in Chapter 3 (pages 116-119), that more 
than half of the warming since 1951, when using a 1901-1960 baseline, 
cannot be explained by our present understanding of natural 
variability.

    Question 44h. ``[T]here are no suggested factors, even speculative 
ones that can explain the timing or magnitude and that would somehow 
cancel out the role of human factors.'' (page 37)
    Answer. In the context of the full paragraph on page 37, which 
states that ``any explanations for the observed changes in climate must 
be grounded in understood physical mechanisms, appropriate in scale, 
and consistent in timing and direction with the long-term observed 
trends'', I would agree with this statement.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                            Barry Lee Myers
    Question 1. NOAA and the NWS provide impact based decision support 
services or IDSS to a wide range of stakeholders including federal, 
state and local government agencies and officials, emergency managers, 
schools and universities, hospitals, and other large institutions. Do 
we have your commitment to continue providing IDSS services to these 
partners who value them, and to maintain funding for them?
    Answer. The National Weather Service's impact-based decision 
support services (IDSS) are characterized by NWS as forecast advice and 
interpretative services NWS provides to core partners such as emergency 
personnel and public safety officials when there are special impacts. 
The program is built on working closely with those partners using 
science, technology and development of deep relationships with such 
core partners. Core partners also include members of the weather 
industry and the weather media who provide specialized services and 
public distribution of public and private information and also relates 
to the Weather Ready Nation initiative. This program operating 
philosophy was being further developed through public comment last year 
(2016). Accordingly, more experience and evaluation of the program in 
practice is needed to fine tune and target the program to develop the 
greatest value for the Nation from the program concept.

    Question 2. Please provide details of your divestiture plan.
    Answer. The plan is in process. A committee of AccuWeather outside 
Board Members has been appointed to facilitate a complete purchase of 
all interests in the company.

    Question 3. Will you pledge to disclose any meetings that you have 
AccuWeather representatives or agents regarding any official business 
during your tenure at NOAA, if confirmed?
    Answer. I will work out a method to track any one on one meetings I 
might have with AccuWeather executives that relate to official business 
of NOAA.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Edward Markey to 
                            Barry Lee Myers
    Question 1. One of the many programs NOAA's National Ocean Service 
harbors is the Office of National Marine Sanctuaries. The Gerry E. 
Studds Stellwagen Bank National Marine Sanctuary, off the coast of 
Massachusetts, is one of the world's premiere whale watching 
destinations and generates $24 million per year in New England. Marine 
Sanctuaries like this one are community-driven and provide for the 
conservation and stewardship of our Nation's natural, cultural, and 
historic resources while allowing for multiple uses. The Office of 
National Marine Sanctuaries serves as the trustee for a network of 
underwater parks encompassing more than 600,000 square miles of marine 
and Great Lakes waters. a. Do you commit to supporting the National 
Marine Sanctuary System?
    Answer. I agree that the National Marine Sanctuaries Program is a 
useful way to help preserve our natural resources and boost tourism. 
One of the reasons is the active role afforded to local communities 
with respect to their management. If confirmed, I would continue to 
support the program and role that State and local communities have with 
respect to the designation process to ensure their voices are heard.

    Question 2. In your testimony to the House Science, Space, and 
Technology Committee in June 2016, you said ``industry presents the 
best public facing forecasts and information.'' Yet AccuWeather has 
posed as a government entity by buying the domain name 
``nationalweatherservice.org'' and redirecting it to 
``accuweather.com.'' The National Weather Service has asked AccuWeather 
to stop using the domain name because it could confuse people looking 
for the National Weather Service's free weather forecasts. However, 
AccuWeather has not complied.
    Answer. AccuWeather has never posed as a government entity, in fact 
it has the strongest weather brand in the world. Its website is also 
free to the public. At the outset of the Internet in the 1990s all 
companies, usually through their technical service and computer 
departments, and many government agencies, scrambled to create and 
secure domain names that they thought would be important. It was 
somewhat the ``wild west'' and many people went to significant lengths 
to secure variations of words and names. Additionally, there were at 
the start of the Internet only four domains .com, .net, .gov, and .edu. 
Back then the .gov designation was for government sites, and the other 
domains were for others to use. Additionally, many URLs and brand or 
trademarks did not align. And many people had URLs that sounded or 
looked similar to other brands or organizations. AccuWeather has always 
been sensitive to those concerns. And over the many years since those 
days has policed issues to ensure common sense in the use of URL and 
also trademark alignment. Today, in 2017, there are an unlimited number 
of domains. As a result, there are now dozens of 
``nationalweatherservice'' domains currently in use or available for 
sale on the internet, such as ``nationalweatherservice.network.'' These 
are totally unrelated to AccuWeather or the National Weather Service, 
and the number will only be expected to grow. I was not the AccuWeather 
CEO in the 1990s at that time and did not always know about the many 
URL domains we had or that others registered. However, on January 3, 
2003, upon the request of the NWS, I was informed of this URL that had 
the name ``national'' ``weather'' and ``service'' in lower case letters 
and all run together as one long word with the .org URL suffix. In full 
cooperation with NWS I required the servers at AccuWeather be changed 
so that ``nationalweatherservice.org'' would no longer point to an 
AccuWeather site, and it was ``mothballed,'' in cooperation with NWS 
and as NWS had requested. In 2005 I was advised by the NWS that the URL 
was functional again and ordered it terminated again. Until your 
question, it was assumed that it continued to be inactive. However, 
upon inquiry this week, it was discovered that on or about June 20, 
2016 the company made server upgrades which updated all of the Domain 
Name Servers. This inadvertently reactivated the mothballed domain. 
That is why your staff thought it to be active. It has once again been 
deactivated. If you plug in that domain it will not go to AccuWeather. 
Such non-prompted domains usually generate little or no traffic. 
Although these actions under the Internet domain registration protocols 
were permissible, AccuWeather was responsive and cooperative with NWS 
when the issue was raised. In fact AccuWeather has always worked well 
with the NWS as to intellectual property concerns. For example, two 
years ago, at my behest, AccuWeather licensed two very important 
tornado warning observer reporting patents to NWS free of change, for 
the good of the public. The URL issue above was a minor unintended 
event. However, this situation, and your questions, have alerted me to 
an intellectual property issue relative to NOAA as to what actions 
were, and are, taken to protect the NWS brands and URLs, as a company 
would have done. This is an area I plan to have reviewed at NOAA, if 
confirmed.

    Question 3. Senator Wicker and I worked with the previous 
administration to stop illegal, unreported, and unregulated (IUU) 
fishing by making a strong seafood traceability rule. NOAA established 
the Seafood Import Monitoring Program which will go into effect on 
January 1, 2018. IUU fishing undermines honest fishermen and 
businessmen, threatens consumer health, and creates misleading data on 
the health of our oceans. The Seafood Import Monitoring Program 
establishes reporting and recordkeeping requirements to prevent IUU 
caught and/or misrepresented seafood imports of certain species. Do you 
commit to fully supporting and assigning sufficient resources to the 
enactment of this rule?
    Answer. I support implementation of the rule to ensure a level 
playing field for our domestic commercial fishermen. This is an 
important and large undertaking that will require setting priorities 
and efficient protocols to ensure it is successful.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                            Barry Lee Myers
    Question 1. What is your opinion of President Trump's 2018 proposed 
budget for NOAA? Do you support cutting programs like Sea Grant and the 
Coastal Zone Management Grants, as the administration proposed?
    Answer. Given NOAA's budget allocation, some valuable programs such 
as Sea Grant and CZMA grants fell below the line of what could be 
afforded. These are two such valuable programs. I look forward to 
understanding more about these and other budget priorities in the 
development of future presidential budget formulations.

    Question 2. In your written testimony you recognized the need for 
scientifically-enhanced management of our fisheries. Can you expand on 
what you meant by this statement?
    Answer. I support the locally developed annual catch limits and 
management decisions that are supported by the regional councils and 
the scientific and statistical committees. I also believe technology 
can be used to understand measures of fish stocks and landings in real 
time to enhance accuracy in stock count and catch in virtual real time.

    Question 2a. Do you agree that fisheries management decisions 
should be based on the best available science?
    Answer. Yes, as per national standard 2.

    Question 2b. Do you agree that overfishing should not be allowed 
and that depleted fisheries should be rapidly rebuilt?
    Answer. Yes, ending overfishing is one of the main goals of the 
Magnuson-Stevens Act and I support that law.

    Question 2c. Will you commit to opposing any actions that would 
undermine these core aspects of sustainable fisheries management?
    Answer. If confirmed, I will uphold the letter and spirit of the 
Magnuson-Stevens Act and any Congressional changes to that or other 
laws.

    Question 3. Do you agree that ocean acidification, driven by 
increased carbon dioxide emissions, is a major problem that poses an 
immediate economic threat to ocean and coastal industries across the 
U.S.?
    Answer. I understand that ocean acidification has had economic 
impacts including to the shellfish industry.

    Question 3a. Do you support the work of the NOAA Ocean 
Acidification Program, and will you oppose any cuts to the budget for 
this program?
    Answer. I will support ocean acidification research, monitoring and 
forecasting with funds appropriated by Congress.

    Question 4. What are your views on protected areas like National 
Marine Sanctuaries and Marine National Monuments as a tool for ocean 
conservation?
    Answer. I understand that marine protected areas provide 
significant ecological and economic benefits. I will support the 
transparent, and inclusive processes to establish such areas through 
the essential fish habitat protocols in the Magnuson-Stevens Act and 
the National Marine Sanctuaries Act.

    Question 4a. Do you agree that our Nation's federally-designated 
ocean protected areas should remain protected?
    Answer. If confirmed, I will uphold the statutory responsibilities 
of the agency. I believe that marine protected areas should be 
established and maintained through community-led and science-based 
protocols.

    Question 5. Do you agree that marine debris is a pressing problem 
facing the health of our ocean?
    Answer. Yes.

    Question 5a. Do you support the work of NOAA's Marine Debris 
Program to reduce such pollution at its source and clean up what is 
already there, and will you oppose any cuts to the budget for this 
program?
    Answer. I share your concern that marine debris adversely impacts 
marine life by entangling marine birds, marine mammals and other sea 
life. I understand that it also degrades to the molecular level with 
potential impacts to the worlds ocean food supply. If confirmed, I will 
implement funds as appropriated by Congress.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                            Barry Lee Myers
    Question 1. Consistent and reliable weather information is vital to 
public safety, national security, and our economy. National Weather 
Service employees work tirelessly to serve our communities. For 
example, in my home state of New Mexico and much of the Western U.S., 
we have faced natural disasters such as severe wildfires. Weather 
Service employees have provided specialized forecasts tailored to help 
firefighters safely and effectively extinguish those fires. In summary, 
the Weather Service is a public good. Can you explain why it's 
important for the Weather Service to continue to provide baseline 
forecasts? And, are there other benefits of having government-provided 
forecasts available to the public?
    Answer. Protecting life and property and the enhancement of the 
national economy is part of NOAA's core mission. These forecasts are 
vital to the work of firefighters that you reference, as well as many 
others across the Nation. NOAA should continue to provide the 
foundational forecasts that Americans rely on each and every day. I 
have always supported the free and open information availability from 
NOAA for all members of the public.

    Question 2. The space-based weather monitoring programs at NOAA 
National Environmental Satellite, Data, and Information Service 
(NESDIS) are critical to national defense, support one third of the 
U.S. economy, and, as Hurricane Harvey, Irma and Maria have made 
startlingly clear, provide critical warnings that save lives and 
protect property. To continue to protect this vital function for the 
nation, sufficient funding is needed to ensure NOAA space systems are 
developed in time to reduce the risk of weather data gaps. Will you as 
Administrator protect our Nation's critical weather satellite assets, 
including comprehensive planning to minimize gaps in coverage? Do you 
support the Polar Follow-On Program? Finally, do you intend to fully 
fund these programs, NESDIS and Polar Follow-On, going forward?
    Answer. Yes, I support our Nation's weather satellite programs and 
support continued satellite monitoring, as this data is important for 
our numerical weather models. It is my understanding that the 
President's FY18 budget request includes funding to develop PFO/JPSS-3 
and JPSS-4 instruments and spacecraft buses that are copies of JPSS-2. 
If confirmed, I will develop and provide a strategy, and look forward 
to working with you to ensure we have continuity of observations, while 
taking into consideration opportunities to reduce risk, save resources 
and advance capabilities.

    Question 3. NOAA's core missions are to understand and predict 
changes in the Earth's climate, weather, oceans and coasts; to share 
that knowledge and information with the public; and to conserve and 
manage our coastal and marine resources. Thus, the mission and 
portfolio of NOAA is incredibly broad and complex. While you do have 
extensive experience in the weather industry, how will you set 
priorities for the many other facets of NOAA, from space weather to 
fisheries? With no formal scientific background or experience, how will 
you set priorities for its $500 million research portfolio?
    Answer. NOAA is an environmental forecasting agency that funds many 
different research portfolios to support its missions. If confirmed, I 
look forward to leveraging NOAA's intramural scientific expertise, with 
external stakeholders in academia and industry to understand the full 
scope of research opportunities. I will work with NOAA's Science 
Advisory Board, the Executive Offices of the President and the 
Secretary of Commerce to establish priorities for NOAA moving forward 
and will continue to support the highest quality research that NOAA 
conducts. No one comes to this agency will full knowledge in all of its 
diverse areas, just as no CEO of a business comes to a business with 
full knowledge of all the diverse areas of a major company. If 
confirmed, I plan to ensure we have the executive and scientific 
leadership in all areas of the agency who bring the expertise to the 
decision making process needed in every area.

    Question 4. Our oceans are filled with items that do not belong 
there, including huge amounts of consumer plastics, metals, rubber, 
paper, textiles, derelict fishing gear, vessels, and other lost or 
discarded items. NOAA's marine debris program states that ``marine 
debris is one of the most widespread pollution problems facing the 
world's ocean and waterways.'' Do you agree that marine debris is a 
pressing problem facing the health of our ocean? Do you support the 
work of NOAA's marine debris program, in collaboration with 
corporations, NGOs, and countless citizens, to reduce such pollution at 
its source and clean up what is already there? Do you consider this a 
priority at NOAA?
    Answer. Yes, marine debris is a problem. And as time goes on it not 
only poses the gross scale problem of snaring birds, mammals and sea 
life, but as it degrades to the molecular level, could pose a health 
risk to the worlds ocean food supply. I support the work of NOAA's 
Marine Debris Program and if confirmed, I will implement funds as 
appropriated by Congress.

    Question 5. What is your view on NOAA's overall budget levels? Do 
you support cutting programs like the Sea Grant, the Coastal Zone 
Management Grants or any other program that the administration proposed 
to cut in its 2018 budget?
    Answer. Given the budget allocation, certain valuable programs, 
including Sea Grant and CZMA grants, fell below the line of programs 
that the agency could afford as priorities toward national security 
were prioritized. I look forward to learning more about these 
administration and congressional priorities to help inform future 
budget requests. I am a strong advocate for critical NOAA programs.

    Question 6. What is your view on protected areas, such as the 
National Marine Sanctuaries and Marine National Monuments, as a tool 
for ocean conservation? Do you agree that our Nation's federally-
designated ocean protected areas should remain protected?
    Answer. I understand that marine protected areas provide 
significant ecological and economic benefits. I will support the 
transparent, and inclusive processes to establish such areas through 
the essential fish habitat protocols in the Magnuson-Stevens Act and 
the National Marine Sanctuaries Act.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                            Barry Lee Myers
    Question 1. Several times during the hearing you were asked about 
scientific integrity and maintaining transparent scientific review 
process. You repeatedly emphasized a need for ``quality'' data, 
``quality'' science, scientists remaining uncensored, and a focus on 
the peer-review process. Different scientific disciplines have varying 
standards for what is deemed ``quality,'' and often data and science 
coming from Federal agencies undergo a thorough agency review before 
submission for peer-review. How will you ensure the agency review 
process does not become a barrier to publicly sharing data and science 
produced by Federal scientists?
    Answer. In references to ``quality'', I refer both to the standards 
of the respective scientific disciplines as well as Federal guidance 
and policies such as the Office of Management and Budget's Information 
Quality Guidelines (IQGs) and the Bulletin on Peer Review. The IQGs 
contemplate varying complexities of review depending upon the nature of 
the research, with highly influential scientific assessments requiring 
the most extensive review process. I support this flexible approach to 
scientific review.

    Question 2. For some scientific fields, the peer-review process is 
not necessarily needed in its entirety to ensure ``quality'' data. How 
do you define ``quality data'' and ``quality science''? And do you plan 
to follow the standards of practice for the various scientific 
disciplines that fall under NOAA?
    Answer. As stated in my previous answer, there are existing Federal 
policies that govern the development and usage of information by 
Federal agencies. If confirmed, I will continue to apply these policies 
to NOAA's science.

    Question 3. According to NOAA, for the past four years, we have 
experienced the warmest years on record with each year breaking the 
preceding year's record. We are on track for 2017 to be just as warm. 
Previous assistant secretaries in this position have played a major 
role in driving the administration's priorities related to climate 
science. What do you believe is NOAA's role in measuring and addressing 
the impacts of climate change?
    Answer. At its core, NOAA is an environmental measurement and 
forecasting agency. NOAA's role is to observe and measure the many 
aspects of our environment through its vast and extensive observing 
networks. As the climate changes it is NOAA's role to provide climate 
data and analysis that informs decision makers.

    Question 4. How will you build capacity throughout NOAA and the 
National Weather Service to better integrate social and behavioral 
sciences into response plans, improve the communication of scientific 
information, and increase our understanding of the social dynamics and 
needs of vulnerable subpopulations to help prevent weather-related 
injuries, fatalities, and damage?
    Answer. Our ability to observe and forecast weather continues to 
improve, but there are still nearly 6,000 people killed and over 
400,000 injured every year in weather-related incidents. Having 
improved physical science alone will not reduce fatalities and injuries 
when extreme weather strikes. Studies have shown a need to integrate 
social and behavioral sciences into weather-related incident response 
in order to improve communication amongst meteorologists, emergency 
managers and the public. The Impact-Based Decision Support Services 
(IDSS) is helping to make strides in incorporating social and 
behavioral science to better communicate the physical science. The 
National Weather Service's impact-based decision support services 
(IDSS) are characterized by NWS as forecast advice and interpretative 
services NWS provides to core partners such as emergency personnel and 
public safety officials when there are special impacts. The program is 
built on working closely with those partners using science, technology 
and development of deep relationships with such core partners. Core 
partners also include members of the weather industry and the weather 
media who provide specialized services and public distribution of 
public and private information and also relates to the Weather Ready 
Nation initiative. This program operating philosophy was being further 
developed through public comment last year (2016). Accordingly, more 
experience and evaluation of the program in practice is needed to fine 
tune and target the program to develop the greatest value for the 
Nation from the program concept.

    Question 5. When we met earlier this month, you stated that NOAA 
and private weather companies each has a defined ``swim lane'' that 
each should stay in when regarding the role of each is providing 
weather forecast services and products. Closely mimicking website 
domains--as AccuWeather seems to have done with NOAA websites--seems to 
blur the lines between NOAA's public role and the role of private 
companies. Could you elaborate on what you believe belongs in NOAA's 
``lane' and what companies are allowed to privatize?
    Answer. As to the website domain issue please see the detailed 
addendum to this list of questions at the very end. NOAA's role in 
providing critical weather warnings and forecasts lies at the core of 
its mission. NOAA should continue to provide the foundational forecasts 
that protect life and property. As the private weather industry 
continues to evolve, they should focus on adding additional value. 
Companies in our society are free to use government and other data in 
all areas, not just weather, to innovate and create new or similar 
products and services as the government. This helps the growth of the 
economy, the creation of jobs, and in the weather field has resulted in 
the best weather information available anywhere on Earth, to the 
American public and the free carriage of government weather information 
to the public with no additional distribution costs to the government.

    Question 6. Who do you think should be allowed to issue emergency 
weather watches and warnings?
    Answer. I believe it is in the best interest for NOAA to continue 
to provide watches and warnings. Social science research has shown that 
the public often wants secondary confirmation from an additional source 
before they act. Weather companies fill this role in issuing both 
government watches and warnings and their own watches and warnings and 
analysis.

    Question 7. Would you agree that NOAA should have absolute 
authority to communicate weather watches and warning to emergency 
managers and the public in order to reduce confusion and maintain 
safety?
    Answer. NOAA should be the official Federal Government source to 
provide watches and warnings to the state and local government 
emergency management community. Many state and local government 
emergency management agencies use weather industry input from weather 
companies or actually employ private sector meteorologists to be on 
their payroll to provide the secondary source confirmation and 
analysis. This has proved to be a most effective approach.

    Question 8. Like many across the Nation, I was grateful for the 
recent successful launch of JPSS-1. The observations from JPSS-1--now 
NOAA-20--will provide critical observations on ice cover, harmful algal 
blooms, and flooding. I cannot fathom the Administration's decision to 
gut funding for the follow-on to the JPSS program. If confirmed, you 
will lead the agency that is primarily responsible for these satellite 
programs. Given the administration's lack of support for NOAA's 
satellite programs, how will you support continued progress in 
developing and launching the remainder of the polar orbiting 
satellites--JPSS-2 through 4?
    Answer. I understand the difficulties and challenges associated 
with NOAA's satellite programs and their budgets. In recent years, NOAA 
satellites have accounted for roughly 40 percent of the agency's 
overall budget while simultaneously trying to balance other important 
portfolios. My understanding is that the President's FY18 Budget 
request allows for continued development of the program while also 
initiating a program re-plan for the Polar Follow-On program. If 
confirmed, I look forward to reviewing this plan and working with 
Congress to ensure a gap in coverage is avoided.

    Question 9. The National Weather Service employs thousands of 
people to process data, run models, and produce weather forecasts that 
are critical to keeping Americans prepared and safe. The staff of the 
National Weather Service are dedicated to providing critical 
information to emergency managers and the public, often working around 
the clock during natural disasters like the recent string of 
hurricanes. Recent reporting by the Government Accountability Office 
shows 11 percent of positions at NOAA are unfilled. According to media 
reports, this thread-bare staffing has lowered morale across the 
agency. How will you ensure that the National Weather Service is 
adequately staffed and can maintain all of its field offices, ensuring 
that field offices even in remote and rural areas remain open?
    Answer. I understand that NWS has experienced staffing issues for a 
number of years. As NWS continues to evolve, it must remain efficient 
and effective to serve the American people. I applaud NWS for 
initiating the Operations and Workforce Analysis study and look forward 
to reviewing its recommendations on how NWS can better protect lives 
and property.

    Question 10. What will you do to reduce the unfilled positions at 
NOAA?
    Answer. As stated above, I will review the Operations and Workforce 
Analysis study recommendations which are part of NWS' Evolve 
Initiative. I will also work with my counterparts at the Department of 
Commerce to better understand the staffing issues.

    Question 11. I appreciated your response to my questions about NOAA 
data and the need for improved cybersecurity protocols during your 
confirmation hearing, thank you. As part of your answer, you referenced 
a 2016 letter sent by private weather companies to NOAA, outlining 
concerns with the proposed transition away from Family of Services and 
toward IDSS. Please provide the Committee with a copy of that letter.
    Answer. Attached as separate PDF. Addendum on website labeling: 
AccuWeather has never posed as a government entity, in fact it has the 
strongest weather brand in the world. Its website is also free to the 
public. At the outset of the Internet in the 1990s all companies, 
usually through their technical service and computer departments, and 
many government agencies, scrambled to create and secure domain names 
that they thought would be important. It was somewhat the ``wild west'' 
and many people went to significant lengths to secure variations of 
words and names. Additionally, there were at the start of the Internet 
only four domains .com, .net, .gov, and .edu. Back then the .gov 
designation was for government sites, and the other domains were for 
others to use. Additionally, many URLs and brand or trademarks did not 
align. Now, in 2017, there are an unlimited number of domains. As a 
result, there are now dozens of ``nationalweatherservice'' domains 
currently in use or available for sale on the internet, such as 
``nationalweatherservice.network.'' These are totally unrelated to 
AccuWeather or the National Weather Service, and the number will only 
be expected to grow. I was not CEO in the 1990s and at that time and 
did not always know about the many URL domains we had. However, on 
January 3, 2003, upon the request of the NWS, I was informed of this 
and required the servers at AccuWeather be changed so that 
``nationalweatherservice.org'' would no longer point to an AccuWeather 
site, and it was ``mothballed,'' in cooperation with NWS and as NWS has 
requested. In 2005 I was advised by the NWS that the URL was functional 
again and ordered it terminated again. Until your question, it was 
assumed that continued to be the case. However, upon inquiry this week, 
it was discovered that on or about June 20, 2016 the company made 
server upgrades which updated all of our Domain Name Servers. This 
inadvertently reactivated the mothballed domain. It has again been 
ordered to be inactivated. Such non-prompted domains usually generate 
little or no traffic. Although these actions under the Internet domain 
registration protocols were permissible, AccuWeather was responsive and 
cooperative with NWS when the issue was raised. In fact AccuWeather has 
always worked well with the NWS as to intellectual property concerns. 
For example, two years ago the company licensed two important tornado 
warning observer reporting patents to NWS free of change for the good 
of the public. It seems that actions were not taken to protect the NWS 
brand or URL, as a company would have done, in the earlier days of the 
internet. This is an area I plan to have reviewed at NOAA, if 
confirmed.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maggie Hassan to 
                            Barry Lee Myers
    Question 1. What is your plan to assure cost growth control for the 
National Environmental Satellite, Data, and Information Service 
(NESDIS)? As the NESDIS budget has continued to increase, the National 
Weather Service (NWS) has been relatively flat.
    Answer. I understand that over the years NESDIS has experienced 
significant growth in its budget, and now represents roughly 40 percent 
of NOAA's budget. If confirmed, I will review NOAA's satellite 
acquisition management processes to ensure that NOAA is being as 
efficient and effective as possible. I also understand that NOAA is 
currently reviewing its satellite system architecture. I look forward 
to reviewing this report. In addition, longer term, the value of 
private satellite data and information will need to be considered.

    Question 2. What will you do to ingest more cutting-edge research 
into NOAA operations from academia? What are the obstacles you see and 
how will you address this in your goal of making the U.S. number one in 
weather modeling and tapping the deep reservoir of talent at America's 
research universities?
    Answer. Research at NOAA must remain a priority and focus in order 
to improve our operational products and services. For instance, the 
Weather Act supported weather research both at NOAA as well as its 
cooperative institutes that partner with universities, to produce high 
quality environmental research. These types of collaborations are 
essential to ensuring robust research that can increase NOAA's 
operational skill. One of the Nation's leaders in this field Dr. Fuqing 
Zhang from Penn State and I have discussed this topic for several years 
and he gave a strong endorsement to my nomination.

    Question 3. NOAA Administrator Conrad Lautenbacher, during 
President George H. W. Bush's Administration, had a goal of 50 percent 
intramural research and 50 percent extramural to research universities 
and other research organizations. While he did not achieve this ratio, 
he did partner with other entities to address research needs and 
developed programs like the U.S. Integrated Ocean Observing System 
(IOOS) that relied on trusted academic partners. As Administrator, 
would you adopt a similar balanced approach to extramural and 
intramural research?
    Answer. I share Admiral Lautenbacher's approach to balancing 
intramural and extramural research as I believe that the academic 
research model can be an efficient, effective and flexible mechanism to 
answering key research questions facing the agency. I will look to 
utilize the full suite of funding mechanisms to access the expertise of 
the academic community, such as prioritizing the National Ocean 
Partnership Program to leverage other agency and private sector funds. 
He is aware of my dedication to these goals and has endorsed my 
nomination.

    Question 4. Which areas in NOAA's research portfolio do you think 
should be opened to more academic input and collaboration, and which 
should remain intramural?
    Answer. Competitive extramural programs have the potential to 
achieve greater performance than non-competitive intramural programs, 
though extramural grant-making is not always the most effective 
approach to support operations. I have personally met with leading 
scientists and scientific organizations that are partners with NOAA's 
programs and have heard that NOAA can and should do more to leverage 
the extramural community. If confirmed, I would both evaluate the 
allocation of spending within NOAA's research portfolio and look for 
opportunities to support more extramural research.

    Question 5. What is your position on a ``Weather'' National Academy 
Decadal Survey? Do you think the country needs one? The Earth Observing 
decadal survey (representing the space-based atmospheric community) 
works well because it gets a great deal of input from critical 
communities. You signed on to the declaration of The Weather Enterprise 
Consensus Building Conference in 2013 to create a Weather Commission. 
Would you now support such a Commission or Weather Decadal?
    Answer. NOAA has benefited from many reports analyzing its 
operations and mission over the years. The National Academy of Public 
Administration, the National Academy of Sciences, the Government 
Accountability Office, and others (most of which I have contributed to) 
have produced important reports that have helped guide the agency 
forward. If confirmed, I will examine the need for such a Decadal 
Survey dedicated to weather and work with Congress on the issue.

    Question 6. In 2005, you (Mr. Myers) supported the ``National 
Weather Service Duties Act'', which had it passed, would have 
effectively prohibited the National Weather Service from dissemination 
of weather data to the public. As the Administrator of NOAA, you will 
oversee vast data holdings representing many years of collection of 
invaluable data about our earth and oceans. These holdings include not 
only data collected by NOAA for the management of our fisheries, 
atmosphere, weather, climate, nautical charting etc. but NOAA also 
holds all data collected through the National Science Foundation and 
other Federal agencies. This data, as a matter of policy and scientific 
rigor, have always been made freely available.
    Answer. I did not advocate prohibiting the National Weather Service 
from dissemination of weather data to the public. I have, in fact, 
always supported the opposite--the free and open access of all 
government weather data to the public--both private citizens and 
businesses alike--through uniform release mechanisms to everyone at the 
same time so that no one person or business had any advantage. I 
continue strongly to support that position. The situation more than 
half a generation ago was much different than today. By way of brief 
background, it was in fact the NOAA policy from 1991, published in the 
Federal Register, that itself stated ``NWS will not compete with the 
private sector when a service is currently provided or can be provided 
by commercial enterprises, unless otherwise directed by applicable 
law.'' It was this policy that NOAA revoked in 2003. The National 
Research Council in its Fair Weather Report states that House and 
Senate reports regularly admonished the NWS to avoid competing with the 
private sector. In January 2004 both houses of Congress were concerned 
about this issue to the extent that they placed the following language 
in the joint appropriation report, ``The conferees urge NOAA and NWS to 
take maximum advantage of capabilities and services that already exist 
in the commercial sector to eliminate duplication and maximize the 
accomplishment of the core mission of the NWS.'' It was following those 
concerns that S 786 was introduced to place the 1991 NOAA Policy, then 
recently revoked, into law. It did not move forward, but the government 
and weather industry have now spent a decade working well together, 
through the leadership of myself and others, to have the best weather 
information sources available to the public of any country on Earth.

    Question 7. One of NOAA's critical missions is the collection of 
hydrographic (seafloor mapping) data to assure safe navigation for the 
vessels the fuel the U.S. economy. Can you explain how you will ensure 
that NOAA retains the ability to collect and disseminate these critical 
data?
    Answer. I share your concern regarding the importance of 
hydrographic mapping. The President's FY18 Budget continues to support 
the collection of hydrographic data by NOAA's programs. If confirmed, I 
will continue to work to maintain this capability.

    Question 8. NOAA has had a long history of partnering with the 
academic community in number of research areas using various mechanisms 
including Cooperative Institutes. How do you see NOAA's relationship 
with the academic sector evolving under your administration?
    Answer. Cooperative Institutes are one of several approaches used 
by NOAA's programs to leverage the academic research community. In my 
conversations with the oceanographic community, I have heard that 
another extramural funding mechanism--the National Oceanographic 
Partnership Program (NOPP)--is underutilized. If confirmed, I will look 
at reenergizing NOPP as a means of further leveraging the capabilities 
of the academic community
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                           to Barry Lee Myers
Invasive Species
    Question 1. As a follow-up to our conversation during your hearing, 
please provide a full response to this question I raised: As NOAA 
serves as co-chair of the Aquatic Nuisance Species Task Force (FACA), 
how will you enhance its focus on aquatic invasive species issues given 
warming water temperatures will have severe impacts not only on Lake 
Tahoe ecosystems and economies, but nationwide?
    Answer. I share your concern regarding climate and its interaction 
with invasive species. Invasive species can present a significant risk 
to both biodiversity and economic activity, particularly in coastal 
ecosystems where NOAA's programs frequently operate. If confirmed, I 
would support NOAA's full participation in the Aquatic Nuisance Species 
Task Force.
National Weather Service Consolidation
    Question 2. In July 2016, the NWS briefed the Deputy Secretary of 
Commerce on a preliminary plan to close two-thirds of the Nation's 122 
forecast offices at night and on weekends, including the Las Vegas and 
Elko Forecast offices, and consolidate the responsibility to issue 
severe weather warnings at the remaining forecast offices. However, 
Congress has previously rejected a similar consolidation plan when it 
prohibited the NWS from implementing any ``plan to consolidate, 
regionalize, or reduce service hours at weather service forecast 
offices'' as part of the FY 2006 State, Justice and Commerce 
Appropriations Act. If confirmed, would you move ahead to reduce 24/7 
operations at any of the forecast offices?
    Answer. The work of the National Weather Service is vital to 
protecting life and property through its critical weather forecasting 
capabilities. As NWS continues to evolve to serve the American people, 
it will be my duty, if confirmed, to ensure that operations are 
efficient and effective. I look forward to reviewing the 
recommendations from the recent Operations and Workforce Analysis study 
and working with Congress to chart the most appropriate path forward. 
And I look forward to being briefed in detail by the National Weather 
Service as to their plan and rationale. In any event, the quality of 
severe weather warnings must be un-degraded and constantly improved, 
regardless of office configurations.
Climate Change Perspective
    Question 3. Your company, AccuWeather, states on its website that 
``there can be little doubt that human beings influence the world's 
climate.'' Do you agree with the statement that you believe that the 
climate is changing?
    Answer. Yes.

    Question 4. Do you believe human activity is a primary cause of 
climate change?
    Answer. While it is difficult to assign exact values to each cause 
of climate change, I recognize that humans do have a significant impact 
through non-sustainable deforestation, development, increased 
greenhouse gas emissions, and other global activities. Many of these 
are set forth in the CSSR report issued on November 3, 2017.

    Question 5. Do you believe climate change is a cause for the 
increasing number of extreme weather events across the globe?
    Answer. The nexus between climate change and extreme weather events 
is currently being explored by scientists around the world. While it is 
extremely difficult to find climate signals in individual extreme 
weather events, it will be important for NOAA to continue its 
monitoring and observing networks so that we can better understand and 
analyze data trends that will help inform these answers. For example, 
will changes in climate mean more or fewer hurricanes, more intense or 
less intense hurricanes, hurricanes in new and different locations, or 
in similar locations but with varying intensities for the past at some 
locations and not others.

    Question 6. Will you protect the role of NOAA in continuing robust 
climate research?
    Answer. Yes, If confirmed, it is my intention to continue all areas 
of NOAA's research portfolios.

    Question 7. On that same webpage, it states: ``we urge all 
scientists and members of the public to engage in the global climate 
change discussion.'' Does that seem to comport with the Administration 
you are trying to join, where budgets are being cut to study our 
climate?
    Answer. In difficult budgetary situations, we must look to ensure 
funding for many programs under NOAA's portfolio. While some programs 
have received reduced growth or reductions compared to recent years, it 
is my intent to continue the research of all NOAA portfolio areas.
National Weather Service ``Evolve''
    Question 8. During the hearing, I asked you about the ``Evolve'' 
initiative. While you noted support for core partners, such as 
emergency managers, you were not as clear about your interest or intent 
to provide such services to other public entities such as the media and 
other outreach. So I would like to get a specific response from you on 
this question again in writing: As part of its ``Evolve'' initiative, 
the National Weather Service plans to retrain and refocus its field 
workforce to provide ``impact-based decision support services'' to both 
core partners, such as the media and local governmental entities, and 
its general partners, such as local hospitals and schools districts and 
the general public. These efforts include webinars, briefings, 
providing spot forecasts, utilizing social media, preparedness 
education, development of specialized forecasts, pre-event planning 
exercises, and on-site deployments of NWS forecasters. Do you support 
the ``evolution'' of NWS services in this direction?
    Answer. Yes. As NWS continues its Evolve initiative, it is my 
intent to include all relevant stakeholders in these discussions and 
include all relevant participation when and as appropriate.

    Question 9. If not, will you as NOAA Administrator curtail or 
terminate this aspect of the NWS's ``Evolve'' initiative?
    Answer. It is not my intent to terminate NWS' Evolve initiative.

                                  [all]

                  This page intentionally left blank.
     
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
